<html>
<title> - WORLD-WIDE THREATS TO THE HOMELAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]







 
                   WORLD-WIDE THREATS TO THE HOMELAND

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2020

                               __________

                           Serial No. 116-83

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                            __________
                               
               U.S. GOVERNMENT PUBLISHING OFFICE 
 43-956 PDF               WASHINGTON : 2021                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada                   Mike Garcia, California
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     9
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................    10

                               Witnesses

Mr. Christopher A. Wray, Director, U.S. Federal Bureau of 
  Investigation:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Christopher Miller, Director, National Counterterrorism 
  Center:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                             For the Record

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Prepared Statement of the Senior Official Performing the Duties 
    of Deputy Director, Mr. Kenneth T. Cuccinelli II, U.S. 
    Department of Homeland Security..............................     5
The Honorable Al Green, a Representative in Congress From the 
  State of Texas:
  Article, Washington Post, September 14, 2020...................    62
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, New York Times, Published July 18, 2020/Updated July 
    21, 2020.....................................................    76
  Article, Washington Post, September 11, 2020...................    78
  Article, ABC News via Everett Post, September 8................    80
  Article, NPR, August 2, 2018...................................    84

                                Appendix

Questions From Chairman Bennie G. Thompson for Christopher Miller    89
Questions From Chairman Bennie G. Thompson for Christopher A. 
  Wray...........................................................    91
Questions From Honorable Lauren Underwood for Christopher A. Wray    93
Questions From Honorable Lauren Underwood for Chad Wolf..........    93


                   WORLD-WIDE THREATS TO THE HOMELAND

                              ----------                              


                      Thursday, September 17, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m., in 
room 2167, Rayburn House Office Building and via Webex, Hon. 
Bennie G. Thompson (Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Richmond, Payne, Rice, Correa, Torres Small, Rose, Underwood, 
Slotkin, Cleaver, Green of Texas, Clarke, Titus, Watson 
Coleman, Demings, Rogers, Katko, Higgins, Lesko, Joyce, 
Crenshaw, Guest, Bishop, Van Drew, and Garcia.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    As I said, the Committee on Homeland Security will come to 
order.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Good morning.
    Mrs. Watson Coleman. Good morning.
    Chairman Thompson. Before we begin, I want to say our 
thoughts are with those Americans dealing with devastating 
natural disasters, including the wildfires in the West and 
Hurricane Sally in the South. As Chairman, I remain committed 
to ensuring they receive the Federal help needed to respond, 
recover, and build back stronger.
    Today, the Committee on Homeland Security is meeting for 
its annual hearing on ``World-wide Threats to the Homeland.'' 
Our Nation recently observed the 19th anniversary of the 
terrorist attacks of September 11, 2001. Nearly 2 decades 
later, we continue to mourn the nearly 3,000 lives lost that 
terrible day and keep their loved ones in our prayers.
    This committee and the Department of Homeland Security were 
established in the wake of 9/11 to help prevent future attacks 
on our soil. Regardless of who was Chairman, we have held 
regular hearings examining world-wide threats with leaders from 
the Department of Homeland Security, FBI, and National 
Counterterrorism Center. Regardless of who was occupying the 
White House, whether Democrat or Republican, we have received 
cooperation in that effort. Today was supposed to be no 
different.
    Unfortunately, as we see from the empty chair in front of 
us, Mr. Chad Wolf is not here to represent the Department of 
Homeland Security. Let me be clear about how we got here. The 
committee began engaging with the Department over 3 months ago 
on June 10, 2020, to secure Mr. Wolf's participation in this 
hearing, alongside his colleagues from the FBI and National 
Counterterrorism Center.
    Any assertion that the administration committed to having 
DHS, FBI, and NCTC testify before this committee as a world-
wide threats hearing in July is false. DHS tentatively offered 
a couple of dates but then could not agree with its FBI and 
NCTC counterparts on the date for the hearing in June or July.
    In fact, it was the Department of Homeland Security that 
conveyed to the committee that September 17 was the earliest 
Mr. Wolf would be available to testify at this hearing. In the 
interest of receiving Mr. Wolf's testimony, the committee 
agreed to the offered date. It was not until last week that the 
Department informed the committee that Mr. Wolf would be 
reneging on the commitment to testify in anticipation of being 
nominated for Secretary of Homeland Security.
    I would note that, despite his refusal to testify today, 
Mr. Wolf has spoken to the media on multiple occasions since 
President Trump announced he intended to nominate Mr. Wolf to 
be Secretary of Homeland Security, including no fewer than 4 
appearances on FOX News. Mr. Wolf has run the Department of 
Homeland Security for the last 10 months and has been 
responsible for numerous decisions directly relevant to the 
subjects the committee intends to explore.
    With that in mind, last week I wrote Mr. Wolf to make clear 
that there is no legal prohibition barring a nominee's 
testimony, and to urge him to honor his commitment. In 
response, the Department, again, declined to provide Mr. Wolf 
to testify at this hearing.
    Faced with continued refusal, on Friday, I issued a 
subpoena for his appearance in accordance with House and 
Committee rules. Regrettably, he has chosen to defy the 
subpoena. That he would refuse to come before the committee 
after committing to do so should appall every Member of this 
committee. Insisting Mr. Wolf keep his commitment to testifying 
before Congress isn't playing politics, it is doing our job.
    Congress has the authority and obligation to execute its 
Constitutional oversight responsibilities regarding Mr. Wolf's 
decision and the Department's action during his tenure. As 
Chairman, it is my responsibility to ensure the committee 
fulfills its Constitutional responsibility.
    Nineteen years after the attacks of 9/11, we continue to 
face grave threats to the homeland, including the rise of 
domestic terrorism, on-going foreign interference in the 2020 
elections, and a coronavirus pandemic that has claimed nearly 
200,000 American lives.
    As the person running the Department of Homeland Security, 
Mr. Wolf should be here to testify as Secretaries of Homeland 
Security have done before. Instead, we have an empty chair, an 
appropriate metaphor for the Trump administration's dereliction 
on so many of these critical homeland security issues.
    Mr. Wolf may attempt to evade oversight and the Department 
may try silly stunts to distract from this hearing, but we will 
not waiver. The stakes are just too high. Indeed, former 
Department officials, the administration's own political 
appointees, are coming forward to sound the alarm that our 
Nation's security is being compromised in favor of the 
President's political interests.
    Americans who care about securing the homeland and 
upholding our most sacred values expect their representatives 
to hold the Department of Homeland Security and this 
administration accountable. Be assured that, under my 
Chairmanship, I will not waiver in my commitment to doing so 
today or in the future.
    To that end, I am pleased that Director Wray and Director 
Miller are hear today. I look forward to their testimony and 
the Members' questions.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           September 17, 2020
    Before we begin, I want to say our thoughts are with those 
Americans dealing with devastating natural disasters, including the 
wildfires in the West and Hurricane Sally in the South. As Chairman, I 
remain committed to ensuring they receive the Federal help needed to 
respond, recover, and build back stronger.
    Today, the Committee on Homeland Security is meeting for its annual 
hearing on ``World-wide Threats to the Homeland.'' Our Nation recently 
observed the 19th anniversary of the terrorist attacks of September 11, 
2001. Nearly 2 decades later, we continue to mourn the nearly 3,000 
lives lost that terrible day and keep their loved ones in our prayers.
    This Committee and the Department of Homeland Security were 
established in the wake of 9/11 to help prevent future attacks on our 
soil. Regardless of who was Chairman, we have held regular hearings 
examining world-wide threats with leaders from the Department of 
Homeland Security, FBI, and National Counterterrorism Center. And 
regardless of who has occupied the White House, whether Democrat or 
Republican, we have received cooperation in that effort.
    Today was supposed to be no different. Unfortunately, as we see 
from the empty chair in front of us, Mr. Chad Wolf is not here to 
represent the Department of Homeland Security. Let me be very clear 
about how we got here.
    The committee began engaging with the Department over 3 months 
ago--on June 10, 2020--to secure Mr. Wolf's participation in this 
hearing, alongside his colleagues from the FBI and National 
Counterterrorism Center. Any assertion that the administration 
committed to having DHS, FBI, and NCTC testify before this committee at 
a world-wide threats hearing in July is false.
    DHS tentatively offered a couple of dates but then could not agree 
with its FBI and NCTC counterparts on a date for the hearing in June or 
July. In fact, it was the Department of Homeland Security that conveyed 
to the committee that September 17 was the earliest Mr. Wolf would be 
available to testify at this hearing. In the interest of receiving Mr. 
Wolf's testimony, the committee agreed to the offered date.
    It was not until last week that the Department informed the 
committee that Mr. Wolf would be reneging on the commitment to testify 
in anticipation of being nominated for Secretary of Homeland Security. 
I would note, that despite his refusal to testify today, Mr. Wolf has 
spoken to the media on multiple occasions since President Trump 
announced he intended to nominate Mr. Wolf to be Secretary of Homeland 
Security, including no fewer than 4 appearances on Fox News.
    Mr. Wolf has run the Department of Homeland Security for the last 
10 months and has been responsible for numerous decisions directly 
relevant to the subjects the committee intends to explore. With that in 
mind, last week I wrote Mr. Wolf to make clear that there is no legal 
prohibition barring a nominee's testimony and to urge him to honor his 
commitment. In response, the Department again declined to provide Mr. 
Wolf to testify at this hearing. Faced with continued refusal, on 
Friday I issued a subpoena for his appearance in accordance with House 
and Committee Rules. Regrettably, he has chosen to defy the subpoena 
and refuses to come before the committee after committing to do so 
should appall every Member of this committee. Insisting Mr. Wolf keeps 
his commitment to testifying before Congress isn't playing politics--
it's doing our job.
    Congress has the authority and obligation to execute its 
Constitutional oversight responsibilities regarding Mr. Wolf's 
decisions and the Department's actions during his tenure. As Chairman, 
it is my responsibility to ensure the committee fulfills its 
Constitutional responsibilities.
    Nineteen years after the attacks of 9/11, we continue to face grave 
threats to the homeland. Including: The rise of domestic terrorism, on-
going foreign interference in the 2020 elections, and a coronavirus 
pandemic that has claimed nearly 200,000 American lives. As the person 
running the Department of Homeland Security, Mr. Wolf should be here to 
testify as Secretaries of Homeland Security have done before. Instead, 
we have an empty chair--an appropriate metaphor for the Trump 
administration's dereliction on so many of these critical homeland 
security issues.
    Mr. Wolf may attempt to evade oversight and the Department may try 
silly stunts to distract from this hearing, but we will not waiver. The 
stakes are just too high. Indeed, former Department officials--the 
administration's own political appointees--are coming forward to sound 
the alarm that our Nation's security is being compromised in favor of 
the President's political interests.
    Americans who care about securing the homeland and upholding our 
most sacred values expect their representatives to hold the Department 
of Homeland Security and this administration accountable. Be assured 
that under my Chairmanship, I will not waiver in my commitment to doing 
so today or in the future. To that end, I am pleased that Director Wray 
and Director Miller are here today.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    Before I get started, I want to acknowledge our newest 
Member of the committee, Mr. Garcia, who I know is going to be 
a great addition to our committee's work in the future.
    Since the heinous attacks of September 11, we have made 
great strides to thwart global jihadist operations and to stop 
threats before they reach our shores. However, today, global 
jihadists are joined by cyber hackers, rival nation-states, and 
transnational criminal organizations. Together they present 
incredible new risk to our economy, our safety, and our way of 
life. Make no mistake, the threats to our homeland have never 
been more real than they are today. That is why it is important 
that we, as Members of this committee, understand those 
threats.
    It is our job to ensure that DHS, FBI, and our intelligence 
community have the resources and authorities they need to 
continue to dismantle terrorist organizations and protect our 
homeland.
    I look forward to hearing more about how the 
administration's countering the threat from al-Qaeda, China, 
and Iran, and others who seek to do us harm.
    Mr. Chairman, I am also disappointed DHS is not here today, 
but I want the record to be very clear on why DHS is not 
represented. It is not the fault of the Department or this 
administration. Acting Secretary Wolf offered to testify before 
this committee in both July and August. Unfortunately, the 
Majority refused to make either of those dates work. Now, due 
to his nomination, Mr. Wolf is prohibited from testifying under 
a policy that has been in place under both Republican and 
Democrat administrations for decades.
    Nevertheless, due to the significance of today's hearing, 
the Department offered to have Mr. Cuccinelli testify. He is 
the second-highest ranking official at DHS and perfectly 
qualified and informed on today's subject matter.
    I ask unanimous consent to include his testimony for the 
record.
    Mr. Thompson. Without objection.
    [The information follows:]
  Prepared Statement of the Senior Official Performing the Duties of 
Deputy Director, Kenneth T. Cuccinelli II, U.S. Department of Homeland 
                                Security
              9 o'clock a.m., Thursday, September 17, 2020
    Good morning Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify before you on behalf of the Department of Homeland Security 
(DHS) regarding today's threats to the Homeland. Born out of the ashes 
of 9/11, the American people tasked DHS with one purpose: To protect 
this great Nation and keep our citizens safe.
    As Acting Secretary Wolf said in his recent State of the Homeland 
remarks, ``the Department of Homeland Security is bound by one mission, 
one creed. Answering the call, often times in the most arduous of 
environments and difficult of circumstances, to safeguard the American 
people, our homeland, and our values from all threats, all the time--
both today, tomorrow, and in the months and years to come.''
    Although the threats facing our Nation 17 years ago when DHS was 
founded have evolved significantly, DHS continues to be motivated to 
adapt in order to address these new and emerging threats.
    DHS addresses these emerging threats with a clear mandate from 
President Trump: The safety, security, and prosperity of the American 
people comes first. DHS, using our unique authorities, and in 
collaboration with our Federal, State, and local partners, will 
continue to make good on this promise.
    Indeed, under the leadership of President Trump, the 240,000 men 
and women of the DHS family have been empowered to overcome new and 
challenging threats, as well as accomplish our enduring no-fail 
missions. Specifically:
  <bullet> We are combating crises at the Southern Border--such as 
        human trafficking, drug smuggling, and unprecedented illegal 
        migration flows--while restoring integrity to the immigration 
        system;
  <bullet> We are maintaining vigilance against terrorist threats, 
        foreign and domestic, within the bounds of our authorities;
  <bullet> DHS has been a part of the whole-of-America response to 
        COVID-19, leveraging every aspect of our Federal Government 
        through a locally-executed, State-managed, and Federally-
        supported strategy;
  <bullet> We are protecting Federal buildings and Federal workforce, 
        including Federal law enforcement officers, from an emerging 
        threat of violent rioters;
  <bullet> We are preparing for and responding to natural disasters;
  <bullet> We are identifying and preventing malign foreign actors and 
        nation-states from interfering in our elections and protecting 
        our election infrastructure, as part of our broader mission to 
        safeguard and secure cyber space; and
  <bullet> We are aggressively responding to the threat posed by 
        China--now and in the future.
                            border security
    Nearly 4 years ago, the American people elected President Trump 
with a mandate to secure our borders and enact an America First 
immigration policy.
    To stem the tide of human smuggling, drug smuggling, and criminal 
gangs flooding across our border and into our country, the Trump 
administration has constructed more than 300 miles of the border wall 
system. Our work is not finished. We are on track to complete 450 miles 
by the end of 2020.
    We have interdicted more than 4 million pounds of illegal drugs on 
the Southern Border, including methamphetamine, cocaine, as well as 
fentanyl and drug analogues originating from China. Most of these drugs 
are supplied by transnational crime organizations making billions in 
profits while tens of thousands of Americans die due to overdoses. With 
these efforts, the Trump administration has inhibited the ability of 
these transnational criminal organization to further devastate our 
communities--including every Congressional district in America.
             restoring integrity to the immigration system
    Building the wall system is not a stand-alone solution to these 
problems. The wall fits into a greater, holistic approach to secure the 
border.
    Through President Trump's diplomatic agreements and arrangements 
with our neighbors to the south, our allies have taken steps to secure 
their own borders. These include historic border security arrangements 
with Guatemala, Honduras, and El Salvador. A secure Mexico means a 
secure United States. A secure Honduras means a secure United States. A 
secure El Salvador and a secure Guatemala means a secure United States.
    Under President Trump, we have made regulatory changes to enforce 
our immigration laws as Congress originally intended. We also have been 
able to enact a common-sense approach that not only supports our 
National security requirements but also protects the American worker. 
We have done so by terminating the dangerous ``catch and release 
policy'' and closing loopholes that led to asylum fraud and employment 
authorization abuse.
    Our immigration system is not only designed to support National 
security requirements, but also protect American workers. Tightening 
our immigration system also fortifies economic security.
    The days are over of looking the other direction while allowing 
unfettered illegal foreign labor to flood our domestic labor markets, 
depress American wages, and strain our municipalities.
                               terrorism
    The Nation continues to face threats from foreign and domestic 
terrorists inside our borders--the threats that animated the 
Department's founding. I'm proud to stand with the Acting Secretary and 
say that DHS has taken unprecedented actions to address all forms of 
violent extremism.
    Last year, the Department released a comprehensive strategy that 
contextualizes the threats from violent extremists and lays out the DHS 
mission in preventing such violence. We secured--with help from 
Congress--additional funding in fiscal year 2020 for these initiatives. 
And the President requested a 300 percent increase in funding for DHS-
wide efforts in this area in his fiscal year 2021 budget request.
    We recently released a Public Action Plan that outlines dozens of 
separate actions across the DHS enterprise designed to combat domestic 
terrorism, and just yesterday announced our fiscal year 2020 Terrorism 
Prevention grant recipients.
    Let me be clear: DHS stands in absolute opposition to any form of 
violent extremism. We will continue our daily efforts to combat all 
forms of domestic terror.
                           covid-19 response
    Of all the threats DHS has confronted in the last year, the COVID-
19 pandemic has posed one of the most formidable, rapidly evolving, and 
uniquely challenging.
    President Trump's decisive and rapid action led our Federal 
Government to pursue a whole-of-America response, which continues to 
deliver results through a locally-executed, State-managed, and 
Federally-supported strategy.
    Early on, President Trump acted swiftly, banning travel from hot 
spots like China, to mitigate the impact of COVID-19. Despite criticism 
from certain politicians, the President's action saved lives. Our 
efforts to secure the border also directly correspond to DHS's unique 
authorities and mission to combat the spread of COVID-19.
    CBP and FEMA play a particularly important role in serving the 
American people during this crisis.
    On the domestic front, FEMA has marshalled all available resources 
to support President Trump's strategy to combat the pandemic and safely 
reopen America. FEMA processed the first-ever Nation-wide emergency 
declaration under the Stafford Act. This was in addition to 
simultaneous major disaster declarations granted to all 50 States, 5 
territories, and the District of Columbia.
    Following the emergency declaration, the Centers for Disease 
Control and Prevention (CDC) requested DHS assistance in enforcing the 
Director's order issued under Title 42, which suspended the 
introduction into the United States of certain persons from countries 
where a communicable disease exists. To date, CBP has halted and 
expelled over 90 percent of aliens crossing the Southern Border within 
2 hours of encountering them--an incredible feat and of critical 
importance to the public health and the protection of our workforce in 
response to COVID.
    Under President Trump's direction, we utilized the Defense 
Production Act to procure more than 220 million respirators from the 3M 
Company, saving American lives. By taking historic action to better 
collaborate with the private sector, we have helped deliver and 
allocate billions of pieces of scarce PPE to our front-line health care 
workers and first responders.
    FEMA has delivered millions of units of personal protective 
equipment (PPE) to our Federal, State, territorial, and Tribal 
government partners, allocated billions of dollars in public and 
individual assistance, and provided tremendous guidance to local 
officials.
    In August, in the absence of Congressional action, President Trump 
authorized FEMA to use $44 billion from the Disaster Relief Fund to 
alleviate the effects of lost wages due to COVID-19, allowing States to 
make supplemental payments to those receiving unemployment insurance 
compensation. FEMA acted in short order. As of September 8, FEMA has 
already provided more than $29 billion to 47 States for Lost Wages 
Assistance to support American workers.
                           civil unrest/riots
    While responding to the pandemic, we have simultaneously worked to 
combat the violence that has erupted in several metropolitan areas 
across the country.
    In cities like Portland, Oregon, arsonists, looters, and agitators 
attacked Federal property, law enforcement officers, and local small 
businesses.
    For more than 60 days, DHS law enforcement personnel in Portland 
were under siege by a violent mob intent on destroying a Federal 
courthouse. Federal law requires DHS to protect buildings, grounds, and 
property that are owned, occupied, or secured by the Federal Government 
and the people on that property. Despite hundreds of injuries, our 
officers courageously held the line and fulfilled their statutory duty 
to defend Federal property.
    President Trump has offered Federal assistance to every community 
that has suffered from this type of violence. DHS is proud to support 
our Department of Justice counterparts as they execute their 
Constitutional mandate to keep order in American cities when requested 
by our local partners and governments.
    DHS is ready to assist in restoring peace should the communities 
request our support.
                           natural disasters
    The Department continues our role overseeing natural disaster 
response efforts during these unprecedented times.
    DHS recognized early on that we would likely have to respond to the 
2020 hurricane season while also continuing our efforts to counter 
COVID-19.
    As Hurricane Laura was about to make landfall just last month, 
President Trump immediately authorized emergency disaster declarations 
for Texas, Louisiana, and Arkansas. And DHS personnel are responding to 
Hurricane Sally as we speak.
    The President's decisive action and FEMA's prevention and 
preparedness measures continue to enable DHS to rapidly respond to that 
hurricane and any future natural disasters.
                           election security
    DHS is committed to ensuring that our election system functions 
free from interference, both foreign and domestic. In that vein, the 
administration has continually called out malign actors, such as China, 
Russia, and Iran, which seek to interfere in our elections and threaten 
our democracy.
    DHS, through our Cybersecurity and Infrastructure Security Agency 
(CISA), continues to make progress securing the election systems and 
our Nation's critical infrastructure. The 2018 mid-term elections were 
the most secure in modern history, and DHS is working diligently with 
State and local election officials to make the 2020 elections even more 
secure.
    As such, CISA is currently working with representatives from all 50 
States, thousands of local jurisdictions, and our election technology 
partners to make sure they have the resources they need to keep our 
elections secure and resilient.
               securing cyber space and emerging threats
    Cyber threats to the homeland, from both State-affiliated actors 
and cyber criminals have been and will remain one of the most prominent 
threats facing our Nation. All levels of Government and entities across 
the private sector, to include the vast array of critical 
infrastructure upon which we rely, are facing a constant barrage of 
multifaceted cyber-enabled threats. These threats are designed to 
access and collect sensitive information, to hold operational 
technology at risk, and interrupt the accessibility of vital networks.
    DHS, including through the operations of CISA, the United States 
Secret Service, the U.S. Coast Guard, ICE--Homeland Security 
Investigations, and the Transportation Security Administration, is, 
leveraging its full suite of authorities to mitigate this cyber threat, 
increase the resilience of those systems upon which our critical 
infrastructure sectors rely and impose costs on malicious cyber actors 
looking to leverage vulnerabilities for financial or other gain.
    In addition, DHS, through its Science and Technology Directorate, 
works in collaboration with CISA and our Federal partners to 
characterize and better understand emerging technological and science-
based threats facing our Nation's critical infrastructure.
                                 china
    Surveying the threat landscape, one menacing actor is ever-
present--China.
    In the midst of our complex challenges, DHS must also confront an 
aggressive nation-state. The Chinese Communist Party (CCP) seeks to 
assert its influence in both overt and covert ways to achieve a variety 
of geopolitical and domestic goals. The Peoples Republic of China's 
(PRC) increasingly aggressive and bold actions--from undermining long-
standing Hong Kong autonomy to attempting to build a data collection 
network that spans the globe--imperils the United States and the 
international rules-based order that DHS has helped to sustain and 
enforce since its inception.
    Across a wide range of policy spheres, from threatening U.S. 
economic security and prosperity, to undermining the core notion of a 
secure representative democratic process, DHS is on the front line of 
growing tensions with the PRC.
    President Trump has taken unprecedented action issuing a 
Presidential proclamation restricting travel of certain Chinese 
graduate students and researchers with ties to entities in China 
supporting China's military-civil fusion strategy to prevent them from 
stealing and otherwise appropriating sensitive research. DHS is working 
closely with the Department of State to enforce that Presidential 
proclamation.
    We are targeting illicit Chinese manufacturers who have exploited 
the COVID-19 pandemic by producing fraudulent or prohibited PPE and 
medical supplies that especially endanger our front-line workers.
    We are preventing goods produced by forced labor from entering our 
markets and demanding that China respect the inherent dignity of each 
human being. CBP continued that effort just this week with the 
announcement of 5 Withhold Release Orders.
    At our borders and our ports of entry, we are leveraging technology 
and innovation to target and interdict deadly Chinese-made fentanyl and 
fentanyl-like substances before they can destroy American communities 
and take American lives.
    DHS is working with our interagency and industry colleagues to 
protect our information and communications infrastructure from 
intellectual property theft and nefarious data collection by China.
    China's relentless barrage of attacks aimed at undermining American 
workers, American economic dominance, and the American way of life 
cannot be allowed to stand--and under President Trump, it won't. A 
policy of appeasement is not an option; it is a proven road to failure.
    The power dynamic DHS is witnessing between the United States and 
China will be a focus for many years to come. In the near-term, DHS 
will continue to relentlessly respond to the threat posed by Beijing, 
consistent with the National Security Strategy and the Strategic 
Approach to the People's Republic of China.
                               conclusion
    DHS continues to demonstrate its ability to take on and overcome 
wide-ranging and diverse threats.
    As we seek to fulfill our mission, the men and women of DHS look 
forward to continued cooperation with Congress so that together we can 
keep our citizens safe and secure.
    Thank you again. I will now be happy to take your questions.

    Mr. Rogers. Thank you. He should be here today providing 
the Department's perspective on those threats we face and what 
DHS is doing to counter them. But instead of having productive 
hearing with Mr. Cuccinelli, the Chairman chose to subpoena and 
then empty-chair Mr. Wolf. This is a political stunt. It is a 
huge disservice to our committee, and to the public.
    This is the single-most important hearing we hold in this 
committee, but, unfortunately, as with most things this 
Congress, the Majority has chosen to play politics. As a 
result, the public is being deprived of critical information 
from DHS. Perhaps that is the real reason why this Majority 
didn't want Mr. Cuccinelli here.
    Having the public hear about all the good things DHS is 
doing to protect them might undermine the radical left's latest 
rallying cry: Dismantle DHS. Unfortunately, Director Wray and 
Director Miller are here--I am sorry.
    Fortunately, Director Wray and Director Miller are here to 
provide us with their valuable perspectives. I look forward to 
hearing from both of you about the threats we are facing.
    With that, I yield back, Mr. Chairman.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    Thank you, Mr. Chairman.
    Since the heinous attacks of September 11, we have made great 
strides to thwart global jihadist operations and stop threats before 
they reach our shores.
    However, today, global jihadists are joined by cyber hackers, rival 
nation-states, and transnational criminal organizations.
    Together, they present incredible new risks to our economy, our 
safety, and our way of life.
    Make no mistake, the threats to our homeland have never been more 
real than they are today.
    That's whys it's so important that we as Members of this committee 
understand those threats.
    It's our job to ensure DHS, FBI, and our intelligence community 
have the resources and authorities they need to continue to dismantle 
terrorist organizations and protect the homeland.
    I look forward to hearing more about how the administration is 
countering the threat from al-Qaeda, China, Iran, and others who seek 
to do us harm.
    Mr. Chairman, I am also disappointed DHS is not here today.
    But I want the record to be very clear on why DHS is not 
represented.
    It is not the fault of the Department or this administration.
    Acting Secretary Wolf offered to testify before the committee in 
both July and August.
    Unfortunately, the Majority refused to make either of those dates 
work.
    Now, due to his nomination, Mr. Wolf is prohibited from testifying 
under a policy that's been in place in both Republican and Democrat 
administrations for decades.
    Nevertheless, due to the significance of today's hearing, the 
Department offered to have Mr. Cuccinelli testify.
    He's the second-highest ranking official at DHS and perfectly 
qualified and informed on today's subject matter.
    I ask unanimous consent to include his testimony in the record.
    He should be here today providing the Department's perspective on 
the threats we face and what DHS is doing to counter them.
    But instead of having a productive hearing with Mr. Cuccinelli, the 
Chairman chose to subpoena and then empty-chair Mr. Wolf.
    This political stunt is a huge disservice to our committee and the 
public.
    This is the single most important hearing we hold in this 
committee.
    But unfortunately, as with most things this Congress, the Majority 
has chosen to play politics.
    As a result, the public is being deprived of critical information 
from DHS.
    Perhaps that's the real reason why the Majority didn't want Mr. 
Cuccinelli here today.
    Having the public hear about all the good things DHS is doing to 
protect them might undermine the radical left's latest rallying cry--
``Dismantle DHS!''.
    Fortunately, Director Wray and Director Miller are here today to 
provide us with their valuable perspectives.
    I look forward to hearing from you both on how the threats against 
us are evolving and what actions Congress can take to assist you in 
combatting them.
    I yield back.

    Mr. Thompson. Thank you very much.
    The committee does not want to hear testimony from the 
Department. Therefore, after Mr. Wolf declined our invitation, 
we issued a subpoena to obtain his testimony. The so-called 
standard practice by which the Department says Mr. Wolf cannot 
testify is the administration's own self-imposed limitation.
    I also note that this is an administration whose respect 
for so-called precedence, and even laws, is highly situational. 
If the Minority wanted to hear testimony from Mr. Cuccinelli, 
they had every right to invite him to appear as their witness 
at this hearing today. I am not aware of the Minority's 
requesting his testimony.
    Other Members of the committee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                           September 17, 2020
    Thank you, Chairman Thompson and Ranking Member Rogers, for 
convening this hearing and affording us, the Homeland Security 
Committee, the opportunity to hear testimony on ``World-wide Threats to 
the Homeland.''
    I welcome today's witnesses and look forward to their testimony:
  <bullet> Hon. Chad Wolf, Acting Secretary of the Department of 
        Homeland Security (DHS);
  <bullet> Hon. Christopher A. Wray, director, Federal Bureau of 
        Investigation (FBI); and
  <bullet> Hon. Christopher Miller, director, National Counterterrorism 
        Center (NCTC).
    No matter what other challenges might emerge we must never forget 
that one of our Nation's greatest threats comes from our struggle 
against violent extremism that began on September 11, 2001, and has 
extended to attacks on religious freedom, diversity, equal rights for 
women, and other core principles that are foundational to our Nation's 
expression of a democratic republic.
    September 11, 2001, remains a tragedy that defines our Nation's 
history, but the final chapter will be written by those who are charged 
with keeping our Nation and its people safe while preserving the way of 
life that terrorists sought to change.
    I visited the site of the World Trade Center Towers in the 
aftermath of the attacks and grieved over the deaths of so many of our 
men, women, and children.
    I was heartbroken over the lives lost at the Pentagon.
    Since September 11, 2001, it has been a priority of this Nation to 
prevent terrorists, or those who would do Americans harm, from boarding 
flights whether they are domestic or international.
    Over the last 18 years, since enactment of the Homeland Security 
Act, the mission of the Department of Homeland Security has expanded to 
include cyber defense of civilian agency and private-sector networks; 
protecting critical infrastructure in the form of the Nation's electric 
grid, water delivery systems, transportation networks and Federal 
election systems; and, most recently managing the question of essential 
workers during this pandemic.
    Annually the Committee on Homeland Security has held a hearing on 
the topic of ``World-wide Threats to Homeland Security'', which have 
covered a range of topics from terrorist organizations like al-Qaeda 
and ISIS, to home-grown involving lone wolves or White Supremicist.
    Today's Government witnesses will provide insight into terrorism 
threats and how the Federal Government is addressing those threats to 
protect the homeland.
    This hearing provides Members of the committee with the opportunity 
to focus on international terrorism threats, including the threats to 
the homeland resulting from the resurgence of ISIS in Syria, and the 
rise in domestic terrorism incidents and recent shootings, including 
those inspired by or related to militias, conspiracy theorists, or 
violent.
    My primary domestic security concerns are how to maintain a 
United--United States by:
  <bullet> preventing foreign fighters and foreign trained fighters 
        from entering the United States undetected;
  <bullet> countering international and home-grown violent extremism;
  <bullet> preserving Constitutional rights and due process for all 
        persons;
  <bullet> addressing the uncontrolled proliferation of long-guns that 
        are designed for battlefields and not hunting ranges;
  <bullet> controlling access to firearms for those who are deemed to 
        be too dangerous to fly;
  <bullet> protecting critical infrastructure from physical and cyber 
        attack;
  <bullet> creating equity and fairness in our Nation's immigration 
        policies; and
  <bullet> strengthening the capacity of the Department of Homeland 
        Security and the Department of Justice to meet the challenges 
        posed by weapons of mass destruction.
    The list of 2020 threats to the homeland include:
  <bullet> COVID-19 pandemic;
  <bullet> Proof of Climate Change;
  <bullet> Social unrest due to killing of unarmed black people;
  <bullet> Internal and external on-going attacks targeting the 
        November 3, 2020 election;
  <bullet> The rise of extremist right-wing groups like QAnon or 
        Boogaloo; and
  <bullet> Efforts by terrorist groups to reemerge or reorganize 
        following our Nation's efforts in battling ISIS and al-Qaeda.
                                covid-19
  <bullet> As of 4 o'clock pm on September 16, 2020 the Centers for 
        Disease Control reports that the United States has 6,571,867 
        confirmed cases of COVID-19 with 195,053 deaths attributable to 
        the illness.
  <bullet> Dr. Anthony Fauci and medical experts warn that the worse 
        months for COVID-19 may be ahead of us, when the weather cools 
        and human activity moves indoors.
  <bullet> The contributing factors in their assessment are the lack of 
        broad adoption of mask-wearing, the lack of ventilation in 
        interior spaces, combined with inadequate space for requisite 
        social distance in buildings may all contribute to reemergence 
        of higher infection rates.
  <bullet> The President's own words, recorded by Bob Woodward during 
        an interview for a new book, condemns him of having violated 
        the most basic duty as President, which is to inform the public 
        of a threat and help to prepare the Nation to repel the threat 
        to preserve as many lives as possible.
  <bullet> In the President's own words we learn that he told Bob 
        Woodward that he knew how deadly COVID-19 actually was, but he 
        chose not to inform the public.
    The President's oath of office:

``I do solemnly swear (or affirm) that I will faithfully execute the 
Office of President of the United States, and will to the best of my 
Ability, preserve, protect and defend the Constitution of the United 
States.''

    The preamble to the Constitution establishes the purpose of the 
United States:

``We the People of the United States in order to form a more perfect 
Union, establish Justice, insure domestic Tranquility, provide for the 
common defense, promote the general Welfare, and secure the Blessings 
of Liberty to ourselves and our Posterity, do ordain and establish this 
Constitution for the United States of America.''

    To faithfully execute means making sure that the laws established 
by the Constitution and all laws that flow from it are followed to 
achieve justice, domestic tranquility, provide for the common defense, 
promote general welfare, and support freedom not just for ourselves but 
our future generations.
    President Trump has shown his disdain for the American people's 
welfare and well-being and strong aberrance to following the law and 
norms of public elected officials, which resulted in his impeachment.
    Examples of his ill fit for the task of President is evident in 
what he has said and done.
    President Trump's attacks on the Washington Post, New York Times, 
and CNN by calling them enemies of the people is an assault on the 
first Amendment.
    His refusal to address the murder of Jamal Ahmad Khashoggi a United 
States permanent resident, who was a Saudi Arabian dissident, author, 
columnist for The Washington Post, and a general manager and editor-in-
chief of Al-Arab News Channel who was assassinated at the Saudi 
consulate in Istanbul on 2 October 2018 by agents of the Saudi 
government was an abdication of his duty to hold those to account for 
the fate of citizens or permanent residents while abroad.
                     vote-by-mail (absentee voting)
    The President has engaged in efforts to undermine confidence in 
voting by absentee or mail ballots, which will put people at risk 
during the pandemic.
    As the Nation heads toward Election Day in the midst of a 
persistent pandemic and simmering social unrest, a new Pew Research 
Center survey finds that Americans' deep partisan divide, dueling 
information ecosystems, and divergent responses to conspiracy theories 
and misinformation are all fueling uncertainty and conflict surrounding 
the Presidential election.
    While evidence indicates that mail-in voting is associated with 
only minuscule levels of fraud, 43 percent of Republicans and 
Republican-leaning independents identify voter fraud as a ``major 
problem'' associated with mail-in ballots. By contrast, only 11 percent 
of Democrats and Democratic-leaning independents say the same thing.
    This unfounded fear of mail voting will push voters to vote in 
person on Election Day creating potentially high risk environments 
where the virus that causes COVID-19 may be easily transmitted.
    We may be witnessing once again; a foreseeable disaster being 
created by preventable or mitigatable circumstances that the President 
that he may not move to avert or provide adequate relief to those 
impacted to reduce the level of suffering and death.
    When the Nation witnessed the President not responding with the 
full scope of resources available to address the depth and scope of 
assistance needed to aide Puerto Rican victims of Hurricane Maria many 
assumed he did not know what to do--or that he was overwhelmed by the 
scope of the disaster, but there may be another explanation.
    For months the administration grossly misled the public when it 
claimed that only 64 deaths occurred, in Puerto Rico due to Hurricane 
Maria, when in fact 2,975 people died as a result of the storm, most of 
which succumbed to heat, lack of access to health care, such as 
dialysis, medications for diabetes, heart and hypertension, or lack of 
access to safe water to drink in the days and weeks following the 
storm.
    The administration placed blame for the poor response to the 
disaster on the Puerto Rician government.
    The assumption was made that this was a learning experience for the 
Trump administration and that surely, he would not repeat this error in 
the future.
    This was likely the most important notice to the public that when 
this President was presented with a scenario with dire consequences; 
absent Government intervention, he may not act to reduce the loss of 
life, that he would provide an overly upbeat message, to match his 
inaction in doing anything to end or mitigate the crisis.
    As we grieve the loss of over 195,000 mothers, fathers, 
grandfathers, grandmothers, in-laws, sisters, brothers, aunts, uncles, 
cousins, neighbors, friends, co-workers and colleagues who have died, 
we should not forget Puerto Rico and the nearly 3,000 U.S. citizens who 
died because they may have been the first victims of a pathology that 
plagues the Nation today.
                                 qanon
    Is comprised of a loose collection of conspiracy theories that 
followers believe and will go to great lengths to act on those beliefs.
    Anon followers believe, without foundation in truth that the world 
is run by a secret cabal of Satan-worshipping Democrats and Hollywood 
celebrities who are engaged in wide-scale child trafficking, 
pedophilia, and cannibalism.
    The followers or believers in QAnon have not room for nuance or 
rational thought there is only good versus evil and any disagreement in 
their minds is evidence of abject depravity in the form of child 
murder.
    In recent weeks, President Trump has praised followers of QAnon 
followers, a QAnon-backed candidate is all but assured a place in the 
U.S. House of Representatives in the next Congress.
    Trump went so far as to accuse his Presidential opponent of 
``pedophilia,'' feeding the QAnon attack machine.
    The FBI was right to identify the work of groups like QAnon because 
they are now and have been throughout history a danger to people and 
communities.
    As far back as the Salem witch trials and McCarthyism in the 1950's 
are evidence of what harm can be caused by zealots pushing fanatical 
beliefs when violence is their form of expression because they inflict 
harm on people and societies.
    QAnon and their followers will create false narratives about 
persons, businesses, or institutions without fear of reprisals in the 
form of court actions.
    On May 30, 2019, the FBI issued an Intelligence Bulletin on Anti-
Government, Identity-Based, and Fringe Political Conspiracy Theories 
Very Likely Motivate Some Domestic Extremists to Commit Criminal, 
Sometimes Violent Activity that designated QAnon as a ``domestic terror 
threat'' because of its potential to incite extremist violence.
    In spite of this, several U.S. Congressional candidates for the 
2020 November election proclaim support for the QAnon conspiracy.
    Several key events from 2017 to 2020 have contributed to its 
spread, including Jeffrey Epstein's arrest and death, and the 
coronavirus pandemic lockdowns.
    It does not help matters to add Federal Government agents in 
unmarked vehicles pulling people off the streets of Portland.
    What started out as a primarily U.S.-based conspiracy theory, has 
expanded to gain international recognition.
    Currently, QAnon followers seem to be propagating misinformation 
pertaining to both COVID-19 (coronavirus disease 2019) and the George 
Floyd protests, all while membership across various digital platforms, 
such as Facebook, seem to be on the rise.
    QAnon adherents have been disrupted from carrying out violent 
attacks based on the beliefs espoused by the conspiracies peddled.
    A California man was arrested in 2018 after being found with bomb-
making materials with the intent to construct an explosive device that 
he wanted to use to blow up a satanic temple monument at the Illinois 
Capitol rotunda in order to ``make Americans aware of Pizzagate'' and 
``the New World Order'' who were dismantling society.
    In another case a Nevada man used an armored truck to block traffic 
on the Hoover Dam Bypass Bridge and held up signs--then he fled to 
Arizona where he was arrested.
    At the time of his arrest he referenced QAnon conspiracy theories 
and discussed related conspiratorial beliefs.
    The Pew Center discovered through surveys that in this environment, 
the QAnon conspiracy theories have become another area of partisan 
divide.
    An overwhelming majority of Democrats who have heard something 
about QAnon (90 percent) say it is at least ``somewhat bad'' for the 
country, including 77 percent who say it is ``very bad.''
    But 41 percent of Republicans who have heard something about it say 
QAnon is somewhat or very good for the country, modestly fewer than the 
50 percent who think it is at least somewhat bad.
                   battle to defeat isis and al-qaeda
    I will never forget September 11, 2001, when 2,977 men, women, and 
children were murdered by 19 hijackers--15 of whom were Saudi 
nationals, who took control of commercial aircraft and used them as 
missiles.
    I stood on the East Front steps of the Capitol on September 11, 
2001, along with 150 members of the House of Representatives and sang 
``God Bless America.''
    We did not know if there was another plane or other follow-on 
attacks being attempted.
    We did know that the American People needed to know that their 
Government was still here ready to serve and protect them from harm.
    The days and weeks following the attacks we were uncertain what 
threat might come and how many lives might be lost as we worked to put 
resources in place to deal with an enemy that might be among us.
    We did not have to worry about the President of the United States 
dividing Americans and pitting us against each other with wild 
conspiracies or aggravating old wounds based upon race, ethnicity, or 
religion.
    We needed unity and we had it.
    After years of fighting al-Qaeda, President Obama killed Osama Bin 
Laden and had his body buried at sea.
    It was also President Obama who crafted a strategy for combating 
ISIS and al-Qaeda that would keep them at bay in the Middle East for 
some time to come.
    The Kurds were the allies the United States needed to finally plan 
a permanent exit strategy from the Middle East.
    They were effective fighters who worked well with our special 
forces.
    The Trump administration's betrayal of the Kurds in allowing Turkey 
to invade Syria leading to the deaths of the very ground forces our 
Nation relied upon to defeat ISIS was tragic and undermined our work to 
end this threat for ever.
    This betrayal has real long-term consequences for our Nation 
because the Kurds offered an opportunity to have a strategic partner 
and reliable Muslim ally in the region that the United States could 
have called upon, should another ISIS or al-Qaeda threat emerged.
    Over the past 18 years we have learned a great deal.
    Those who wish to do us harm can come from any race, religion, 
ethnicity, or political persuasion.
    We are better when we are one Nation prepared to face these 
challenges against a common foe.
    That sense of unity has been under assault by forces within and 
outside of the country.
    Conspiracies were used in 2016 to stoke fear and hate against then-
Presidential Candidate Hilary Clinton.
    To succeed in meeting the threats we face we must work to 
strengthen our Nation's leadership in all spheres by making sure that 
Congress and the Executive branch work together as co-equal branches of 
Government.
    Our Nation cannot afford leadership in any branch of Government 
that is laser-focused only on a few narrow issues and not looking at 
the landscape and countering threats where ever they may exist.
    I want to note for the record that since the emergence of protests 
following the death of George Floyd and the actions of DHS and Federal 
agencies to attack and attempt to suppress protests that the use of an 
end-to-end encryption application called Signal has been on the rise.
    The actions by some may be to attempt to characterize the use of 
encryption as being suspect, when in fact it is a reaction to threats 
posed by Boogaloo and QAnon and others who may attempt infiltrate 
peaceful protests to attack demonstrators or law enforcement at these 
events.
    It is also a reaction to the overreaction of Federal agencies that 
resulted in attacks against peaceful protestors outside of the White 
House, and unwarranted actions involving putting people in unmarked 
Government vehicles.
    The use of encryption by U.S. citizens is a clear indication that 
trust is eroding between the people and the Government.
    I look forward to the testimony of today's witnesses and the 
question-and-answer opportunity that will follow.
    Thank you. I yield back the remainder of my time.

    Mr. Thompson. Members are also reminded that the 
subcommittees will operate according to the guidelines laid out 
by myself and Ranking Member in our July 8 colloquy.
    I welcome our panel of witnesses. Our first witness is the 
director of the Federal Bureau of Investigation, Christopher 
Wray. Director Wray began his law enforcement career in 1997, 
serving in numerous positions at the Justice Department before 
assuming his current role in 2017.
    Next, we have the director of the National Counterterrorism 
Center, Christopher Miller. Director Miller served in the 
United States military from 1983 to 2014 and in numerous 
civilian National security roles before assuming his current 
position.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement in 5 
minutes or the best you can do within that time, beginning with 
Director Wray.

STATEMENT OF CHRISTOPHER A. WRAY, DIRECTOR, U.S. FEDERAL BUREAU 
                        OF INVESTIGATION

    Mr. Wray. Morning, Chairman Thompson, Ranking Member 
Rogers, and Members of the committee. I am honored to be here 
today on behalf of the men and women of the FBI to discuss our 
Nation's top threats from the FBI's perspective and what we are 
doing to counter those threats.
    I know we all share a lot of the same concerns about topics 
ranging from international and domestic terrorism, 
cybersecurity, to the violence in our streets, and particularly 
this year, to the threat of foreign influence in our elections, 
and that is just to name a few.
    I look forward to updating you on these and other important 
topics this morning, but I would like to begin by covering 
quickly a few items that have been particularly top of mind for 
us at the FBI over the past few weeks.
    First, terrorism remains the FBI's top priority, although 
the nature of that threat has evolved significantly since 9/11. 
We are ever-vigilant in our efforts to prevent attacks by 
international terrorist groups like al-Qaeda and ISIS. Those 
groups pose a threat not just to Americans overseas, but also 
here at home, most notably by those we call home-grown violent 
extremists, often lone actors inspired by foreign terrorists, 
self-radicalized on-line, and motivated to attack soft targets 
with readily-available weapons.
    We are also working around the clock to prevent attacks by 
domestic terrorist who are inspired by one or more extremist 
ideologies to commit violent acts. In recent years, we have 
been laser-focused on threats by racially- or ethnically-
motivated violent extremists. They, too, are often radicalized 
on-line and mobilized quickly to carry out their violent plans.
    People like Richard Holzer, who our Denver Joint Terrorism 
Task Force arrested on hate crime charges just last year while 
he was planning to blow up a synagogue in Pueblo, Colorado.
    As with any terrorism case, we are focused on disruption, 
on making arrests before a criminal can act. Just this year 
alone, through the hard work and dedication of countless men 
and women, both at the FBI and across our partners agencies, we 
have successfully thwarted potential terrorist attacks in 
Kansas City, Tampa, Cleveland, Oklahoma City, Boston, Phoenix, 
and other locations.
    Now, in recent months, we have witnessed protests in 
various places around the country, and many Members of Congress 
have raised questions about those protests. Although the 
majority of protesters have been peaceful, we have opened 
investigations on individuals involved in criminal activity at 
these protests, some of whom adhere to violent extremist 
agendas designed to sow discord and upheaval.
    Let me be clear: We do not investigate groups or 
individuals based on ideology or the exercise of First 
Amendment protected activity alone, but when the ideology leads 
someone to commit criminal acts and pursue violence, the FBI 
will not hesitate to take appropriate action. That is why we 
have been working closely with our Federal, State, and local 
partners to ensure the safety of all of our citizens, 
including, I should say, the safety of those trying to exercise 
their First Amendment rights peacefully.
    We, in law enforcement, must keep our communities safe and 
secure while safeguarding our citizens' Constitutional rights 
and civil liberties. As I have said before, one of those need 
not and must not come at the expense of the other.
    We also remain focused on other threats. In less than 2 
months, of course, Americans will exercise one of their most 
cherished rights to vote in a free and fair election. Americans 
must have confidence in our voting system and our election 
infrastructure. That is why the security of our elections is, 
and will continue to be, one of our highest priorities.
    We will not tolerate foreign interference in our elections. 
We are working closely with our Federal, State, and local 
partners, as well as the private sector to share information, 
bolster security, and identify and disrupt any threats.
    Just recently, for example, we shared threat indicators 
with both Facebook and Twitter that allowed them to take down 
fake accounts created as part of a Russian disinformation 
campaign before those accounts could develop a broader 
following.
    Turning to the cyber arena. We are focused on an 
increasingly diverse array of threats from our cyber 
adversaries from State-sponsored cyber intrusions by nation-
states like China, Russia, Iran, and North Korea, to 
sophisticated cyber criminals seeking to exploit technical 
vulnerabilities primarily for personal profit.
    Just yesterday I announced the FBI's new cyber strategy, 
leveraging our unique expertise and authorities to impose risk 
and consequences on our cyber adversaries. We are focusing on 
results, and that means we are working to enable our partners' 
operations, as well as our own.
    To take one example, the FBI and NSA recently joined to 
expose highly sophisticated Russian military intelligence 
malware providing the private sector and other Government 
partners the indicators they need to disrupt that tool.
    We also face increasingly blended threat of state-sponsored 
economic espionage facilitated by cyber intrusions. In July, 
based on the FBI's investigative work, DOJ indicted 2 Chinese 
hackers working with the Ministry of State Security for 
carrying out a global computer intrusion campaign that targeted 
hundreds of victims, including, I should note, companies 
developing COVID-19 vaccines, testing technology, and 
treatment.
    With that kind of behavior, China continues to undercut 
their own claims of being a trusted and effective partner of 
the international community. Just yesterday, we unsealed 
charges against 5 Chinese hackers who were targeting victims 
around the world from their safe haven in China.
    With our partners, we have now arrested 2 of their co-
conspirators in Malaysia and seized or took down hundreds of 
the hackers' accounts, servers, and domains.
    Now, I have touched on only a handful of the important 
threats we face, and only quickly at that. Of course, there are 
many significant others. As the threats evolve in scale, 
impact, complexity, and agility, we are relying on our deep 
well of expertise, intelligence, and partnerships.
    I am committed to ensuring that the Bureau does great work 
while adhering to our core tenets of fidelity, bravery, and 
integrity. In these challenging times, I tell my folks that we 
have got to keep calm and tackle hard, remaining faithful to 
our core values and best traditions, while making sure that we 
are always doing the right thing in the right way.
    Thank you. Happy to take your questions.
    [The prepared statement of Mr. Wray follows:]
               Prepared Statement of Christopher A. Wray
                           September 17, 2020
    Good afternoon, Chairman Thompson, Ranking Member Rogers, and 
Members of the committee. Thank you for the opportunity to appear 
before you today to discuss the current threats to the United States 
homeland. I am pleased to be here representing the nearly 37,000 
dedicated men and women of the FBI.
    While the COVID-19 pandemic has presented unique and unprecedented 
challenges to the FBI workforce, I am proud of their dedication to our 
mission of protecting the American people and upholding the 
Constitution. Hostile foreign actors, violent extremists, and 
opportunistic criminal elements have seized upon this environment. As a 
result, we are facing aggressive and sophisticated threats on many 
fronts. Whether it is terrorism now moving at the speed of social 
media, or the increasingly blended threat of cyber intrusions and 
State-sponsored economic espionage, or malign foreign influence and 
interference or active shooters and other violent criminals threatening 
our communities, or the scourge of opioid trafficking and abuse, or 
hate crimes, human trafficking, crimes against children--the list of 
threats we are worried about is not getting any shorter, and none of 
the threats on that list are getting any easier.
                            counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. 
However, the threat posed by terrorism--both international terrorism 
(``IT'') and domestic violent extremism--has evolved significantly 
since 9/11.
    The greatest threat we face in the homeland is that posed by lone 
actors radicalized on-line who look to attack soft targets with easily 
accessible weapons. We see this lone actor threat manifested both 
within Domestic Violent Extremists (``DVEs'') and Home-grown Violent 
Extremists (``HVEs''), 2 distinct sets of individuals that generally 
self-radicalize and mobilize to violence on their own. DVEs are 
individuals who commit violent criminal acts in furtherance of 
ideological goals stemming from domestic influences, such as racial 
bias and anti-Government sentiment. HVEs are individuals who have been 
radicalized primarily in the United States, and who are inspired by, 
but not receiving individualized direction from, Foreign Terrorist 
Organizations (``FTOs'').
    Many of these violent extremists, both domestic and international, 
are motivated and inspired by a mix of ideological, socio-political, 
and personal grievances against their targets, which recently have more 
and more included large public gatherings, houses of worship, and 
retail locations. Lone actors, who by definition are not likely to 
conspire with others regarding their plans, are increasingly choosing 
these soft, familiar targets for their attacks, limiting law 
enforcement opportunities for detection and disruption ahead of their 
action.
    DVEs pose a steady and evolving threat of violence and economic 
harm to the United States. Trends may shift, but the underlying drivers 
for domestic violent extremism--such as perceptions of government or 
law enforcement overreach, socio-political conditions, racism, anti-
Semitism, Islamophobia, misogyny, and reactions to legislative 
actions--remain constant. As stated above, the FBI is most concerned 
about lone offender attacks, primarily shootings, as they have served 
as the dominant lethal mode for domestic violent extremist attacks. 
More deaths were caused by DVEs than international terrorists in recent 
years. In fact, 2019 was the deadliest year for domestic extremist 
violence since the Oklahoma City Bombing in 1995.
    The top threat we face from domestic violent extremists stems from 
those we identify as Racially/Ethnically Motivated Violent Extremists 
(``RMVE''). RMVEs were the primary source of ideologically-motivated 
lethal incidents and violence in 2018 and 2019 and have been considered 
the most lethal of all domestic extremists since 2001. Of note, the 
last 3 DVE attacks, however, were perpetrated by Anti-Government 
Violent Extremists.
    The spate of attacks we saw in 2019 underscore the continued threat 
posed by DVEs and perpetrators of hate crimes. The FBI works 
proactively to prevent acts of domestic terrorism and hate crimes. For 
example, in November 2019, the Denver Joint Terrorism Task Force 
arrested Richard Holzer on Federal charges of attempting to obstruct 
religious exercise by force using explosives. This disruption is just 
one example of the strength of our Domestic Terrorism--Hate Crimes 
(``DT-HC'') Fusion Cell. Our Counterterrorism (``CTD'') and Criminal 
Divisions (``CID'') working together were able to prevent a potential 
terrorist attack before it occurred and, for the first time in recent 
history, make a proactive arrest on a Hate Crimes charge. Through the 
DT-HC Fusion Cell, subject-matter experts from both CTD and CID work in 
tandem to innovatively use investigative tools and bring multiple 
perspectives to bear in combatting the intersecting threats of domestic 
terrorism and hate crimes, preventing attacks, and providing justice to 
victims.
    We recognize that the FBI must be aware not just of the domestic 
violent extremism threat, but also of threats emanating from those 
responding violently to First Amendment-protected activities. In the 
past, we have seen some violent extremists respond to peaceful 
movements through violence rather than non-violent actions and ideas. 
The FBI is involved only when responses cross from ideas and 
Constitutionally-protected protests to violence.
    Regardless of the specific ideology involved, the FBI requires that 
all domestic terrorism investigations be predicated based on activity 
intended to further a political or social goal, wholly or in part 
involving force, coercion, or violence, in violation of Federal law.
    HVEs and FTOs have posed a persistent threat to the Nation and to 
U.S. interests abroad, while their tradecraft, tactics, and target sets 
have evolved. The international terrorism threat to the United States 
has expanded from sophisticated, externally-directed FTO plots to 
include individual attacks carried out by HVEs who are inspired by 
designated terrorist organizations. As stated above, the FBI assesses 
HVEs are the greatest, most immediate international terrorism threat to 
the homeland. These individuals are FTO-inspired individuals who are in 
the United States, have been radicalized primarily in the United 
States, and are not receiving individualized direction from FTOs. We, 
along with our law enforcement partners, face significant challenges in 
identifying and disrupting HVEs. This is due, in part, to their lack of 
a direct connection with an FTO, an ability to rapidly mobilize without 
law enforcement detection, and their frequent use of encrypted 
communications.
    Many FTOs use various digital communication platforms to reach 
individuals they believe may be susceptible and sympathetic to violent 
terrorist messages. However, no group has been as successful at drawing 
people into its perverse ideology as ISIS, which has proven dangerously 
competent at employing such tools. ISIS uses traditional media 
platforms as well as wide-spread social media campaigns to propagate 
its ideology. Terrorists in ungoverned spaces--both physical and 
virtual--readily disseminate propaganda and training materials to 
attract easily influenced individuals around the world to their cause. 
With the broad distribution of social media, terrorists can spot, 
assess, recruit, and radicalize vulnerable persons of all ages in the 
United States either to travel to foreign lands or to conduct an attack 
on the homeland. Through the internet, terrorists anywhere overseas now 
have direct access to our local communities to target and recruit our 
citizens and spread their message faster than was imagined just a few 
years ago.
    We remain concerned that groups such as the Islamic State of Iraq 
and ash-Sham (``ISIS'') and al-Qaeda intend to carry out large-scale 
attacks in the United States. Despite their territorial defeat in Iraq 
and Syria, ISIS remains relentless and ruthless in its campaign of 
violence against the West and has aggressively promoted its hateful 
message, attracting like-minded violent extremists. The message is not 
tailored solely to those who overtly express signs of radicalization. 
It is seen by many who use messaging apps and participate in social 
networks. Ultimately, many of the individuals drawn to ISIS seek a 
sense of belonging.
    Echoing other terrorist groups, ISIS has advocated lone-offender 
attacks in Western countries. Recent ISIS videos and propaganda have 
specifically advocated attacks against soldiers, law enforcement, and 
intelligence community personnel.
    As noted above, ISIS is not the only terrorist group of concern. 
Al-Qaeda maintains its desire for large-scale, spectacular attacks. 
While continued counterterrorism pressure has degraded the group's 
Afghanistan-Pakistan senior leadership, in the near term, al-Qaeda is 
more likely to focus on building its international affiliates and 
supporting small-scale, readily achievable attacks in key regions such 
as East and West Africa. Simultaneously, over the last year, propaganda 
from al-Qaeda leaders seeks to inspire individuals to conduct their own 
attacks in the United States and the West. For example, the December 
2019 attack at Naval Air Station Pensacola demonstrates that groups 
such as al-Qaeda continue to be interested in encouraging attacks on 
U.S. soil.
    The FBI regularly reviews intelligence to ensure that we are 
appropriately mitigating threats from any place by any actor, and the 
possible violent responses and actions. We are sensitive to First 
Amendment-protected activities during investigative and intelligence 
efforts so as to ensure that our investigative actions remain aligned 
with our authorities and are conducted with the appropriate protections 
in place for privacy and civil liberties.
    As the threat to the United States and U.S. interests evolves, we 
must adapt and confront these challenges, relying heavily on the 
strength of our Federal, State, local, Tribal, and international 
partnerships. The FBI uses all lawful investigative techniques and 
methods to combat these terrorist threats to the United States. Along 
with our domestic and foreign partners, we are collecting and analyzing 
intelligence concerning the on-going threat posed by violent extremists 
motivated by any ideology and desire to harm Americans and U.S. 
interests. We continue to encourage information sharing, which is 
evidenced through our partnerships with many Federal, State, local, and 
Tribal agencies assigned to Joint Terrorism Task Forces around the 
country. Be assured, the FBI continues to strive to work and share 
information more efficiently, and to pursue a variety of lawful methods 
to help stay ahead of these threats.
                           election security
    In less than 2 months, Americans will exercise one of their most 
important and cherished freedoms; the right to vote in a democratic 
election. Our Nation is confronting multi-faceted foreign threats 
seeking to both influence our National policies and public opinion, and 
cause harm to our National dialog. The FBI and our interagency partners 
remain concerned about, and focused on, the covert and overt influence 
measures used by certain adversaries in their attempts to sway U.S. 
voters' preferences and perspectives, shift U.S. policies, increase 
discord in the United States, and undermine the American people's 
confidence in our democratic processes.
    Foreign influence operations--which include covert, coercive, or 
corrupt actions by foreign governments to influence U.S. political 
sentiment or public discourse or interfere in our processes 
themselves--are not a new problem. But the interconnectedness of the 
modern world, combined with the anonymity of the internet, have changed 
the nature of the threat and how the FBI and its partners must address 
it. This year's election cycle, amid the COVID-19 pandemic, provides 
ample opportunity for hostile foreign actors to conduct disinformation 
campaigns and foreign influence operations in an effort to mislead, sow 
discord, and, ultimately, undermine confidence in our democratic 
institutions and values and in our Government's response to our current 
health crisis.
    Foreign influence operations have taken many forms and used many 
tactics over the years. Most widely reported these days are attempts by 
adversaries--hoping to reach a wide swath of Americans covertly from 
outside the United States--to use false personas and fabricated stories 
on social media platforms to discredit U.S. individuals and 
institutions.
    The FBI is the lead Federal agency responsible for investigating 
foreign influence operations. In the fall of 2017, the Foreign 
Influence Task Force (``FITF'') was established to identify and 
counteract malign foreign influence operations targeting the United 
States. The FITF is led by the Counterintelligence Division and is 
composed of agents, analysts, and professional staff from the 
Counterintelligence, Cyber, Counterterrorism, and Criminal 
Investigative Divisions. It is specifically charged with identifying 
and combating foreign influence operations targeting democratic 
institutions and values inside the United States. In all instances, the 
FITF strives to protect democratic institutions and public confidence; 
develop a common operating picture; raise adversaries' costs; and, 
reduce their overall asymmetric advantage.
    The task force brings the FBI's National security and traditional 
criminal investigative expertise under one umbrella to prevent foreign 
influence in our elections. This better enables us to frame the threat, 
to identify connections across programs, to aggressively investigate as 
appropriate, and--importantly--to be more agile. Coordinating closely 
with our partners and leveraging relationships we have developed in the 
technology sector, we had a number of instances where we were able to 
quickly relay threat indicators that those companies used to take swift 
action, blocking budding abuse of their platforms.
    Following the 2018 mid-term elections, we reviewed the threat and 
the effectiveness of our coordination and outreach. As a result of this 
review, we further expanded the scope of the FITF. Previously, our 
efforts to combat malign foreign influence focused solely on the threat 
posed by Russia. Utilizing lessons learned over the last year-and-a-
half, the FITF is widening its aperture to confront malign foreign 
operations of China, Iran, and other global adversaries. To address 
this expanding focus and wider set of adversaries and influence 
efforts, we have also added resources to maintain permanent ``surge'' 
capability on election and foreign influence threats.
    We have also further refined our approach. All efforts are based on 
a three-pronged approach, which includes investigations and operations; 
information and intelligence sharing; and a strong partnership with the 
private sector. Through the efforts of the FITF, and lessons learned 
from both the 2016 and 2018 elections, the FBI is actively engaged in 
identifying, detecting, and disrupting threats to our elections and 
ensuring both the integrity of our democracy is preserved and the will 
of the American people is fulfilled.
    Protecting policy makers is an important part of our efforts to 
combat malign foreign influence and protect our elections. As you are 
aware, the FBI and our interagency partners have been providing on-
going election security threat briefings to Congress. We will continue 
to do so throughout the fall and into the future, where there is 
actionable intelligence.
                             lawful access
    I want to turn now to an issue continuing to limit law 
enforcement's ability to disrupt these increasingly insular actors. We 
are all familiar with the inability of law enforcement agencies to 
access data, even with a lawful warrant or court order, due to ``end-
to-end'' encryption. Increasingly, device manufacturers and 
communications service providers have employed encryption in such a 
manner that only the users or parties to the communications can access 
the content of the communications or devices. This is known as ``end-
to-end'' encryption.
    This development has meant that, in recent years, the FBI has 
observed a decline in its ability to gain access to the content of both 
domestic and international terrorist communications, due to the wide-
spread adoption of encryption for internet traffic and the prevalence 
of mobile messaging apps using end-to-end encryption as default.
    The FBI certainly recognizes how encryption increases the overall 
safety and security of the internet for users. But, in fulfilling the 
FBI's duty to the American people to prevent acts of terrorism, this 
kind of end-to-end encryption creates serious challenges. Accessing 
content of communications by, or data held by, known or suspected 
terrorists pursuant to judicially authorized, warranted legal process 
is getting more and more difficult.
    The on-line, encrypted nature of radicalization, along with the 
insular nature of most of today's attack plotters, leaves investigators 
with fewer dots to connect. As was evident in the December 9, 2019, 
shooting at Naval Air Station Pensacola that killed 3 U.S. sailors and 
severely wounded 8 other Americans, deceased terrorist Mohammed Saeed 
Alshamrani was able to communicate using warrant-proof, end-to-end 
encrypted apps deliberately to evade detection by law enforcement. It 
took the FBI several months to access information in his phones, during 
which time we did not know whether he was a lone-wolf actor, or whether 
his associates may have been plotting additional terrorist attacks.
    If law enforcement loses the ability to detect criminal activity 
because communication between subjects--data in motion--or data held by 
subjects--data at rest--is encrypted in such a way making content 
inaccessible, even with a lawful order, our ability to protect the 
American people will be degraded. Providers and law enforcement must 
continue to collaborate to explore possible technical solutions that 
would provide security and privacy to those using the internet while 
also contributing to the FBI's ability to complete its mission.
    Despite the successes that result from the hard work of the men and 
women of the FBI, our Joint Terrorism Task Forces, and our partners 
across the Government, terrorism continues to pose a persistent threat 
to the homeland and our interests overseas.
                              china threat
    The greatest long-term threat to our Nation's information and 
intellectual property, and to our economic vitality, is the 
counterintelligence and economic espionage threat from China. It is a 
threat to our economic security and by extension, to our National 
security.
    As you have seen from the recent closure of the Chinese Consulate 
in Houston, this issue is not just an intelligence issue, or a 
Government problem, or a nuisance largely just for big corporations who 
can take care of themselves. Our adversaries' targets are our Nation's 
core economic assets--our information and ideas, our innovation, our 
research and development, our technology. No country poses a broader, 
more severe threat to those assets than China. It is the people of the 
United States who are the victims of what amounts to Chinese theft on a 
scale so massive that it represents one of the largest transfers of 
wealth in human history. If you are an American adult, it is more 
likely than not that China has stolen your personal data.
    In 2017, the Chinese military conspired to hack Equifax and made 
off with the sensitive personal information of 150 million Americans--
we are talking nearly half of the American population and most American 
adults. Our data is not the only thing at stake here--so is our health, 
livelihood, and security.
    The FBI is opening a new China-related counterintelligence case 
approximately every 10 hours. Of the nearly 5,000 active FBI 
counterintelligence cases currently under way across the country, 
almost half are related to China. At this very moment, China is working 
to compromise American health care organizations, pharmaceutical 
companies, and academic institutions conducting essential COVID-19 
research. They are going after cost and pricing information, internal 
strategy documents, personally identifiable information--anything that 
can give them a competitive advantage.
    It is important to be clear: This is not about the Chinese people 
as a whole, and certainly not about Chinese-Americans as a group, but 
it is about the Chinese government and the Chinese Communist Party. 
Every year, the United States welcomes more than 100,000 Chinese 
students and researchers into this country. For generations, people 
have journeyed from China to the United States to secure the blessings 
of liberty for themselves and their families--and our society is better 
for their contributions. So, when the FBI refers to the threat from 
China, we mean the government of China and the Chinese Communist Party.
    Confronting this threat effectively does not mean that we should 
not do business with the Chinese. It does not mean that we should not 
host Chinese visitors. It does not mean that we should not welcome 
Chinese students or coexist with China on the world stage. But it does 
mean that when China violates our criminal laws and international 
norms, we are not going to tolerate it, much less enable it. The FBI 
and our partners throughout the U.S. Government will hold China 
accountable and protect our Nation's innovation, ideas, and way of 
life--with the help and vigilance of the American people.
                                 cyber
    With the advent of the COVID-19 pandemic, the nature of the cyber 
threat has become increasingly concerning. As more individuals telework 
and increasingly use the cloud, we encounter less secure networks. As a 
result, the scope of our cyber threats has changed, the impact has 
deepened, and many of the players have become more dangerous as we have 
become increasingly vulnerable. We are still seeing hack after hack and 
breach after breach. We hear about it daily in the news. The more we 
shift to the internet as the conduit and the repository for everything 
we use and share and manage, the more danger we are in.
    Today we are worried about a wider-than-ever range of threat 
actors, from multi-national cyber syndicates to nation-state 
adversaries. We are concerned about a wider-than-ever gamut of methods 
continually employed in new ways, like the targeting of managed service 
providers--MSPs--as a way to access scores of victims by hacking just 
one provider.
    China's Ministry of State Security (``MSS'') pioneered that 
technique and, as you saw in July, we indicted 2 Chinese hackers who 
worked with the Guangdong State Security Department of the MSS. These 
individuals conducted a hacking campaign lasting more than 10 years, 
targeting countries with high technology industries, to include the 
United States. The industries targeted included, among others, solar 
energy; pharmaceuticals; and defense.
    Cyber crimes like these, directed by the Chinese government's 
intelligence services, threaten not only the United States but also 
every other country that supports fair play, international norms, and 
the rule of law, and they also seriously undermine China's desire to 
become a respected leader in world affairs.
    Theft of intellectual property is not the only cyber threat 
presented by the People's Republic of China (``PRC'') government. They 
are also working to obtain controlled defense technology and developing 
the ability to use cyber means to complement any future real-world 
conflict. All of them, and others, are working to simultaneously 
strengthen themselves, and weaken the United States. And we are taking 
all these nation-state threats very seriously.
    But as dangerous as nation-states are, we do not have the luxury of 
focusing on them alone. We also are battling the increasing 
sophistication of criminal groups that place many hackers on a level we 
used to see only among hackers working for governments. The 
proliferation of malware as a service, where dark web vendors sell 
sophistication in exchange for cryptocurrency, increases the difficulty 
of stopping what would once have been less-dangerous offenders. It can 
give a ring of unsophisticated criminals the tools to paralyze entire 
hospitals, police departments, and businesses with ransomware. Often 
the hackers themselves have not become much more sophisticated--but 
they are renting sophisticated capabilities, requiring us to up our 
game as we work to defeat them, too.
    Hackers have not relented under the COVID-19 pandemic. On the 
contrary, they have attempted to compromise the computer systems of 
hospitals and medical centers to obtain patient financial data, medical 
records, and other information. In addition, such attacks on medical 
centers may lead to the interruption of computer networks and systems 
putting patients' lives at an increased risk when America faces its 
most dire health crisis in generations.
                               conclusion
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for the opportunity to testify today. I am now 
happy to answer any questions you might have.

    Mr. Thompson. Thank you very much for your testimony.
    I now recognize Director Miller to summarize his statement 
for 5 minutes.

      STATEMENT OF CHRISTOPHER MILLER, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Miller. Thank you, sir.
    Chairman Thompson, Ranking Member Rogers, distinguished 
Members of the committee, thank you for the opportunity to 
appear before you today to discuss the global counterterrorism 
environment and to highlight the tireless work of the 
professionals of your National Counterterrorism Center. I am 
truly honored and humbled to lead such an extraordinary group 
of patriots.
    As my statement for the record reflects, today's terrorism 
threat to the United States and our allies is less acute but 
more ideologically and geographically diffuse, emanating from 
more groups in more places than it did in 2001. ISIS and al-
Qaeda operate in more than 2 dozen countries world-wide. Iran 
and its Shia allies increasingly threaten U.S. interests 
overseas, and lone actors, inspired by a range of ideologies, 
pose the primary terrorism threat on U.S. soil.
    Our focus remains defeating al-Qaeda, its affiliates, and 
other terrorist actors while defending our shores from 
terrorist entry. We believe this threat picture will only grow 
more complex over the coming year as technological advances, 
changing geopolitical dynamics, and instability resulting from 
global pandemic create more opportunities for terrorists to 
benefit.
    However, the United States and our CT partners world-wide 
can exploit some of these same dynamics to our advantages. The 
complex landscape requires thoughtful responses that evolve 
along with our adversaries, and we apply the lessons that we 
have learned over the last 19 years to adapt for the future. At 
the National Counterterrorism Center, we are innovating new 
ways of doing business to ensure we are best aligned to connect 
the dots amid a flood of ever-changing information. Through 
technological innovation and organizational realignments, we 
are positioning ourselves to mitigate the threat of today and 
preempt the threat of tomorrow.
    To do this will require greater resources to enrich our 
terrorist identities analysis and enhance our ability to detect 
and prevent terrorist travel to the United States. We also will 
need to invest in new data science and information technology 
solutions to optimize how we harness information available from 
our interagency partners about the threat.
    In addition to adaptability, evolving terrorist threat 
requires vigilance, especially as other National security 
priorities eclipse counterterrorism in prominence and the 
United States' physical footprint in key jihadist theaters 
shrinks. We believe that the changing National security 
framework and priorities only reinforces NCTC's mandate to 
serve as the Government's lead agency for counterterrorism 
threat, information, and analysis.
    As our interagency partners work diligently to allocate 
resources to address the full scope of National security 
challenges, we remain focused, laser-focused, on leading the 
Government's CT enterprise, guarantee that we maintain 
relentless pressure on terrorist networks and preclude them 
from creating sanctuaries in which they can plot and project 
combat power. That is the essential lesson learned from our 19 
years of experience in this global war on terror.
    Nearly 2 decades after 9/11, it is now more important than 
ever that the NCTC remains positioned to lead the fight against 
terrorism by building on its legacy of vigilance and adaptation 
to prepare for the future. I am confident that our integrated 
and agile model has revolutionized how the United States 
addresses transnational threats.
    Our approach as a no-fail mission is one that remains 
worthy of emulation across the Federal Government. But perhaps 
most importantly, it has allowed us to uphold our sacred 
commitment to protect and serve the American people.
    In closing, thank you, again, for the opportunity to appear 
before you today. I look forward to your questions.
    [The prepared statement of Mr. Miller follows:]
                Prepared Statement of Christopher Miller
                           September 17, 2020
                                opening
    This year, the United States and its allies have sustained pressure 
against key terrorist organizations, including al-Qaeda, ISIS, and 
groups aligned with Iran, disrupting numerous plots and further 
diminishing their ability to target the United States and U.S. 
interests overseas. Concerning al-Qaeda, U.S. and French operations 
this year have removed the group's long-time leader in Yemen, Qasim al-
Rimi, as well as its veteran commander for North Africa, Abdelmalek 
Droukdal. Against ISIS, the U.S.-led coalition has continued targeting 
the group's leadership cadre following the October 2019 raid that 
removed amir Abu Bakr al-Baghdadi, killing several prominent commanders 
and hampering the group's resurgence. Finally, the United States and 
its allies have ramped up diplomatic, military, and economic efforts 
against Iran and its partners and proxies, including individuals who 
have conducted attacks that targeted U.S. personnel.
    While recognizing these successes, we also understand the challenge 
of translating these tactical wins into lasting gains. Time and time 
again, terrorist groups have absorbed similar losses only to 
reconstitute by exploiting local instability, adapting their tactics, 
and waiting out CT pressure. We need only refer to AQAP which, despite 
years of concerted pressure, was able to confer with a U.S.-based 
violent extremist who went on to kill 3 Americans at the Naval Base in 
Pensacola in December 2019, underscoring the resilience of such groups 
and their threat to the United States. Additionally, jihadist groups 
continue to stoke and harness instability in a growing number of 
countries, particularly in Africa, and are accruing new resources and 
expanding operations. Meanwhile, Iran's intensified use of violence and 
militant allies to expand its influence in the Middle East heightens 
the overall threat to U.S. and allied interests.
    In the United States, we face the enduring challenge of Home-grown 
Violent Extremists (HVEs) inspired by the global jihad as well as the 
growing threat of Domestic Violence Extremists (DVEs). These lone or 
loosely-organized actors seek to use violence to advance a wide range 
of extremist agendas, and their diffuse nature adds to the challenge of 
detecting and disrupting their activities. Finally, broader global 
trends including the COVID-19 pandemic, the rapid development of 
pertinent technologies including encrypted communications, and the 
intensifying competition for global influence, all of which may provide 
terrorists with new opportunities to evade authorities and carry out 
attacks.
                                homeland
    We continue to assess that the preeminent terrorist threat to the 
United States comes from lone actors or small cells motivated by a 
diverse range of ideologies. These include HVEs who have conducted 3 
attacks this year, targeting law enforcement personnel and military 
facilities. DVEs have also been active, conducting 3 attacks against 
police and civilians in 2020. The majority of DVE attacks since 2018 
have been carried out by Racially or Ethnically Motivated Violent 
Extremists (RMVEs), whose attacks have been the most lethal of DVE 
attacks. Some RMVEs in the United States draw inspiration from and are 
influenced by like-minded violent extremists overseas, who have 
conducted lethal attacks in at least 4 countries since 2018. DVEs are 
aggressively leveraging the on-line space to recruit new followers, 
network, and instigate violence. Many of these groups and individuals 
have sought to exploit and aggravate heightened societal tensions in 
the United States stemming from the COVID-19 pandemic and protests. My 
colleagues from FBI and DHS will use their testimony to expand on how 
these violent extremists are shaping the domestic threat environment.
    As NCTC's role in joint analysis to better understand and deter DT 
actors has grown, we are also realigning resources to enhance our 
ability to detect and prevent terrorist travel to the United States. 
These adjustments will strengthen NCTC's role as the National CT 
identity intelligence leader and further enhance our identity 
discovery, screening and vetting, and information-sharing abilities.
                                  isis
    U.S. and coalition CT efforts in the past year have killed 
prominent ISIS leaders and disrupted the terror group's operations in 
several regions, but the group continues to pursue an aggressive global 
strategy. Following the death of the group's leader in October 2019, 
the United States and its partners have successfully targeted other 
prominent ISIS figures including its spokesman Abu Hasan al-Muhajir and 
senior leader Hajji Taysir, a veteran member of the group who had 
overseen the group's insurgent and global terrorism operations. In 
addition, the United States is working to pressure the group's networks 
where they're strongest, in Diyala and Kirkuk Governorates in Iraq, and 
in eastern Syria.
    Despite these successes, ISIS has repeatedly demonstrated the 
ability to rebound from severe losses over the past 6 years by relying 
on a dedicated cadre of veteran mid-level commanders, extensive 
clandestine networks, and downturns in CT pressure to persevere. The 
group has appointed a new leader, Muhammad Sa'id Abdal-Rahman al-
Mawla--also known as Hajji Abdallah--and its spokesman in May trumpeted 
recent attacks in Iraq and Syria and promised additional operations 
around the world. The group has conducted a steady rate of 
assassinations, and IED and mortar attacks in mostly rural parts of 
northern and central Iraq and eastern Syria, including a series of 
assaults in May that killed and wounded dozens of Iraqi soldiers. These 
operations are celebrated in graphic propaganda videos that showcase 
the group's battlefield prowess. ISIS is also working to release 
thousands of terror group members and their families currently detained 
in prisons and living in camps in northeastern Syria, where our foreign 
partners face growing security and humanitarian challenges.
    Outside of Iraq and Syria, ISIS continues to prioritize the 
expansion and reinforcement of its global enterprise, which now 
encompasses approximately 20 branches and networks. In January, the 
group's chief spokesman heralded the group's growth and pledged to 
expand its attacks including against Israel, echoing earlier statements 
made by Abu Bakr al-Baghdadi prior to his death. Since last year, ISIS 
leaders have touted the strength of the group's transnational network 
by launching 5 global campaigns that incorporate attack claims and 
propaganda videos from its branches and networks. Individually, these 
ISIS branches and networks have made uneven progress in advancing the 
group's agenda. In several parts of Africa, ISIS groups conduct 
frequent attacks against local security forces and have expanded their 
safe havens, while coalition operations and attacks from local rivals 
have stunted the group's growth in Afghanistan, Libya, Somalia, and 
Yemen.
    ISIS continues to seek out avenues for external operations against 
the West, although CT pressure has diminished the group's ability to 
execute operations on the scale of previous attacks in Paris and 
Brussels. ISIS leaders have repeatedly called on supporters in the West 
to conduct attacks, including attacks using toxic substances, and 
reiterated these calls in July in its first English-language video in 
18 months since the death of the group's last official English 
translator. ISIS-inspired attacks in the West have declined 
significantly since 2015 in part because authorities around the world 
continue to detain local ISIS adherents some of whom were planning 
terrorist attacks or attempting to join the group.
                                al-qaeda
    CT pressure against al-Qaeda has diminished its cadre of veteran 
leaders and ability to strike the West, but the group's global network 
still poses a significant threat to U.S. and allied interests. Al-
Qaeda's significant leadership losses include AQIM leader Abdelmalek 
Droukdal in June 2020, AQAP leader Qasim al-Rimi in January 2020, the 
leader of AQIS in September 2019, and several senior Syria-based 
leaders, including deputy amir Khalid al-Aruri and Sari Shihab. 
However, several of the group's remaining senior leaders continue to 
find safe haven in Iran, and will likely play a key role in the group's 
efforts to reconstitute its leadership.
    Leadership losses have not diminished the group's determination to 
strike American and Western targets. Through its propaganda, al-Qaeda 
leaders continue to exhort their adherents to strike U.S. persons and 
installations: In February, AQAP media hailed the Pensacola attack and 
issued a call for supporters to attack U.S. and Israeli interests 
around the world. Earlier propaganda lauded al-Shabaab's attacks 
against U.S. military personnel in Kenya and Somalia, linking those 
operations to al-Qaeda's global response to the movement of the U.S. 
embassy from Tel Aviv to Jerusalem. Al-Qaeda has also attempted to 
capitalize on global unrest and the COVID-19 pandemic in its media 
products and messaging.
    Al-Qaeda's reach is sustained through its affiliate groups in Asia, 
Africa, and the Middle East, which continue to launch attacks against 
local governments, expand their territory, and look for opportunities 
to advance the group's transnational agenda by striking U.S. or Western 
targets. In Somalia, al-Shabaab controls large parts of the country 
despite significant CT pressure, using these safe havens to sustain a 
relentless insurgent campaign against the Somali government and African 
Union Mission to Somalia (AMISOM) forces. Earlier this year, the group 
launched an attack on a joint U.S. and Kenyan military base at Manda 
Bay airfield and killed 3 Americans, highlighting the group's external 
reach and determination to strike U.S. interests. Al-Shabaab also 
linked its attack against a hotel in Kenya in January 2019--which 
killed one American--to al-Qaeda's global campaign targeting the United 
States and Israel.
    As noted previously, AQAP continues to threaten U.S. interests, 
underscored by its communication with the Pensacola attacker and its 
subsequent claim of responsibility. In Yemen, continued fighting 
amongst warring factions and the withdrawal of some CT forces have 
helped the group sustain some operations and territory despite 
continued CT pressure. However, the group's ability to exploit these 
opportunities and expand its safe havens has been undermined by the 
loss of Rimi and other prominent operatives, internal tensions, and 
battles with other local factions, including the Huthis. In Syria, 
Hurras al-Din--a group made up of several al-Qaeda veterans--has 
suffered successive losses of key leaders and operatives, which, along 
with conflicts with other violent extremist factions and the erosion of 
its safe haven in Idlib Province, has stunted the group's growth. As of 
late June, battlefield conflicts between Hurras al-din and the Nusrah 
Front continued to escalate prompting al-Qaeda to issue a public 
statement condemning the fighting.
    In North Africa, the loss of al-Qaeda in the Islamic Maghreb (AQIM) 
leader Abdulmalek Droukdal is the latest setback suffered by the group 
since 2018, but it will probably continue to provide guidance to other 
al-Qaeda elements in the region despite its own lack of attacks. In 
West Africa, al-Qaeda-affiliated group Jama'at Nusrat al-Islam wal-
Muslimin (JNIM) has exploited growing instability to expand its 
operations and carry out attacks--including a complex VBIED and 
indirect fire attack that killed 1 and wounded 2 French soldiers at a 
French military camp in Mali on 23 July--against local and Western 
government and security targets in the region and rivals aligned with 
ISIS.
    In South Asia, al-Qaeda in the Indian Subcontinent (AQIS) has 
struggled to rebound from the death of its leader, Asim Umar, in a U.S. 
military raid in Afghanistan in September 2019 and is probably only 
capable of small-scale regional attacks. Additionally, in mid-March, 
AQIS published a special issue of Nawai Afghan Jihad praising the U.S.-
Taliban agreement, which mirrored al-Qaeda's leaders' statements on the 
deal. Finally, al-Qaeda's presence in Afghanistan has been reduced to a 
few dozen fighters who are primarily focused on their survival, and are 
probably incapable of conducting attacks outside the country under 
sustained CT pressure.
          iran, lebanese hizballah, and other terrorist groups
    In addition to the global jihadist challenge, the United States 
faces a confrontation with Iran, which remains the world's foremost 
state sponsor of terrorism. Tehran views terrorism as a key tool to 
counter U.S. influence and uses the Iranian Islamic Revolutionary Guard 
Corps--Quds Force (IRGC-QF)--which is a component of a designated 
foreign terrorist organization--to provide weapons, funding, and 
training to a range of terrorist and militant partners and proxies 
throughout the Middle East. Following the U.S. military operation that 
targeted IRGC-QF chief Qasem Soleimani in January, Iranian leaders 
promised to take revenge and accelerate their efforts to eject the 
United States from the region.
    In Iraq, Tehran supports several Shi'a terrorist groups including 
U.S.-designated FTOs Kata'ib Hizballah (KH) and Asa`ib Ahl al-Haqq 
(AAH), which in the past 2 years have conducted an increasing number of 
indirect fire attacks against U.S. diplomatic installations, including 
the U.S. embassy in Baghdad, and military installations in Iraq, 
killing 3 Americans. These groups--which continue to received advanced 
weaponry and training from their Iranian backers--have pledged to exact 
revenge for the death of a senior militia leader in the same U.S. 
military operation that killed Soleimani and have pledged to force the 
U.S. military to withdraw from Iraq. In the Palestinian territories, 
Iran backs terrorist groups including HAMAS and the Palestine Islamic 
Jihad, which regularly targets Israel. Tehran also works with militants 
in the Arabian Peninsula to counter U.S. allies including Saudi Arabia 
and Bahrain.
    Iran also continues to support Lebanese Hizballah, which uses its 
sophisticated terrorist apparatus to advance Tehran's regional 
strategy. Following the death of Soleimani, Hizballah leader Hassan 
Nasrallah called for retaliation including against U.S. military 
personnel in the Middle East, and has blamed the United States for the 
German Government's recent ban of the group's operations. We are 
closely monitoring for indications of how political and economic 
fallout from the Beirut explosion could impact the group's position in 
Lebanon. Within Lebanon and the broader region, the group has expanded 
its stocks of advanced weapons systems including Unmanned Aerial 
Systems (UAS) and long-range rockets while deploying trainers to Yemen 
to train the Houthis, threatening U.S. allies. Finally, Hizballah's 
global terrorist operations arm--the Islamic Jihad Organization (IJO)--
has in recent years deployed operatives to almost every continent and 
extended its reach into the United States: Since 2019, 2 U.S.-based 
individuals have been jailed for scouting potential targets on the 
group's behalf.
    Finally, Iran continues to employ and support terrorism outside the 
region, potentially including the United States. In 2018, 2 Iranians 
were arrested in the United States for surveilling Iranian 
oppositionists and Jewish and Israeli groups and passing the 
information to Iran. In Europe, Iranian operatives since 2018 have been 
implicated in 2 unsuccessful terrorist plots in Denmark and Belgium.
                               challenges
    I'd like to highlight and briefly discuss 3 broader trends that 
will increasingly influence the U.S. CT campaign in the coming years.
    COVID-19 and Heightened Instability.--The COVID-19 pandemic may 
fuel greater instability and degrade humanitarian conditions in several 
parts of the developing world, providing terrorists with opportunities 
to undermine local governments and expand their safe havens. Prior to 
the outbreak, terrorists groups were already enjoying success 
exploiting endemic instability to entrench and expand in parts of 
Africa and the Middle East. In these regions, local authorities often 
lack the capability or will to mitigate the terrorist threat, while 
intractable conflicts and economic instability render society 
vulnerable to violent extremist encroachment. The spread of COVID-19 
may worsen these conditions by sapping governments' CT and security 
resources and depressing local economies. Meanwhile, terrorists have 
recognized the potential opportunities of the COVID-19 pandemic and 
have accelerated attacks against over-extended security forces, used 
propaganda to blame the outbreak on their enemies or characterize the 
disease as divine punishment, and moved to undermine civilian 
confidence in the ability of local governments to care for civilians.
    Great Power Competition.--Sustaining pressure against key terrorist 
threats amidst the intensifying contest for influence amongst major 
global powers will pose a growing challenge for the United States. 
Increasingly, U.S. adversaries like China and Russia are expanding 
their military footprint and security partnerships in regions where the 
United States has critical CT equities, including Africa, Asia, and the 
Middle East. Both powers regularly use their overseas presence to 
secure new influence, attempt to diminish U.S. power, and showcase 
their own CT capabilities, efforts that can complicate U.S. efforts 
against ISIS and al-Qaeda. In addition, the U.S. Government's 
reapportionment of resources to better meet the challenge of heightened 
global competition will place pressure on the CT community to 
prioritize high-impact strategies targeting those groups that pose the 
most severe threats to U.S. interests.
    Emergent Technologies.--The CT community is moving aggressively to 
keep pace with the rapid development of pertinent technologies 
including advances in dual-use technology, UAS, 3D printing, ubiquitous 
end-to-end encryption, cryptocurrency, and new social media platforms, 
a complex challenge that demands a whole-of-Government response and 
partnership with private industry. Terrorists have historically proven 
adept at harnessing these and other emergent technologies to 
disseminate their propaganda, attract new members, advance their 
weapons capabilities, and support operations, including the development 
of chemical, biological, radiological, or nuclear (CBRN) capabilities. 
Regarding social media, terrorist groups are increasingly transitioning 
to smaller, less-visible platforms to share content following 
intensified voluntary efforts by prominent companies to restrict 
violent and extremist material consistent with their terms of service. 
Terrorists are also looking to exploit the move toward greater 
encryption to safeguard their communications. For its part, in 
coordination with State, FBI, and DHS, NCTC has worked with U.S. 
technology companies, including several members of the Global Internet 
Forum to Counter Terrorism (GIFCT), a private industry initiative and 
now a non-governmental organization, to provide technology companies 
with information about how terrorists use the internet, including 
specific key words and logos. The Center has also worked with members 
of the GIFCT to help identify terrorist content.
                                closing
    Since the Global War on Terror began nearly 2 decades ago, we've 
significantly degraded our terrorist adversaries and made the United 
States a considerably harder target for them to reach; today's 
terrorism threat to the United States and our allies is less acute but 
more diffuse--emanating from more groups in more places than it did in 
2001. Technological innovation, great power competition, and 
instability resulting from a global pandemic are only a few of the 
factors that will make this landscape increasingly complex in the 
coming year. These challenges necessitate a dynamic response that 
evolves along with our adversaries and applies lessons learned to adapt 
for the future. At NCTC, we are committed to combatting this adversary 
and are innovating new ways of doing business to ensure that we are 
best aligned to connect the dots amidst a flood of ever-changing 
information. What remains constant is our commitment to the mission and 
to supporting our partners in their unrelenting efforts to sustain 
pressure against terrorists and violent extremists spanning an 
ideological spectrum around the globe.

    Mr. Thompson. I thank the witnesses for their testimony. I 
will remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for questions.
    Director Wray, can you, for the sake of the committee, 
identify what organizations propose the greatest threat from a 
domestic standpoint here to the homeland? Is it right-wing 
extremists or is it left-wing, or what does your reports 
reflect?
    Mr. Wray. Mr. Chairman, we assess that the greatest threat 
to the homeland, to us here domestically, is not one 
organization, certainly not one ideology, but rather lone 
actors, largely self-radicalized on-line, who pursue soft 
targets using readily accessible weapons, and those include 
both domestic violent extremists of a variety of sorts, as well 
as home-grown violent extremists who are motivated by foreign 
Jihadist-type sources.
    Those 2 groups--those 2 categories as a whole provide the 
greatest challenge and threat to us here at home, partly 
because--and you have often heard the expression in the past--
the importance of connecting the dots. Well, if you compare the 
threat I just described to these sort-of al-Qaeda sleeper cells 
of old, that group, the sleeper cells, you have got a group of 
people colluding, conspiring, fundraising, planning, preparing, 
communicating. So there is a lot of dots out there to connect 
if the intelligence community and law enforcement know where to 
connect. It usually occurs over a long period of time.
    These people, both categories, the domestic violent 
extremists and the home-grown violent extremists, they don't 
have a lot of people they are working with. They don't take a 
lot of planning and preparation. They can go from 
radicalization to mobilization in weeks if not days. So the 
challenge of connecting the dots, working with NCTC and our 
other partners, is that much greater because there is that many 
fewer dots to connect and that much less time to do it. So the 
time, as the experts say, from flash to bang is that much more 
daunting.
    So that is why that is the biggest challenge to us here in 
the homeland.
    Mr. Thompson. So, when we hear officials say Antifa is the 
biggest threat on the left, are they being correct?
    Mr. Wray. Well, we don't--we don't really think of threats 
in terms of left and right at the FBI. We are focused on the 
violence, not the ideology. Our domestic violent extremists 
include everything from racially-motivated violent extremist, 
which we have talked about here in this committee before--I 
think when I testified last year, for example--all the way to 
anti-Government, anti-authority violent extremist, and that 
includes people ranging from anarchists violent extremists, 
people who subscribe to Antifa or other ideologies, as well as 
militia types and those kinds.
    Mr. Thompson. Right. I think what I am trying to reflect on 
is we hear from time to time that this organization by name, we 
need to investigate. Secretary designee, if he was here, he 
would get asked this question, but he is not. He asks for an 
investigation of Antifa because they were the greatest threat 
to the homeland. If I am hearing you correctly, you are saying 
that it is really not organizations so much as it is ideology. 
I don't want to put words in your mouth, but I think that is 
what I heard.
    Mr. Wray. I appreciate that. We look at Antifa as more of 
an ideology or a movement than an organization. To be clear, we 
do have quite a number of properly-predicated domestic 
terrorism investigations into violent anarchist extremists, any 
number of whom self-identify with the Antifa movement, and that 
is part of this broader group of domestic violent extremist 
that I am talking about. But it is just one part of it. We also 
have racially-motivated violent extremists, militia types, and 
others.
    Mr. Thompson. Thank you. Can you tell me if, as of this 
date, you have information that Russia is trying to influence 
the election for 2020?
    Mr. Wray. Yes. I think the intelligence community's 
consensus is that Russia continues to try to influence our 
election, primarily through what we would call malign foreign 
influence as opposed to what we saw in 2016, where there was 
also an effort to target election infrastructure, cyber 
targeting. We have not seen that second part yet this year or 
this cycle, but we certainly have seen very active, very active 
efforts by the Russians to influence our election in 2020 
through what I would call more the malign foreign influence 
side of things, social media, use of proxies, State media, on-
line journals, et cetera, in effort to both sow decisiveness 
and discord, and--and I think the intelligence community has 
assessed this publicly--to primarily to denigrate Vice 
President Biden and what the Russians see as kind-of an anti-
Russian establishment. That is essentially what we are seeing 
in 2020.
    Mr. Thompson. Thank you very much.
    The Chair recognizes the Ranking Member for questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Director Wray, the FBI--I am sorry--the Department of 
Justice has recently announced many FBI investigations that led 
to the arrest of Chinese nationals conducting highly-sensitive 
research in the United States that have been found to be 
connected to the Chinese military. The growing number of these 
types of cases and non-public details of those arrests raise 
alarm bells for me.
    I am introducing legislation this week to address China's 
efforts to circumvent our existing vetting procedures and take 
advantage of our open and world-renowned education research 
institutions, particularly those that are taxpayer-funded 
through Government grants.
    What is the significance in the prevalence of this threat?
    Mr. Wray. I am sorry. I couldn't hear the very end of your 
question.
    Mr. Rogers. The Chinese nationals who are using our 
educational facilities for their research and stealing our 
intellectual property, what is the threat, significance of it, 
in your view?
    Mr. Wray. So the Chinese view themselves as in an 
international talent war, and they recognize that American 
innovation and research is the envy of the world and, frankly, 
the envy of China. When they can't innovate and research 
themselves, they send people over here, in some cases 
legitimately but in many cases not, who engage in intellectual 
property theft, taking information, American research, and 
bringing it back to China to advance China's National security 
goals, which has the perverse effect, since a lot of this 
research is taxpayer-funded, as essentially the perverse effect 
of having American taxpayers funding China's advancement at our 
expense.
    Mr. Rogers. What can Congress do to help you combat that 
threat?
    Mr. Wray. Well, certainly we appreciate the Congress' 
allocation of resources to our counterintelligence efforts. 
That is an important part of it. I think I publicly 
acknowledged that the FBI now has over 2,000 
counterintelligence investigations related to China, by far the 
biggest chunk of our counterintelligence portfolio. We are 
opening a new Chinese counterintelligence investigation about 
every 10 hours. So the scope and scale of this threat is really 
breathtaking, and we need as many resources as we can to help 
everybody tackle it, but it is not just a Government problem. 
We need to work with the private sector. You mentioned the 
academic sector. I will tell you, I am very encouraged by the 
response we have gotten from both the private sector and, 
frankly, the academic sector. Lately, I think people in this 
country are starting to wake up to the threat and voluntarily 
undertaking appropriate measures. So the Congress can be very 
helpful in kind-of raising awareness, both when you are all at 
home in your districts but also through your work here in 
Washington, in highlighting the importance of the threat and 
communicating, in effect, back to the Chinese that this is an 
issue that--it is bipartisan, that all Americans care about, 
and that we are not going to tolerate any more.
    Mr. Rogers. So you do believe that the academic sector is 
sensitive to this?
    Mr. Wray. Well, yes. It varies, I will tell you, 
significantly from university to university about how sensitive 
and how cooperative with us they have been, but I think this 
is, frankly, one of the bright spots over the last couple 
years. We have had quite a few universities. I have been to all 
56 FBI field offices, and I will tell you, I am struck by the 
number of offices where universities that 3 or 4 years ago 
wouldn't have wanted an FBI agent anywhere near campus to some 
that have now have office space set aside for our people.
    I think that is not just because they are idealistic and, 
you know, believe in the country, I hope, but rather it is 
recognition that the information that is being stolen is their 
information. So it is about protecting their research, their 
professors, their hard work, frankly. I think the more of that 
we can have, the better off we will be because the FBI 
certainly can't tackle this alone.
    Mr. Rogers. Thank you, Mr. Chairman.
    I yield back.
    Mr. Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chair, to both of 
the witnesses. We thank you for your presence and also your 
service to this Nation.
    Director Wray, the FBI on May 30, 2019, issued the 
intelligence bulletin on anti-Government identity base and 
fringe political conspiracy theories very likely motivate some 
domestic extremists to commit criminal, sometimes violent 
activity. I think you focused or made the point today in your 
testimony that you act more toward the ideology or you don't 
investigate ideology; you are determined to assess the threat 
to the United States.
    So I am interested--QAnon activity has resulted in arrest 
of persons planning to carry out violent acts based on the 
nonsense spouted in web forums and social media that form the 
core of QAnon beliefs. How do you characterize that 
organization?
    Mr. Wray. How do I characterize QAnon?
    Ms. Jackson Lee. Yes. QAnon activity has resulted in arrest 
of persons planning to carry out violent acts. How do you 
assess that organization as it relates to violent acts?
    Mr. Wray. So we view QAnon as essentially less of an 
organization and more of a sort-of a complex set of conspiracy 
theories, and certainly we have had cases that properly 
predicate cases involving violence where people have been 
motivated by some of those conspiracy theories. But as you 
said, we don't investigate the ideology or the conspiracy 
theory itself. I don't think we have seen lethal attacks 
involving that kind of motivation, but we have certainly----
    Ms. Jackson Lee. So your investigations would be driven 
based upon any violent act?
    Mr. Wray. Correct. No matter what ideology or belief it is 
of domestic violent extremism, we look at three things: No. 1, 
violence or a threat of violence; No. 2, a Federal crime 
obviously; and then, third, the motivation that fuels it. We 
have to have those 3 things to open an investigation.
    Ms. Jackson Lee. Black Lives Matter was organized shortly 
after the tragic, senseless death of Trayvon Martin. Young 
people took to the streets asking for justice. They have 
obviously continued their fight for justice and particularly in 
the wake of police shootings of African-American men and, most 
recently, of course, George Floyd, my constituent, and Elijah 
Blake in States in this country.
    Do you see, just on the name of Black Lives Matter and the 
basis of their organizing them as an extremist group intending 
to turn America into a socialist Nation or to destroy America?
    Mr. Wray. We don't express a view on the sort-of political 
organization itself, Black Lives Matter. If there were people 
who follow that group or who adhere to that ideology who were 
then to, based on that ideology or anything else, to commit 
violent criminal activity, then we would approach them just 
like we would anyone else.
    Ms. Jackson Lee. But you are no longer pointing to Black 
identity groups?
    Mr. Wray. I think what you are referring to--and we had 
some good conversations in the past about this. In 2017, there 
was briefly a product or a category that the FBI came up with 
that predates me about Black identity extremism.
    Ms. Jackson Lee. Right. I just want you to say yes or no. 
The reason is because my time is short. I appreciate the work. 
I am familiar with it. The point I am trying to make is that 
just the existence of Black Lives Matter and their advocacy for 
justice is not determine them to be disruptive socialist groups 
trying to destroy the Nation; you have not characterized them 
in that way?
    Mr. Wray. We don't characterize them one way or the other, 
no.
    Ms. Jackson Lee. Have you seen any excessive violence that 
can be attributable to Black Lives Matter as opposed to any 
other groups that may be involved in violence?
    Mr. Wray. I can't think of one sitting here right now. 
Certainly, we have had racially-motivated violent extremist 
cases involving African-American defendants who have pursued 
violence against law enforcement. Whether any of those cases 
involved some reference to Black Lives Matter, sitting here 
right now, I can't recall one, but we certainly have had cases 
of the first category.
    Ms. Jackson Lee. As you have had cases with White 
individuals as well, violence against officers?
    Mr. Wray. Absolutely.
    Ms. Jackson Lee. In particular, the one in Oakland, 
California, individuals Carrillo and Justus were known to have 
been the culprits in the shootings, Boogaloo Bois and Proud 
Boys, those individuals were not involved in protests, to your 
knowledge, as Vice President Pence indicated. Pence indicated 
that they were involved in protests. These were White 
individuals who, unfortunately, tragically shot officers Dave 
Patrick Underwood and another one.
    Are you familiar with that?
    Mr. Wray. Yes, I am familiar with the case.
    Mr. Thompson. The gentlelady's time has expired.
    Ms. Jackson Lee. Can he--were those protestors?
    Mr. Wray. Well, on the Carrillo case, I don't think we--my 
recollection is there was no evidence that he was participating 
in the protest himself. I think there was information that he 
capitalized on the protest as a setting or a medium for which 
he could commit the tragic attack on the FPS officers that you 
referred to.
    Ms. Jackson Lee. Thank you.
    Mr. Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes.
    Mr. Higgins. I thank the Chairman and the panelists. For 
the record, Mr. Chairman, I would like to thank the Department 
of Homeland Security and Secretary Wolf for actively and 
personally participating in the recovery supervision of my 
district after Hurricane Laura. Secretary Wolf was on the 
ground fast, and he has been personally at my avail.
    I regret that we were not able to work out his appearance 
here today, but I do appreciate his service and the direction 
he has given and the personal assistance he has given to my 
office in the wake of Hurricane Laura and the devastation we 
have suffered there.
    Director Wray, thank you for being here today. I would like 
to talk to you about election security. The National 
Counterintelligence Security Center, the NCSC, released a 
statement last month outlining China, Russia, and Iran's effort 
to interfere with the upcoming Presidential election. You also 
mentioned in your written testimony that foreign adversaries 
are attempting to sway U.S. voters' preferences and 
perspectives to shift U.S. policies and to increase discord in 
the United States and ultimately to undermine the American 
people's confidence in our election process.
    Can you share with us regarding social media platforms, 
which is primarily the means by which this interference effort 
is being pushed, how is the FBI working with the social media 
platforms to ensure our election security and to minimize fake 
profiles and foreign influence in the attitudes and 
perspectives of the American people?
    Mr. Wray. Well, Congressman, thank you for the question.
    You are correct that we are working increasingly closely 
and have been building over the last few years in our working 
with the social media sector, in particular, but also other 
kinds of technology companies to thwart [inaudible].
    Mr. Higgins. I lost the director's audio, Mr. Chairman.
    Mr. Wray. We will take leads that we have, information that 
we have, work very closely with some of the key social media 
companies. We feed them information, and they are able to take 
action on their platforms using their terms of service or terms 
of use to shut down and kick off fake accounts, trolls, bots, 
et cetera. In turn, a lot of times what will happen, and this 
is happening more and more, which is great, they are sending 
back to us new accounts they have identified that then allow us 
to have more leads to pursue more investigative activity.
    So I mentioned one example in my opening statement that 
recently occurred where we were able to pass information to 
Facebook and Twitter. They were able to shut down Russian 
influence accounts, really, right before they could ever build 
a following. The faster we can do that and the more agile way 
we can do that, the better, and the reason for that I think is 
important for people to understand.
    Misinformation or disinformation or fake information is 
only effective if it seems credible, and it is only credible if 
it was built up some reservoir of credibility, which means that 
these Russian efforts require a certain amount of time to build 
up kind-of a reservoir of credibility so that, when they are 
really active, people care what they have to say. If we are 
able to shut them down and knock them back quickly before they 
can really build up that credibility, then it is not going to 
stop it, but it means that it is much, much less effective. So 
we need more of that. We are having more of that.
    Mr. Higgins. Yes, sir. Thank you for that assessment. Those 
were encouraging words.
    Can we conclude, based upon your perspective, Director 
Wray, that the FBI does have an on-going and functional 
relationship with the social media platforms to deter or to 
dismantle ultimately individual efforts by foreign nation-
states to sway the perspectives of the American people and to 
ultimately influence our elections?
    Are you comfortable with the kind of relationship and 
communications you are having with the social media giants?
    Mr. Wray. Well, I guess the best way I could answer that is 
to say, I tend to be ambitious for the organization and for the 
country, and so I think there is always room for improvement, 
and I am always impatient for more progress and more 
improvement, but certainly the strides that we have made at the 
FBI, working with some of those companies over the last few 
years has really been very encouraging, and I think we are 
making great progress. I would like to see more progress, 
including from them, but we are moving in the right direction 
for sure.
    Mr. Higgins. Thank you, sir. Mr. Chairman, my time is 
expired.
    I yield.
    Mr. Thompson. Thank you.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I want to begin by 
thanking Director Wray and Director Miller for your presence 
here today and for your testimony. Hearing from our Nation's 
top law enforcement and Homeland Security officials on the--
enforcement of Homeland Security officials on the threats 
facing our country is of paramount importance to the American 
people.
    I would also like to note my profound disappointment that 
Mr. Wolf had declined to join you, and I associate myself with 
the Chairman's remarks earlier on that topic.
    Director Wray, let me begin with you and let me start on 
the topic of the Solarium Commission, which I served as the 
Commissioner, as did you. I want to thank you for your 
participation on the Commission, as well as that of Deputy 
Director Bowdich on his Commission. I am very proud of the work 
that we did in developing recommendations, many of which I am 
optimistic will become law by the end of the year.
    What are your observations, Director, on the final report, 
and which recommendations do you consider most pressing?
    Mr. Wray. Well, first, let me say I appreciated the 
opportunity to serve on the Commission, and I commend my fellow 
commissioners, especially you and Senator King and others for 
really pushing this topic before, hopefully, we have some truly 
apocalyptic cyber crisis in this country and for not shying 
away from some very hard issues. I think there are several 
recommendations in the report that we really would think would 
benefit our cyber investigative and intelligence missions, and 
I think the Commission was on the right track on that, 
including, in particular, really highlighting and encouraging 
the Government to double-down on our National cyber 
investigative--Joint Investigative Task Force, the NCIJTF, that 
sort-of brings a whole-of-Government approach to the importance 
of attribution, which is so key. You also--I think the 
Commission also highlighted a number of statutory gaps and 
inconsistencies. There is references to the need to update, for 
example, the pen register and trap and trace statute. There is 
references to administer subpoena authority for computer 
intrusion cases. Those are a few things that jump out at me. 
Certainly----
    Mr. Langevin. That is good. My time is short. So let me 
jump to another topic. I also want to highlight the joint 
collaborative environment to allow analysts across Government 
and the private sector to work together to produce their cyber 
threat intelligent products. So that is another important one, 
but let me turn to elections because this is a very important 
topic. We only have about 7 weeks to go until the election, and 
early voting begins Monday. Misinformation and disinformation 
from foreign and domestic actors are wide-spread. We have 
discussed some of this topic already this morning.
    Director Wray, who is responsible for coordinating election 
security across the interagency? To put it bluntly, who is in 
charge? I also want to note, who is responsible for 
coordinating efforts to combat election-related misinformation 
and disinformation?
    Take them in order there.
    Mr. Wray. So the FBI takes the lead on malign foreign 
influence domestically, and we work closely through our foreign 
influence task force. We have people from NSA, for example, on 
our task force. We work very closely, as I mentioned a few 
minutes ago, with the social media companies, and that is 
really an almost daily engagement. We engage through the 
foreign influence task force really every day, especially in 
the current run up to the election in the interagency on the 
malign foreign influence piece.
    Mr. Langevin. Who would you say is in charge at the 
interagency?
    Mr. Wray. I am sorry?
    Mr. Langevin. Who would you say is responsible for 
coordinating across the interagency? Who is in charge?
    Mr. Wray. Well, we all work together, just as we do against 
the terrorist threat. It is an interagency process. We take the 
lead on the malign foreign influence threat. DHS takes the lead 
on the election infrastructure hardening. ODNI takes the lead 
in terms of coordinating the intelligence analysis that comes 
out of it.
    Mr. Langevin. Who is responsible for combating the 
election-related misinformation/disinformation?
    Mr. Wray. I think the FBI takes the lead in combating that.
    Mr. Langevin. Well, this is--I appreciate your answer and 
perspective. I know my time has run out, but I will say this 
really underscores the need for a National cyber director so 
that across response we have someone that is identified as the 
person in charge. Working together is important. I highly 
support a collaborative environment. Also having someone in 
charge is essential. I know my time has expired.
    Mr. Chairman, I yield back at this point [inaudible].
    Mr. Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Arizona, Mrs. 
Lesko.
    Mrs. Lesko. Thank you, Mr. Chair, and thank you both of you 
and all your employees for the hard work you do protecting our 
Nation.
    Director Wray, when do you plan to declassify the 302s that 
were produced regarding the Ukraine election interference in 
the 2016 election?
    Mr. Wray. I don't have an update for you on the timing of 
any specific declassification document, but I am happy to see 
if there is information we can provide back to your office as a 
follow-up.
    Mrs. Lesko. Thank you.
    Director Wray, as you know, IG Horowitz identified numerous 
major errors in the FISA court application process under the 
Obama administration's--I would classify it as spying on the 
Trump campaign. So what status are we at in cleaning that whole 
process up?
    Mr. Wray. So I appreciate the question. Let me say first 
that I think that report describes conduct that I consider 
unacceptable and unrepresentative of who I know the FBI to be 
as an organization, and it cannot be allowed to happen again. I 
have installed an entirely new leadership team. I put in place 
on the same day the report came out, implemented over 40 
corrective actions that accepted every recommendation in the 
IG's report and then went above and beyond. The senior-most 
people involved in that investigation are all gone, either 
terminated during my tenure or resigned or retired, and we are 
moving forward with changes to processes, training, oversight 
within the organization. We are creating a new office of 
internal audit. You may have seen an announcement from the 
Attorney General on that. We have got his approval to do that, 
which will, sort-of, provide the back-end check, the old sort-
of ``trust but verify.'' We will get the verify part coming 
through that. So I am very encouraged by the progress we are 
making, but it is going to take hard work.
    Mrs. Lesko. Well, thank you, and I am glad that you 
appreciate it because, obviously, to the average American 
person, including me, if the FBI can spy on an incoming 
President of the United States, every person in America is 
concerned that they will spy on them. So I am glad it is being 
cleaned up.
    I do have a question about Boogaloo. Recently, it is my 
understanding that 3 Americans self-identifying as members of 
the Boogaloo Bois were arrested for attempting to partner with 
Hamas due to their similar goals and missions. Have there been 
any arrests--how have these arrests modified the DHS and FBI 
approach to investigating and handling rioters and domestic 
terrorists?
    Mr. Wray. So I appreciate your flagging that particular 
case. I think it is a very revealing, interesting case. It was 
a Minneapolis case. Those were 2 individuals who I think 
associated themselves with the Boogaloos, which much like 
Antifa, is more of a movement or an ideology than it is a group 
itself. But I think one of the things a lot of people don't 
understand about people who subscribe to this, sort-of, 
Boogaloo thinking is that their main focus is just dismantling, 
tearing down Government. They are less clear on what it is they 
think they are going to replace Government with. I am not even 
sure they would all agree with each other, and that is why this 
case in Minneapolis that you highlighted is so revealing 
because these two individuals decided that they were on board 
with providing material support to Hamas, which is not 
something that most people would--previously associated with 
the Boogaloos.
    Mrs. Lesko. It is very interesting. I do have one last 
question, only 49 seconds left.
    There have been statements by top people here. In fact, 
Chairman Nadler had said on the floor of the U.S. House of 
Representatives that basically Antifa is a fantasy made up by 
the radical right or FOX News or something to that effect. 
Would you agree with that? Is Antifa a total fantasy or is it 
real?
    Mr. Wray. So Antifa is a real thing. It is not a group or 
an organization. It is a movement or an ideology may be one way 
of thinking of it, and we have quite a number, and I have said 
this consistently since my first time appearing since before 
this committee. We have any number of properly predicated 
investigations into what we would describe as violent anarchist 
extremists, and some of those individuals self-identify with 
Antifa.
    Mrs. Lesko. Thank you, sir.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Chairman, let me just express how disappointed I am 
that DHS is not here, although, you know, there are real things 
that we need to know, especially in Louisiana, from DHS. We 
have wildfires. We have hurricanes. We need to know if FEMA has 
the funds to help our American citizens whose lives have been 
turned upside down. For those people in Lake Charles, 
Louisiana, that are in shelters in surrounding cities like New 
Orleans, we need to know what is FEMA's plan. Does DHS have the 
funds? Have the funds been moved over to build a wall?
    Now, look, fortunately for New Orleans, we were escaped 
this time from major damage. However, because of what Congress 
did for us after Hurricanes Katrina and Rita, we continue to 
pay it forward. Even though my colleagues may not--from 
Louisiana may not want to criticize DHS or the President, I 
will do it. We have people who are very vulnerable now, and we 
need to know what is the Federal Government's plan, the amount 
of money they have, and for DHS not to be here is sad.
    Let me start, Director Wray, really quick. You talked about 
movements and ideologies, but Black Lives Matter is more of a 
principle and an organization. What I am trying to--what I 
would like to go into very quickly is that, do you all identify 
it as an extremist organization?
    Mr. Wray. OK. I am sorry, can you repeat the question? I am 
having a little bit of a hard time with the audio.
    Mr. Richmond. I said Black Lives Matter is a principle and 
it is also an organization. Do you all identify Black Lives 
Matter as an extremist organization?
    Mr. Wray. We have not identified Black Lives Matter----
    Mr. Richmond. Do you--OK.
    Mr. Wray [continuing]. In any way.
    Mr. Richmond. Do you identify the organization as a violent 
organization or a threat to peace?
    Mr. Wray. As I said, we have not identified the 
organization in any way. We don't--unlike on the international 
terrorism side, the foreign terrorists side, there is no 
mechanism under U.S. law for us to, and we don't, identify 
domestic organizations as anything, really.
    Mr. Richmond. Well, Director Wray, I know that you hear all 
the time this whole mantra of law and order, and what I am 
trying to do is get you to give some clarification, because 
things may get silly, dangerous, or foolish.
    So my example would be posting on social media a comment 
that if armed Black people come to my city, I will drop 10 of 
them. That is dangerous rhetoric, especially when we see people 
exercising their rights to carry arms that are White and that 
are Black. For people to assume that the ones that are Black 
are a threat, that they can publicly say, I will drop 10 of 
you, is concerning. I know that you, as one of our top law and 
order officials, should have some concern about that rising 
level of rhetoric and agitation.
    Mr. Wray. Well, we are--I think are very concerned about 
violence of any kind, including violence that deprives citizens 
of their Constitutional rights and civil liberties. Certainly, 
one of the concerns that we have amidst all the current unrest 
is a growing trend of a protest begets counter-protests begets 
violence against one side against the other, and so there is 
sort-of this increasing phenomenon of individuals attacking 
each other in addition to attacking law enforcement, and that 
is not good for anybody.
    Mr. Richmond. Thank you, Director Wray. Really quickly, a 
lot of my mayors have called me from around the country that 
are saying, wait, the violence in the streets, the chaos, and 
the destruction of property, people are assigning to Black 
Lives Matter. From my experience, what we are seeing is that 
is, in fact, not Black Lives Matter. Would you agree with that 
statement?
    Mr. Wray. I don't think I--I don't think I would 
characterize it the way you are hearing, certainly. I guess 
what I would say is, from one city to another, from one night 
to another, who is committing violence and destruction of 
property varies widely. Sometimes--certainly from city to city, 
sometimes from night to night.
    I think in general, what we are seeing across the country 
are sort-of 3 groups, right. One is--3 categories is maybe a 
better way of putting it. One is peaceful protesters, lawful, 
peaceful protesters. A second is sort-of what I will call 
criminal opportunists, people engaged in kind-of State, local, 
you know, low-level vandalism and looting and things like that. 
That is criminal activity that needs to be addressed largely as 
a State and local matter. Then there is the third category, 
which is the most dangerous, and those are the people engaged 
in arsons of police vehicles, throwing of Molotov cocktails, 
you know, those kinds of things. That is the group that we, 
FBI, are most focused on, most concerned about, and those 
groups are motivated by a wide variety of ideologies and 
agendas.
    Mr. Richmond. Thank you.
    I see my time is up. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Pennsylvania for 5 
minutes, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Thompson. Thank you, Director 
Miller and Director Wray, for this important update on world-
wide threats to our homeland.
    Director Wray, are you seeing a coordinated effort from 
radical, anarcho-left-wing organizations who are currently 
perhaps targeting law enforcement officers?
    Mr. Wray. Well, as I said a few minutes ago, the violence 
varies widely. Much of the violence that we are seeing, it does 
not appear to be organized or attributed to any one particular 
group or even movement. That doesn't make it any less serious 
or criminal or unacceptable.
    Now, we are seeing, in certain pockets, more kind-of 
regionally-organized folks coalescing, often coordinating on 
the ground in the middle of protests, you know, in terms of 
tactics and things like that. That is some of the most 
dangerous activity, because that is often what leads to 
destruction of small business, destruction of Government 
buildings, and particularly concerning to me, you know, 
assaults on law enforcement and Federal law enforcement 
officials, in particular but not exclusively. We have got case 
after case of people burning, setting fire--you know, pouring 
gasoline and setting fire to marked police vehicles.
    So this is not innocuous activity. It takes a very, very, 
very special person to be willing to put his or her life on the 
line for complete strangers every day, which is what law 
enforcement in this country does.
    Even before all this latest activity, the rate of line-of-
duty deaths was alarming. Then you add on top of that COVID, 
and COVID deaths for law enforcement continue because, of 
course, law enforcement doesn't have the ability to sit it out. 
Now, we have seen a significant uptick in violence against law 
enforcement in this country this year. It is up markedly from 
last year, and the reason I know that, besides just looking at 
the statistics, is that I made it a practice after becoming FBI 
director to every time there is an officer shot and killed in 
this country, to personally call the chief or sheriff 
responsible for that officer and express my condolences and 
support on behalf of the FBI.
    I will tell you, we had a stretch just recently, late 
August, early September, I think it was, maybe even more 
recently than that, where over a 15-day stretch, I made 7 of 
those phone calls. That is an officer feloniously killed every 
other day. These are people, you know, average age is in their 
late 30's, had their whole lives ahead of them, they had 
families, and it breaks my heart.
    Mr. Joyce. I applaud you for connecting with local law 
enforcement when these tragedies occur. You and I realize that 
these men and women bravely, every day, put on the uniform to 
protect us.
    Continuing along this line, has there been any assistance 
from social media companies to help weed out potential threats 
when these organizations are using their platforms?
    Mr. Wray. Well, somewhat like what I was describing in 
response to a question earlier on the election influence 
context or threat, we do have relationships with the social 
media companies in which, again, in a similar way, they will 
sometimes detect activity on their platforms. Working jointly 
with us, they will sometimes use their terms of use or terms of 
service to shut down or kick off those accounts and flag 
information for law enforcement.
    So any assistance, I would say yes. Some assistance, it 
varies, you know, a bit from company to company. Some of them 
devote more resources to that kind of operation which supports 
law enforcement than others. But we do certainly have a number 
of engagements with or partnerships, almost, with some of those 
companies.
    Mr. Joyce. Finally, do you see any foreign governments 
attempting to communicate with these organizations or assist 
any political party within them?
    Mr. Wray. I am sorry. Which organizations are we talking 
about now?
    Mr. Joyce. With these left-wing organizations, which I 
think are behind so much of the attacks on law enforcement.
    Mr. Wray. Well, I guess I would answer that in two parts. 
One, we have seen some efforts by our foreign adversaries--I 
would mention China and Russia specifically but not 
exclusively--to sort-of piggyback on a lot of the unrest 
activity that has been occurring as part of the effort either 
to sow divisiveness and discord, in the case of the Russians, 
or to try to advance their own narratives, say, in the case of 
the Chinese. So there is that level of kind-of engagement.
    Then I would say the second piece is maybe not the 
organizations you are talking about, but we have seen some 
engagement between racially-motivated violent extremists and 
like-minded individuals overseas on that front.
    Mr. Joyce. Thank you for your insights, and thank you for 
your update.
    Chairman Thompson. The Chair recognizes the gentleman from 
New Jersey, Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. It is an honor and a 
privilege to be here today with the committee.
    Let me first say to Mr. Wray and Mr. Miller that I 
appreciate you understanding your obligation to show up when 
the committee requests your appearance as opposed to the empty 
chair that is there.
    Let me ask Mr. Wray, is there a--so with Antifa, you are 
saying it is more of an ideology than an organized group, you 
know, which, you know, a lot of people on the other side feel 
it is some organized group. Is it an organized group or is it 
more just a notion of thought or philosophy with respect to--
just because, you know, when I hear this, you know, Antifa is 
there or Antifa is doing this, I am still trying to figure out 
who and what Antifa is. Could you enlighten me?
    Mr. Wray. Well, first let me say, as I think I said in 
response to an earlier question, Antifa is a real thing. It is 
not a fiction, but it is--it is not an organization or a 
structure. We view it more as a--we understand it to be more of 
a--kind-of a movement or maybe you could call it an ideology. 
We certainly have, as I have said, a number of, and we have had 
for some time and we have opened quite a number of this year, 
of properly predicated investigations into violent anarchist 
extremists who subscribe to self-identify with Antifa.
    [Audio malfunction.]
    Mr. Payne. Hello? We have--hello?
    Mr. Chairman, I--I don't see the director anymore. Mr. 
Chairman?
    Mr. Cleaver. I don't know if anybody can hear. I can't get 
anybody except you and Bonnie. That is all I can see on my 
screen.
    Voice. I can hear you, but I can't hear the director at 
all.
    Mrs. Watson Coleman. Right. I can't hear the director 
either.
    Mr. Langevin. Yes, I can't hear the director or the 
Chairman. I can see all the people that are participating 
virtually, but--I can see and hear them, but I can't see the 
committee or the Chairman.
    Mrs. Watson Coleman. We can't see them. We can't see the--
--
    Mr. Payne. Yes. I don't know what happened.
    Mr. Cleaver. The Russians again?
    Mrs. Watson Coleman. The Russians.
    The Clerk. Hi, everyone. This is the clerk, Ashleigh. We 
are waiting to work out some issues with the CAO.
    Mrs. Watson Coleman. OK.
    [Audio malfunction resolved.]
    Chairman Thompson. The gentleman from New Jersey may 
continue.
    Mr. Payne. Thank you, Mr. Chairman.
    Is there--Mr. Wray, did you finish your response?
    Mr. Wray. I finished my response, but I am not sure whether 
you were still on-line while I finished. I would be happy to--I 
would be happy to pick up where I left off, if you could tell 
me where you lost the contact.
    Mr. Payne. Well, I think I got the gist of your response, 
so I will move on.
    Mr. Miller, the past 4 years have seen the United States 
significantly scale back its presence and commitments around 
the world. Our NATO allies no longer trust us to keep our 
commitments, leaving the door open for other forces to step 
into this vacuum. As we have seen time--as we have seen time 
and again, instability leads to violence.
    Is the National Counterterrorism Center planning for the 
effects of a global vacuum--a global leadership vacuum?
    Mr. Miller. Thank you, sir, for that question. I have been 
so impressed, I have been doing this for a few years, and the 
most amazing thing is the partnerships we have internationally 
on the counterterrorism front, and I have seen no degradation 
in our commitment and our partnerships in that regard. As a 
matter of fact, oftentimes it is almost one of those--during 
the Cold War, we said foreign policy ended at the water's edge. 
It is very much the same way with counterterrorism now.
    We are obviously concerned about drawing back from our 
commitments overseas, but we maintain a robust, a very 
significant counterterrorism presence overseas, and we have the 
ability to generate combat power and deploy that forward if 
there is an enemy or terrorist group that is in a position to 
threaten us.
    Mr. Payne. Do you believe that the United States is acting 
as a global leader should?
    Mr. Miller. As you noted, we are in a great transformation 
geopolitically and geostrategically from the counterterrorism 
aspect. I talk with all my partners regularly with our Five 
Eyes, and I feel very confident that we maintain a close 
relationship and partnership and leadership role.
    Chairman Thompson. The gentleman from New Jersey's time has 
expired.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. I have a doggie in the 
background, sounds like.
    First, I would note that the petty game about who from the 
Department of Homeland Security testifies today must be amazing 
to Americans outside the Beltway. This is the annual hearing on 
``World-wide Threats to the Homeland'', and I can't, for one, 
imagine setting aside that priority in order to engage in a 
snit with the Department about whether Mr. Wolf or Mr. 
Cuccinelli appears, though we have neither. In light of that, I 
will direct questions, Director Wray, to you.
    All summer and early fall, of course, we have seen numerous 
and on-going riots, looting, property destruction, even serious 
injuries and killings in cities across the United States. 
Minneapolis, L.A., Seattle, Charleston, Chicago, St. Louis, 
Washington, DC, Rochester, Lancaster, and, of course, Portland 
come to mind. We have seen some media characterize these events 
as fiery but mostly peaceful, and politicians have dismissed 
them occasionally as myth. But Americans have seen independent 
reports and shocking videos, and they keep coming.
    I don't really understand the thinking of lawmakers who 
seek perversely to justify this criminality by pointing to the 
existence of other violent extremists with different ideology. 
I would think all elected officials would condemn violence 
regardless of the ideology of the perpetrators and perhaps 
especially for ideologies closer to their position on the 
spectrum. But, indeed, as Mrs. Lesko pointed out earlier, the 
characterization of right and left in these things is pretty 
hard to pin down.
    In any event, some of these reports, even early on, have 
suggested that there were pallets of brick prepositioned in 
riot areas. We have seen reports of vehicles on scene to 
facilitate or supply rioters, coordination of activity via 
social media you made reference to earlier, and interstate 
travel of rioters to multiple venues. All of these, in turn, 
suggest a funding source or multiple funding sources. You have 
made reference, as has the attorney general, to numerous 
arrests having been made. Are you investigating sources of 
funding in support of that criminal activity?
    Mr. Wray. I appreciate the question. Certainly, we have a 
number of investigations and are pursuing a number of leads 
that do things like try to identify networks, travelers, supply 
sources. We look at repeat offenders. As I mentioned, I think, 
in response to a question from one of your colleagues, one of 
the things that has been so challenging about this is that an 
awful lot of the coordination or--coordination or organization, 
if you will, that occurs is happening kind-of on the ground, 
you know, in the dark, on the street, at a tactical level as 
opposed to kind-of on a more structured or coordinated National 
level, and that makes it that much harder to investigate and 
disrupt.
    But I think it is important for people to understand that 
although I do agree that the majority of the people out there 
protesting in general across the country are peaceful 
protesters, there is no question that the big number--the 
biggest number is peaceful protesters. That should not 
diminish, which I think is the point you are making, from the 
fact that even though it might numerically be a smaller group, 
that is very dangerous activity that that small group is 
engaged in. That is why the FBI is focused, much as your 
question was, we are focused on the violence, not the ideology.
    Mr. Bishop. To be sure----
    Mr. Wray. We don't care, left, right. Violence is wrong. We 
are going after the violence. We don't care what motivates.
    Mr. Bishop. To be sure, those issues ought to be irrelevant 
to this committee or to any law enforcement agency in the 
United States, that is to say, what ideology someone has or 
their First Amendment activity. To say so that much of that 
happening is, frankly, something that we should take no 
cognizance of.
    But as to those people who are engaging in violence and 
destruction, and there have been many, the question becomes 
with its proliferation in so many places, is the FBI examining 
the finances underlying the people who you arrest to see what 
their Venmo accounts say, to see what the sources of cash are 
that come to them that they are buying their supplies with and 
their fireworks that they fire at law enforcement officers? Are 
you using civil forfeiture laws to disrupt those sources of 
funding and the like?
    Mr. Wray. Well, without reference to any specific 
investigation, I can tell you that there are any number of 
investigations in which the source of funding, the source of 
supply are things that are of particular interest and things 
that we are actively questioning and pursuing leads on.
    As far as the civil forfeiture piece, I will confess that 
sitting here right now in the hearing, I can't off the top of 
my head think of a situation where we have yet been able to use 
that, but we will use every tool in our toolbox if we think it 
fits.
    Mr. Bishop. My time has expired. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Miller, late last month, your boss, the Director of 
National Intelligence, Ratcliffe, said the Office of the 
Director of National Intelligence would cease in-person 
election security briefings to Congress. Then just yesterday, 
he reversed that decision and said that he will continue to 
brief the Senate and House Intel Committees on efforts to 
secure the 2020 election from foreign interference, but will no 
longer conduct briefings for all lawmakers, citing the need to 
protect intelligence sources and methods.
    It is incredibly frustrating that a nonpartisan issue like 
the security of our elections has been so politicized that 
Members of Congress are now considered untrustworthy of this 
critical information. Also particularly alarming that this 
information is being withheld from Members of Congress only 
weeks after DHS confirmed publicly that Russia was working to 
boost President Trump, again, by discrediting Vice President 
Biden's health.
    Will you commit to us that the ODNI will continue to keep 
all Members of Congress informed on election security threats? 
If your answer is yes, how do you plan on doing that?
    Mr. Miller. Ma'am, with all respect, I don't do election 
security. I absolutely will provide any information you 
require, the Congress requires on terrorism matters, but that 
really is a decision that is being made at the DNI level. In my 
center, we just do counterterrorism, ma'am.
    Miss Rice. Well, maybe you can take the message back to 
your boss, because----
    Mr. Miller. Yes, ma'am.
    Miss Rice [continuing]. To say that Members of Congress are 
not worthy to be trusted with this information when it is 
actually our job to have this information and to have some 
level of oversight is really disturbing.
    Mr. Miller. Yes, ma'am. I would be happy to take that 
message back.
    Miss Rice. Thank you.
    Mr. Wray, recently, the Department of Justice and Federal 
partners conducted the largest ever seizure of terrorist 
organizations' cryptocurrency accounts, seizing, in total, 300 
accounts allegedly used by foreign terrorist organizations like 
al-Qaeda, ISIS, and Hamas to fund attacks. Out of this 
committee, we passed a bipartisan bill that would require DHS 
to develop and submit a threat assessment report on the use of 
virtual currencies by terrorist organizations. This version of 
the bill was included in the NDAA and signed into law just this 
past December. This case demonstrates the adaptability of 
terrorist groups who have traditionally used unlicensed money 
services, businesses, or other money-laundering operations to 
adopt their terror finance activities to the cyber age.
    In your opinion, will cryptocurrencies continue to be used 
by these terrorist organizations on a wider basis? What trends 
are you and your respective department seeing in this matter?
    Mr. Wray. Well, Congresswoman, I agree with you that 
cryptocurrency is a source of particular concern. It is 
proliferating, not just across terrorist threats, but across 
other kinds of criminal threats as well, and within the 
terrorism space, both across international terrorists and 
domestic, and it makes it one of the key investigative tools 
that we have, one of the key investigative strategies that we 
have in that space, much as was in the answer that I just gave 
to Congressman Bishop is to follow the money. It is one of our 
go-to moves. Of course, the ability to follow the money is 
critical across every threat. The cryptocurrency makes it that 
much harder for us to do that.
    We have developed a lot of expertise on that, but each time 
we sort-of solve one kind of cryptocurrency, a new kind comes 
on the market. Part of the reason why this is such a big deal 
is that it fits with other technological trends which have a 
similar kind of effect of hiding and obstructing criminal 
activity from law enforcement.
    So if you think about any investigation we have, you have 
got the stuff, the documents, the communications. You have got 
the people, witnesses, the sources, human sources, and you have 
got the money. Well, if cryptocurrency hides the money, if 
default end-to-end encryption blocks us from any kind of lawful 
access to the stuff, and if artificial intelligence and all of 
the various ways in which technology makes it easier to find 
human sources, makes it harder for us to protect human sources, 
then we lose the money, people, and the stuff. That is when we 
are in a really bad space as a country from protecting us from 
terrorist threats all the way to organized criminal threats and 
others.
    Miss Rice. Can I ask you to just talk a little bit more? 
You made reference earlier in response to a question about the 
collaboration that your agency has with social media platforms 
in terms of misinformation and disinformation. Can you just 
talk more about that? Because if people can't trust the 
information that they are getting, I mean, that just goes to 
the heart of, you know, really affecting, you know, what I 
think all of us on this committee want to do, which is 
everyone's right and ability to vote and base their decisions 
on facts, not misinformation and disinformation.
    Mr. Wray. So this is one of our key challenges, both for 
the FBI and for the interagency, and for the country. 
Misinformation/disinformation is not new, but what is new is 
the ability through social media to amplify it at scale in a 
much more challenging way. That is why the partnerships with 
the private sector, with Silicon Valley, the tech companies, et 
cetera, has become so critical to our efforts.
    There are things that they can do, and they have resources 
to take responsibility for things that are happening on their 
own platforms much more quickly and within greater legal 
flexibility under their terms of use and terms of service than 
we could do through law enforcement means. So that is why that 
is part of the key effort. Now, we, the FBI, are not and can't 
be the truth police.
    Miss Rice. No.
    Mr. Wray. A lot of people don't understand that that is not 
how we go about deterring misinformation efforts and malign 
foreign influencers. We follow the threat. So if it is the 
Russians, we follow the Russian actors. We identify certain 
accounts. We talk to the social media companies. They take 
action. But we don't have people sitting on social media, 
trying to find things that look false and then wondering who 
did it. We go the other way. We look at the actor and then see 
what they are trying to spread.
    The social media companies, though, they can come at it in 
whatever way they want based on their terms of service, and 
they have resources that I envy sometimes that they can and 
should and are increasingly bringing to the fight. It is 
particularly of concern to us in the election context when 
Americans make the mistake of getting information about 
elections themselves from social media.
    So it is one thing to push out misinformation about a 
candidate or a policy or something else. But when information 
gets pushed out about where you go to vote, whether your 
polling place is open, whether it is closed, that kind of 
thing, we are trying to make sure Americans know to get 
information about where and when and how you vote, you need to 
go to your local election officials website and don't take it 
from social media.
    Miss Rice. Thank you both for being here today.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Texas, Mr. 
Crenshaw, for 5 minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you for moving 
us into a much cooler room.
    Chairman Thompson. Yes. Much cooler.
    Mr. Crenshaw. Yes.
    All right. Thank you, Director Wray, for being here. I 
would like to ask you about a number of things: China, Iran, 
Russia. The thing is, is I think politically, there is not that 
much daylight between us on these issues. We largely agree on 
these threats, but there seems to be disagreement over, 
politically speaking, is the source of the domestic threats 
that we are facing, the vast amount of looting, rioting, and 
destruction that has occurred in our country over the last few 
months. I don't understand why we disagree on these origins, 
but we do.
    There has been a lot of peaceful protest. That is 
absolutely true. There has also been more than 550 declared 
riots, many stoked by extremists in Antifa and the BLM 
organization. A recent report indicated between $1 billion and 
$2 billion of insurance claims will be paid out. That doesn't 
even come close to measuring the actual and true damage done to 
people's lives. Not even close. That is just insurance. We have 
heard multiple reports of small businesses without any 
insurance whatsoever. Some of these will never open up, even if 
they did get insurance payments.
    I have heard many Members of this body, of this committee, 
question whether Antifa even exists.
    Director Wray, earlier you confirmed Antifa does indeed 
exist, but you consider it more of an ideology than a group, 
correct?
    Mr. Wray. Yes. An ideology or maybe a movement.
    Mr. Crenshaw. OK. That seems, to me, to be downplaying it. 
This is an ideology that organizes locally. It coordinates 
regionally and Nationally. It wears a standardized uniform. It 
collects funds to buy high-powered lasers to blind Federal 
officers, build homemade explosive devices, feed their rioters 
since they clearly aren't working, and then bail out those who 
have been arrested. This is an ideology that has trained its 
members, makes shield wall phalanxes to attack Federal 
officers. It formed an autonomous zone in an American city and 
besieged a Federal courthouse in another. So, I mean, it just 
seems to be more than an ideology.
    Do you have a way to define what you mean by it is not a 
group?
    Mr. Wray. So I want to be clear that by describing it as an 
ideology or movement, I, by no means, mean to minimize the 
seriousness of the violence and criminality that is going on 
across the country, some of which is attributable to that--
people inspired by or who self-identify with that ideology and 
movement. We are focused on that violence, on that criminality, 
and some of it is extremely serious.
    Mr. Crenshaw. You mentioned before 3 categories, the 
criminality, the peaceful protesting, but then you didn't use 
these words, but I will, ideological rioting. I think that 
sort-of matches that third category of what you said, the 
people who purposefully want to instigate it, Antifa being 
clearly one of them.
    So I want to read you the definition of domestic terrorism, 
section 2331. It says: Domestic terrorism has 3 components. A, 
involve acts dangerous to human life that are a violation of 
the criminal laws of the United States or of any State; B, 
appear to be intended first to intimidate or coerce a civilian 
population; 2, to influence the policy of a government by 
intimidation or coercion; or 3, to affect the conduct of a 
government by mass destruction, assassination, or kidnapping; 
and C, occur primarily within the territorial jurisdiction of 
the United States.
    Does that at all match the activities of Antifa?
    Mr. Wray. Well, it certainly matches the activity of some 
of the individuals we are investigating and have pursued other 
kinds of charges against. You put your finger on a little bit 
of the legal predicament, which is that there is not currently 
in Title 18 a domestic terrorism offense or crime as such. 
There is a definition.
    Mr. Crenshaw. It seems pretty specific.
    Mr. Wray. Well, there is a definition, but, ironically, 
there is not a--unlike on the international foreign terrorist 
side, there is not a crime of domestic terrorism that you can 
charge. So, typically, we--in domestic terrorism cases, 
including of the sort you are describing, we are pursuing 
explosive charges, firearms charges, rioting charges you 
mentioned, or other----
    Mr. Crenshaw. Are you prevented from, say, following the 
money, following the websites? These groups are clearly 
organized. Again, it seems strange to me that we can't call it 
a group.
    Mr. Wray. We are not precluded from following the money. As 
I've said to Congressman Bishop, we have a number of 
investigations where----
    Mr. Crenshaw. One more--one more question before my time is 
out.
    Mr. Wray. There is not a material support to offense like 
there is--you know, we could do material support to al-Qaeda or 
ISIS. There is not a material support to a domestic terrorism.
    Mr. Crenshaw. One more question. If that civil rights 
investigation can target law enforcement officials who 
willfully fail to keep the public from harm in violation of the 
color of law statute, does that apply to mayors and city 
councils who have restrained their police departments, such as 
Mayor Wheeler in Portland, Mayor DeBlasio in New York, and the 
Minneapolis City Council?
    Mr. Wray. Well, respectfully, I think that is a legal 
question that I would want to defer to the attorney general and 
the Department of Justice on whether that would apply there.
    Mr. Crenshaw. Thank you. I yield my time.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    I want to thank our witnesses today, Director Wray, 
Director Miller, for being here today. I want to thank all the 
good folks that work under you in your agencies for keeping us 
in this country safe and keeping our families safe as well.
    I thank you, Mr. Chairman Thompson, also for holding this 
most important hearing. Your focus today is a central topic of 
this Homeland Security, which is keeping this country secure.
    One of the purposes of this committee is to assess 
international as well as domestic threats to this country. One 
of those threats right now, biggest one I hear about much in my 
district, is election security. But not only are foreign actors 
threatening to again interfere with our election, but there is 
a lot of concern in my district about the transition, peaceful 
transition of power in this country. That has been the hallmark 
of our democracy, and a lot of my constituents are concerned 
that if President Trump loses in November, he will not 
relinquish power and he will try to stay in office. We are 
reminded of Al Gore who lost the election in the year 2000 by a 
ruling of 5-4, U.S. Supreme Court.
    I am saddened that Mr. Wolf is not here today because I 
wanted to ask him a few questions, yes or no. I really--what I 
really wanted from Mr. Wolf was I wanted to ask him to make the 
same commitment as General Mark Milley, the Chairman of the 
Joint Chiefs of Staff made. I am going to quote him, open 
quote, and General Milley said: I believe deeply in the 
principle of an apolitical U.S. military. In the event of a 
dispute over some aspect of the elections, by law, U.S. courts 
and the U.S. Congress are required to resolve any disputes, not 
the military, and I foresee no role for the U.S. Armed Forces 
in this process.
    I was hoping that Mr. Wolf would also take that pledge. Mr. 
Chairman, since he is not here, I would like to submit for the 
record that--these questions in writing, and hopefully you can 
get them to him, and he will respond to them.
    Chairman Thompson. Without objection.
    Mr. Correa. Gentlemen, I have a question for both of you. 
Sometime in mid-August, the Senate Intelligence Committee 
released its fifth and final version, or volume, I should say, 
regarding the Russian interference into the 2016 election. That 
Senate report found that Manafort passed sensitive campaign 
information to Russian intelligence officers.
    My question to both of you is, are you monitoring to make 
sure that it is not only foreign interference into our 
elections but, rather, that campaigns here in the United States 
are not trying to ask or solicit foreign support by foreign 
countries of domestic campaigns? Question.
    Mr. Wray. Well, certainly, we pursue what I will call 
foreign influence investigations, both with respect to election 
interference in the sense that was described in the Senate--in 
the SSCI report, but also in terms of, you know, political 
corruption or illegal campaign financing cases and things like 
that. Some of those are criminal investigations. Some of those 
are even counterintelligence investigations in certain 
scenarios, I can imagine. So we certainly have a number of 
people working on those kinds of matters, and that is a threat 
that we take very seriously as part of our overall effort to 
protect, not just our elections, but our democracy from foreign 
interference and influence.
    Mr. Correa. Mr. Miller.
    Mr. Miller. Sir, in accordance with statute, that is beyond 
the remit of the National Counterterrorism Center. We focus on 
linkages of international terrorist organizations and to 
domestically, but I have no role in that and I am not 
completely familiar with all the ins and outs, sir.
    Mr. Correa. I am running out of time. Very quickly, Mr. 
Miller, then, under your definition of terrorism, how does the 
concept of foreign interference of our elections, foreign 
manipulation of our democracy, fit into the concept of 
terrorism?
    Mr. Miller. Sir, we focus on acts of violence committed 
against American citizens or to effect political change from an 
international context only. When you talk about influence and 
whatnot, that is a different category that doesn't fall within 
our remit, sir.
    Mr. Correa. Mr. Chairman, I am out of time. I yield.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Van Drew.
    Mr. Van Drew. Thank you, Chairman. Thank you all for being 
here today.
    Just very briefly, I wanted to go back to the Antifa issue. 
So if we have an organization that is able to communicate among 
different counties, different States, different areas, 
different cities, is able to organize when Black Lives Matter 
also organized at the same time, advertises for people to help 
them and they will pay them, feed them, as was said so 
eloquently before, and takes care of them, that, to me, would 
be more than just a loosely knit group of people. I mean, I 
guess we want to define this a little bit, that there are--in 
my mind, there is Antifa. There is a group or individuals that 
control Antifa and have some authority over it, and it is to 
some degree, without question, organized. Would you agree with 
that?
    Mr. Wray. Well, I think what I would say is that we have 
seen folks who subscribe to or self-identify with the Antifa 
movement who coalesce regionally into what we refer to or think 
of as more of small groups or nodes, and they are certainly 
organized at that level, those individuals.
    Mr. Van Drew. Not to interrupt you, but, for example--and I 
understand that some people self-identify as communists, yet 
there is a real communist organization that is organized at the 
same time.
    Mr. Wray. Right. I think--I am not sure I am seeing the 
rest of it.
    Mr. Van Drew. So what I am saying to you, maybe to clarify 
it a little bit more, is just because some people self-identify 
doesn't mean that there is more of an organizational aspect to 
this, that there is something out there that deserves a very 
thorough investigation.
    Mr. Wray. Well, on the last part, I would say we are very 
thoroughly investigating. As I mentioned, we have a number of, 
quite a number of properly predicated investigations being 
conducted by our joint terrorism task forces around the country 
into violent anarchist extremism. Any number of those involve 
people who are tied, either by their own admission or 
otherwise, to the Antifa movement. In some cases, in some 
cases, we see those individuals working together in a tactical, 
organized way. The investigation in those instances might be 
more of a--what we might call an enterprise investigation.
    Mr. Van Drew. Let me ask you this question. Black Lives 
Matters, which are good words. Black lives do matter, Black 
babies, Black parents, mothers and grandfathers and fathers and 
human beings and human souls. So there is nothing wrong with 
those words, yet it is emblematic of an organization that is 
Marxist. If you just get your Google out and look it up, it is 
a Marxist organization, and it is also an organization that 
believes, in some degree, in overthrow and a change of the 
country, and also believes that the nuclear family or the 
traditional family that we know it has a place no more.
    Is there any examples or is there any real interaction with 
Antifa and Black Lives Matters, or do they just happen to 
always be at the same place at the same time?
    Mr. Wray. I am not sure there is anything I could share on 
that, certainly in this kind of setting. I guess what I would 
say to you--and, again, it is important to understand this, not 
for you, but for people listening, right. We investigate the 
violence. We are about the violence. We are agnostic about the 
ideology. We don't investigate the ideology. But when the 
ideology inspires violence, we will investigate the violence 
aggressively. When I make comments about movements and 
ideologies, I want to be very clear that I am in no way 
minimizing the seriousness of the criminal conduct or the 
violence that we are investigating or in any way downplaying 
the aggressiveness or determination of the FBI to investigate 
those leads fully and pursue whatever charges are available to 
us.
    Mr. Van Drew. Because the ideology of Antifa is based on 
changing and breaking down the United States of America, so I 
think that is something that we have to all just admit. You 
know, kind-of--not you all, I am not saying it to you, but in a 
cruder way, strap them on and say, yes, this is what it is, and 
this is something we have to deal with.
    One other quick question here too. We are seeing a lot of 
emerging threats as a result of evolving communication 
technology. I just wanted to ask you a few questions. What role 
have novel communication technologies played in the recent rise 
in domestic extremism?
    Mr. Wray. So----
    Mr. Van Drew. Are you getting the tools you need to really 
deal with this?
    Mr. Wray. Right. I very much appreciate the question, and 
actually I think it flows naturally out of the first topic that 
you raised, because the coordination, the communication that we 
are describing, and some of the frustrations that we have in 
really drilling into that, is in part due to terrorist actors, 
whether domestic or international, for that matter, relying on 
increasingly end-to-end encrypted messaging platforms. We are 
getting to a point where the technology companies are creating 
an entire warrant-proof world in which there are devices and 
communications platforms, that it doesn't matter how awful the 
conduct, it doesn't matter how tragic the victim, it doesn't 
matter how bulletproof legally our court order is to get into 
it; we are going to be blinded to it. That is a dangerous, 
dangerous world for us to be in, and it is directly relevant to 
some of the activity that you are describing, but lots of other 
threats too.
    I will take, for example, the Sutherland Springs shooting. 
Some of the Members of the committee, you may remember, it was 
one of the deadliest shootings in America down in Texas. You 
know, the phone that that shooter had, we have been trying for 
now 3 years to get into it. This is not just an FBI problem. It 
is not just a Federal law enforcement problem. If you talk to 
State and local law enforcement leaders around the country, 
like I do every day, you hear about this issue more and more 
all the time. So we have to figure out a way to deal with that 
or we are going to create a world where law enforcement is 
blind in its ability to protect kids, families, and 
communities.
    Chairman Thompson. The gentleman's time has expired.
    Mr. Van Drew. I am sorry. Thank you very much for your 
time.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you, Director Wray and Director 
Miller, for being here.
    Transnational criminal organizations present a continuing 
threat to our homeland and our border communities. I have 
discussed efforts to curtail their efforts with Acting 
Secretary Wolf and was hoping to continue that work today. 
However, I look forward to working with the Department in the 
future to strengthen our border security.
    As I have said many times, to fully understand the threats 
and our defense capabilities at the Southwest Border, the 
Department needs a mile-by-mile analysis of that border, which 
is why I recently introduced legislation directing the 
Department to conduct such an analysis and to develop a plan to 
meet gaps identified in that analysis. I understand CBP 
conducts a border security improvement plan, which is a start, 
albeit limited, and I request the Department provide it to the 
committee as soon as possible.
    Moving on to cybersecurity, Director Wray, according to 
U.S. intelligence officials, Chinese and Russian hackers are 
using cyber tools to steal American biomedical research used 
for the development of a COVID-19 vaccine. Officials have also 
expressed concern about the possibility of Chinese and Russian 
hackers damaging American efforts to develop a vaccine.
    What is the Department doing to combat foreign hackers and 
to work with pharmaceutical and academic institutions to 
strengthen their cyber defense capabilities?
    Mr. Wray. So, Congresswoman, you are correct that we are 
seeing efforts by our foreign adversaries to engage in cyber 
targeting of COVID vaccine research, testing technology, 
treatment technology, and efforts to disrupt our National 
response to the pandemic. We have recently publicly attributed 
some of that conduct to China's most prolific cyber actors. I 
know that our U.K. counterparts have publicly attributed some 
activity there on the same kind of front to Russian actors as 
well.
    We have tried to be very forward-leaning in our engagement 
and outreach to companies, manufacturers, universities, 
research centers, et cetera, when we see targeting by these 
adversaries, cyber targeting, so that they can take appropriate 
steps, from a cybersecurity perspective, to harden their 
systems and prevent exfiltration of the information. So far, I 
think we have been pretty successful in getting there before 
valuable information has been lost. But make no mistake, this 
is a very, very real cyber threat that we are contending with 
daily.
    Ms. Torres Small. Thank you, Director Wray.
    Congressman Higgins and you also discussed Russian 
disinformation related to elections. Another way that Russia in 
particular is seeking to undermine Americans' recovery is with 
COVID-19 and the public health crisis through spreading that 
same disinformation on the virus and on future vaccines to 
create distrust within the public.
    Are there any distinct challenges in disrupting Russia's 
disinformation specifically on COVID-19 and vaccination 
efforts?
    Mr. Wray. Well, certainly, misinformation--we share your 
concerns about misinformation about COVID, whether it is 
misinformation about the infectiousness of the disease itself 
or misinformation about treatments and cures, vaccines. In some 
instances, we are able to and we have pursued cases for various 
scams and schemes, you know, essentially fraud, people pitching 
fraudulent tests and cures, and people claiming to have the 
vaccine, you know, things like that.
    So when there is sort-of fraud engaged, we are able to use 
law enforcement tools to go after it. But as I said in the 
election context, and you are right to kind-of draw the 
analogy, we are not the truth police. Especially on something 
like medical issues, we defer to CDC and the medical 
professionals to correct misinformation there. But it is 
important that people get their information, in this context, 
from the medical professionals and not from things like social 
media.
    Ms. Torres Small. Just reclaiming my time briefly. Just to 
stay on Russia and making sure that Russia is not spreading 
disinformation on this, you mentioned that a key strategy of 
working to disrupt Russian voices of disinformation was 
stopping them before they gained credibility. So I wanted to 
see if in the COVID-19 space there is an extra challenge there, 
if, for example, Russian disinformation is gaining credibility, 
for example, through anti-vaxxers.
    Mr. Wray. Well, certainly, as we discussed and as you 
mentioned, the essence of disinformation, the only way it works 
is to do it through voices that are viewed as credible. So if 
there were--and I'm not sure that I can think of a specific 
example off the top of my head, but if there were a situation 
where a credible voice that people really paid attention to as 
a medical expert was pushing out under the guise of being a 
medical expert flawed, badly flawed and dangerous information, 
then that would be a source of particular concern.
    Ms. Torres Small. Thank you. My time has expired.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Guest, for 5 minutes.
    Mr. Guest. Thank you, Mr. Chairman.
    Director Wray, I want to direct these questions to you. We 
are here today talking about threats to the homeland, and I 
specifically want to discuss recent attacks on our law 
enforcement officials. We saw just this past weekend in 
California, the headlines from FOX read, ``Compton ambush 
leaves two Los Angeles County Sheriff's deputies fighting for 
their lives.'' The story goes on to say a manhunt is under way 
in California early Sunday after 2 Los Angeles County Sheriff's 
deputies were shot in their patrol car by a suspect who opened 
fire without warning or provocation. The deputies, a 24-year-
old man and 31-year-old woman, were both in critical condition 
at the time of this article and fighting for their lives as 
they underwent surgery following the attack.
    A handful of antipolice protesters showed up at the 
hospital where the deputies were being treated. A local faith 
leader who came to the hospital to pray for the deputies told a 
reporter that some of the protesters had been shouting slogans 
like ``death to the police.'' Protesters were blocking the 
entrance to the hospital emergency room and yelling, ``we hope 
they die.''
    In June 2020, the AP reported, ``California deputy shot in 
ambush attack at police station.'' A California deputy was shot 
in the head but survived an ambush by a gunman intent on 
harming or killing the police. The shooter opened fire around 
3:40 a.m. on the back side of the police station.
    ABC News, July 22 of this year, ``Police officers killed 
surge 28 percent this year and some point to civil unrest and 
those looking to exploit it.''
    CNN, February 10, 2020, ``Attacks on police are a cause for 
alarm.'' The article goes to say: An armed assailant approached 
a marked police van in the Bronx on Saturday evening and opens 
fire on 2 on-duty police officers. The suspect, who remained at 
large until the following morning. Then on Sunday, police video 
captures a man later identified as the same suspect strolling 
into NYPD's 41st Precinct before opening fire on police, 
wounding a lieutenant.
    FOX News, June of this year, ``Police under siege.'' They 
go through incident after incident of attack on police. 
Buffalo, New York, 2 law enforcement officers are struck by a 
vehicle Monday and another was run over during a demonstration 
in front of the Buffalo Police Department's E District. The 
trooper who was run over suffered a shattered pelvis and broken 
leg.
    Cincinnati, Ohio, an officer was saved by a ballistic 
helmet when a bullet struck the protective covering. Chicago, 
police reports Monday that 132 of its officers had been injured 
during violent riots. Davenport, Iowa, an undercover police 
officer in an unmarked vehicle was struck twice by gunfire. Las 
Vegas, a Las Vegas police officer was on life support after 
being shot in the head Monday during a protest.
    Minnesota: Shots were fired at law enforcement officers 
near a Minnesota Police Station last week. On May 28, another, 
which means a second, police precinct in the city was set 
ablaze as violent protests surged.
    New York: A New York police officer was seen being struck 
by a vehicle in what appeared to be a deliberate hit-and-run.
    Oakland, California: Several shots were fired at Oakland 
Police headquarters. A Federal law enforcement officer was also 
shot and killed Friday night.
    We see story after story after story of violence against 
our first responders; the very men and women who put their 
safety in jeopardy to protect us are under attack.
    So, Director, I ask you at this time, what intelligence, 
what information can you share about us, about these attacks? 
Also what can we do as Congress to better protect our first 
responders?
    Mr. Wray. Well, first, let me say, although I am familiar 
with every one of those instances you described, just hearing 
you go through them, again, is just yet another reminder to me 
about how tragic this is. I think it is important for Americans 
to take a deep breath for a second and think about what it 
means for somebody to put his or her life on the line for a 
complete stranger and then, after they paused and thought about 
that for a second, to think about what it means to get up every 
morning and do that day after day after day after day. As I 
said in response to, I think, one of their earlier questions 
and you have touched on through your comments, the number of 
officers feloniously killed in the line of duty this year is up 
significantly from last year. That is not even counting all the 
officers who were lost to COVID because they have to be out on 
the streets doing their jobs, and they can't stay home. That is 
not counting all the officers who miraculously survived an 
attack, but whose lives are forever altered. That is not 
counting the officers who died in things like vehicle incidents 
as they are racing to the crime scene. As I mentioned, I think, 
to Congressman Bishop, one of the things I started doing when I 
started in this job is I decided that I was going to call--
every time an officer is shot and killed or killed through 
adversarial action in this country. I was going to call myself 
the chief or the sheriff and express my condolences on behalf 
of the FBI. Each time I do it, I ask my staff to give me a 
picture, a photograph of the officer, any description of, you 
know, their family so I know how many kids they had, how old 
their kids were.
    I had a guy recently who was engaged to be married, and 6 
months out of his wedding day, who was killed. I will never 
forget, for example, having to call in your home State to 
Brookhaven, Mississippi, where they lost 2 officers in a single 
incident in a department of, I want to say, less than 30 
people. Think about what that means to a department like that 
where every single person knew those 2 officers.
    So I understand people in this country are angry and upset 
and hurt, and I get that. There are reasons to be angry and 
upset and hurt. I don't mean to deminimize their concern and 
hurt, but the law enforcement families hurt too. These people 
who put on the uniform and go out to protect all of us and our 
families every day deserve some level of appreciation, and I 
appreciate your comments.
    Mr. Guest. Thank you.
    Mr. Chairman, I yield back.
    Mr. Thompson. Thank you very much.
    Director Wray, for the record, I think there is no issue 
around support for law enforcement on this committee. It has 
consistently been there.
    It is only when the rules get changed is there concern. I 
might ask Mr. Rose to talk a little bit about the rules. After 
9/11, Congress did quite a bit of [inaudible] toward supporting 
the men and women and their families who lost their lives, and 
all of a sudden, in the middle of this, New York gets penalized 
in terms of the resources that Congress had already approved.
    So it is those kinds of things.
    With that, I yield to the gentleman from New York.
    Mr. Rose. Chairman, thank you. Director Wray, Director 
Miller, first of all, we have--we do not have a domestic 
terrorist designation in the United States of America. We have 
a foreign terrorist organization designation, especially 
designated terrorist group designation.
    That is correct?
    Mr. Wray. Yes.
    Mr. Rose. Aside from a domestic terrorist designation, 
which is in our legislative purview, something I support, 
something that some Republicans do not support, some Democrats 
do not support. Do you need any other further resources to go 
after criminal organizations in the United States of America 
that are organizing to inflict violence on American citizens, 
law enforcement, especially?
    Mr. Wray. Well, I think I would put resources in, sort-of, 
2 categories. One is funding, right, for data analytics, which 
I can explain why that is relevant, to boots on the ground, et 
cetera. So there is that piece of it. Then I would say there 
are tools--we always want more tools. I touched on one of the 
concerns earlier, which is this end-to-end encryption issue.
    Especially when talking about organizations and people 
communicating with each other, if we move into a world in which 
bad guys have a choice between putting all of their information 
and their communications in platforms or devices that are--that 
are warrant-proof, that are utterly beyond reach of law, no 
matter how rock-solid legal case is, I don't think that is a 
judgment that those companies should be making on behalf of the 
American people. I think that is something that Congress----
    Mr. Rose. I most certainly agree. Can you please commit to 
getting us, in a memo form or a list form, the tools you think 
you need to keep us safe and our law enforcement officials safe 
and our citizens safe from violent criminal organizations in 
the United States of America?
    Mr. Wray. We would be happy to follow-up [inaudible]----
    Mr. Rose. Thank you. So let's see if we can unite around 
something here rather than what it appears that we are doing.
    I want to move on to the threat of White Supremacists 
globally, domestically.
    Director Miller, looking at the existing lists of STGs and 
FTOs, put that list aside, which organizations are you 
concerned with, particularly in the White Supremacist 
organization front?
    Mr. Miller. As you noted, thank you. It is nice to have an 
Army veteran here, by the way. Yes. Russian Imperial Movement, 
as you know, we designate----
    Mr. Rose. Absolutely.
    Mr. Miller [continuing]. Which was, I thought was a real 
strong statement in a good way. We see the other groups. You 
see what is going on in Germany right now.
    Mr. Rose. Which groups?
    Mr. Miller. Oh, geesh. Well, you know, they change their 
names so fast these days to keep ahead of us.
    Mr. Rose. Right. So things like Sonnenkrieg, Combat 18, 
Azov.
    Mr. Miller. Sure.
    Mr. Rose. Now, if you look at any of those global groups, 
do you see any connection between those groups in Germany, 
Central Europe, or otherwise in connections between those 
groups and domestic organizations?
    Mr. Miller. Nothing monolithic or--we are not picking up 
anything of a routine systemic connection. I think what you 
will see is more ad hoc because they are all sitting on-line 
together, chatting, but have not picked up anything deliberate.
    Mr. Rose. But you are seeing communications between them? 
You are seeing interactions? You are seeing physical movement 
of people at all?
    Mr. Miller. Other than, as you know, with Russian Imperial 
Movement, there have been Westerners that have gone out to some 
of their training.
    Mr. Rose. To Crimea as well?
    Mr. Miller. Yes.
    Mr. Rose. To fight in Crimea as well. Do we know who all 
those individuals are who have gone to partner with the Russian 
Imperial Movement or Azov and come back here?
    Mr. Miller. I can't say that we know all of them.
    Mr. Rose. You think that is a problem?
    Mr. Miller. Is it probable that we know----
    Mr. Rose. No. Is that a problem? Would you say that we know 
every one----
    Mr. Miller. No.
    Mr. Rose [continuing]. Or would you say that we have a 
system in place for those who have gone to try to work with 
ISIS or al-Qaeda?
    Mr. Miller. Like Director Wray noted with the 
communications technology, the way it is right now, I would 
like to say we know, but I cannot say definitively that we know 
everyone who has gone overseas to support foreign terrorist 
organizations.
    Mr. Rose. Would you support this administration looking at 
expanding the List of Foreign Terrorist Organizations and STG 
organizations so as to assist us in fighting this new terrorist 
threat?
    Mr. Miller. I think we have an extraordinarily robust and 
solid system for doing that, and we look at that regularly to 
see if we are aligned correctly, if there are any other 
organizations that should be designated.
    Mr. Rose. To include those organizations that you just 
referred to earlier that are not presently on the list?
    Mr. Miller. Correct.
    Mr. Rose. OK. Thank you.
    Mr. Thompson. The Chair recognizes the gentleman from 
California, Mr. Garcia, for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman, and thank you to 
Ranking Member Rogers for the warm welcome. Really appreciate 
it. As a student of National security, as a former front-line 
operator, and a steward of developing National security 
technologies and doctrine, it really is an honor to be here, 
especially during this era of our Nation's history.
    Director Wray, Director Miller, thank you both for being 
here today, taking the time to help educate us. Keep us aligned 
and keep both sides of the aisle informed. Really appreciate 
it.
    Director Wray, I think your comments the single biggest 
threat to our Nation's security right now is our politicians 
and government leaders, especially at the State and local 
levels and city levels, to not get their collective programs 
together and support law enforcement.
    As my colleague from Mississippi, Mr. Guest, mentioned, it 
is getting ugly out there. It is getting uglier out there, and 
as leaders of Government, if we don't back law enforcement and 
if we don't make it crystal clear and unambiguously that we 
support those who protect us as a Nation, not just through 
policy but also through funding, then this will get worse. So I 
really appreciate your comments and commitment to that. I also 
appreciate your condemnation of previous abuses of power by 
your organization and look forward to fixing those sins of the 
past. I appreciate you both being here.
    I would like to pivot to a slightly different conversation 
and topic if we can. In my district--I come from southern 
California. We were, unfortunately, the site of a mass casualty 
at a local high school where we lost 2 of our beloved teens 
less than a year ago. Where I come from, I was a former naval 
aviator, and whenever there was a mishap, whenever there was a 
loss of life, we would convene what was called a safety 
investigation board or review. This team would go away for 6 
months, 9 months sometimes. They would look at every element 
that led to the mishap, what the pilot ate, what medications he 
was on, what his family life was like, what his emotional state 
was, what his mental health state was, and they would come back 
to the entire fleet and debrief us on the incident, all the 
lessons learned, what went wrong, what went right in some 
cases, how could we have avoided that situation.
    In our country, we don't seem to have anything like that 
for what I would call mass casualty incidents. We have these 
fatalities at high schools. We have mass casualties in 
different venues, different types of weapons. We hear about it 
in the news. It makes front-line stories for a couple of weeks, 
and then it goes away.
    Besides the close friends and families and the communities 
that are impacted, we sometimes don't remember the [inaudible] 
details. I guess my question is, why don't we have that? Why 
don't we have sort-of a mass casualties lessons-learned report 
that becomes public domain? We can redact things to protect 
anonymity and protect personal/private information, but within 
that, we can get lessons learned about what this kid was going 
through, what his parents saw, what tell-tales or issues were 
prevalent, and I bet you we do find common denominators in some 
of these cases, something that as parents we can read, 
something as teachers we can read. Classmates can have access 
to it, and we can all as a Nation really understand what led to 
some of these [inaudible].
    Why don't we have that? What do we need to do in order to 
get to that and have it available to all 330 million people 
that live in this beautiful----
    Mr. Wray. Well, Congressman, I appreciate the question. I 
think we do have some of that, actually. We, at the FBI, have 
done a number of studies of not individual self-contained mass 
casualty attacks, but we have looked at the trend of them, have 
looked at the collection, the universe of them over a longer 
period of time and have generated some reports about indicators 
that might have tipped people off if they had known what to 
look for. So we have tried to get some of that information out. 
A number of field offices, as I mentioned, I visited all 56 of 
our field offices, met with partners, law enforcement community 
in each place, and a number of offices are doing--FBI offices 
are doing outreach efforts with schools and neighborhoods in 
their AOR, their area of responsibility, to kind of better 
educate people as to what to look for.
    Because one of the things that we have learned--and, 
frankly, the same thing applies on a lot of the terrorism 
incidents--is that if you look back, there is almost always 
someone--a classmate, a family member, a neighbor, a coworker 
who saw, at least with the benefit of hindsight, saw a change 
in behavior, a transformation.
    You hear us say all the time, if you see something, say 
something. Most of us when we hear that, we picture, you know, 
the unattended backpack in the bus station. Of course, we want 
people, if they see something, to say something there, but we 
also need people if they see something about somebody to say 
something. So the more we can educate people as to behavioral 
patterns to be concerned about, a lot of this is very 
individualized because people are individualized. So it is the 
people who know the baseline of behavior of the person to know, 
wait a minute, this has changed now and I need--this is 
something I should be concerned about. I should go to the 
school security officer, I should contact law enforcement, et 
cetera.
    So that is part of it. There are also lessons learned in 
terms of hardening our schools, and there has been a lot of 
work done with our State and local partners on that. So there 
is kind-of an infrastructure piece of it. So there is a lot of 
work to be done in this space, and it is going to take kind-of 
a collaborative law enforcement education community partnership 
to do it.
    Mr. Garcia. I am out of time, but I will just say that I 
think we need a concerted effort to try to make some of those 
documents and lessons learned truly accessible to every 
American out there so that we are actually benefiting from 
foresight and not just commiserating on hindsight. I think that 
is the path forward. So, again, gentlemen, thank you for your 
time.
    Mr. Thompson. The Chair recognizes the gentlelady from 
Michigan, Ms. Slotkin.
    Ms. Slotkin. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here. I really 
appreciate it, and I know there has been back and forth on 
whether Acting Secretary Wolf should have been here. Whatever 
the reason, given that this is a world-wide threats hearing, 
the Secretary should have come here, and this idea that someone 
under Senate confirmation can't appear is actually factually 
incorrect.
    I know that since I was under Senate confirmation when I 
was called to testify many times.
    Let me ask about, Mr. Wray, you have been really helpful in 
just being straight and clear about kind-of the threats that 
are going on out there. Can you talk about level of effort on 
extremist violence, domestic extremist violence? You have 
talked about in this hearing how you are seeing--2019, I think 
you said, was one of the greatest levels of domestic violence 
we have seen in the country for some time since Oklahoma City.
    Can you tell me how many cases you have opened, and if you 
don't know the exact number, just approximately, you have open 
on groups that are White Supremacists versus groups that are 
coming from the left, just level of effort that the FBI is 
employing right now?
    Mr. Wray. Well, trying to think what I can say certainly 
off the top of my head on numbers. I mean, I will say that--let 
me start with this: As a general rule, we have each year--
lately we have been having roughly a thousand domestic 
terrorism investigations a year. It is higher than that this 
year.
    Ms. Slotkin. Yes.
    Mr. Wray. A good bit north of a thousand this year. I know 
that we have had about 120 arrests for domestic terrorism this 
year. Now, that number of investigations, the thousand-plus and 
the 120 arrests, that is domestic terrorism across the board, 
right, everything from racially-motivated violent extremist, to 
violent anarchist extremist, militia types, sovereign citizens, 
you name it.
    Of the domestic terrorism threats, we last year elevated 
racially-motivated violent extremism to be a National threat 
priority commensurate with home-grown violent extremists, that 
is the jihadist-inspired people here and with ISIS.
    Ms. Slotkin. Let me, because that is important, right, that 
what you are saying is the level of threat from domestic 
terrorists across the board, regardless of ideology, is at the 
same level as home-grown terrorists that have connections to a 
foreign terrorist organization? Did I hear you correctly?
    Mr. Wray. Well, we are treating it as a commensurate 
priority in terms of warranting our intention and resources, 
yes.
    Ms. Slotkin. But I am assuming you are giving it that 
attention because it deserves that attention because the threat 
has elevated from a time when--I am a former CIA officer, we 
were doing a lot of foreign terrorism nexus stuff, you know, 
2005, 2006, 2007 through the last, you know, 10 years. So it is 
interesting, I think, that domestic terrorism has elevated in 
the FBI's eyes?
    Mr. Wray. Yes.
    Ms. Slotkin. I think the thing that we are all struggling 
with is, you know, there are these home-grown terrorists of 
every flavor and type, but just in the number of either cases 
or arrests, how many of them are White Supremacists? What is--
if not the exact number, is it the same as other types of 
domestic terrorism? Is it higher? Just give us a level of 
approximate numbers.
    Mr. Wray. Well, what I can tell you is that, within the 
domestic terrorism bucket, category as a whole, racially-
motivated violent extremism is, I think, the biggest bucket 
within that larger group. Within the racially-motivated violent 
extremist bucket, people subscribing to some kind of White 
Supremacist-type ideology is certainly the biggest chunk of 
that.
    Ms. Slotkin. OK. That is very helpful.
    Mr. Wray. I don't have numbers for you.
    Ms. Slotkin. That is very helpful. The White Supremacists 
are the largest chunk of the racially-motivated domestic 
terrorists?
    Mr. Wray. Yes, but let me also say that--and I would also 
add to that that racially-motivated violent extremists over 
recent years have been responsible for the most lethal activity 
in the United States. Now, this year, the lethal attacks, 
domestic terrorism lethal attacks we have, I think, all fit in 
the category of anti-Government, anti-authority, which covers 
everything from anarchist violent extremist to militia types. 
We don't really think in terms of left, right. That is not the 
way we look at the world.
    Ms. Slotkin. I understand. Just in my last seconds, I will 
be submitting some questions for the record for Mr. Wolf 
commensurate with the questions that I submitted to Chairman 
Milley on the role of the Department of Homeland Security in 
and around our elections and the peaceful transition of power, 
but thanks very much, Mr. Chairman.
    Mr. Thompson. Thank you very much.
    In line with Ms. Slotkin's questions, Mr. Wray, you know 
Congress passed a law, the DATA Act. It is referred to as the 
Domestic and International Terrorism Act that requires the 
production of a report identifying everything that Ms. Slotkin 
talked about.
    Are you familiar with that?
    Mr. Wray. I am familiar with it, yes, Mr. Chairman.
    Mr. Thompson. You know, we are 3 months late on the 
production of that report.
    Mr. Wray. So I am certainly aware of the report and the 
requirement. I will say that--and I am aware that it is delayed 
and behind schedule. I know that the first report of the ones 
that are called for, as my understanding, it is complete and 
that it is in the interagency approval process, so it should be 
forthcoming soon.
    Unfortunately, with COVID--of course, when the NDAA was 
passed, no one anticipated the impact of COVID and the people 
that--and the impacts that would have on our work force. So 
that has been a big part of the delay, but I understand the 
importance of it. I know we have been engaging with you and 
your staff in terms of providing briefings and so forth as 
well, and we will get it to you just as fast as we can.
    Mr. Thompson. Yes. I think it is important that all Members 
of Congress have access just to the data. If there is some 
follow-ups from it, it is fine, but, you know, Congress has 
spoken, and I hope you follow.
    The Chair recognizes the gentleman from New York, Mr. 
Katko, for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman, and thank you both for 
being here today. I appreciate it very much. I spend a lot of 
my waking hours down here in Washington on antiterrorism 
matters and election security and cybersecurity. So I could 
talk to all of you for hours, but I do want to pause for a 
second, Director Wray, to just commend the work of the FBI 
agents on a regular basis. You don't hear that enough and you 
should.
    For 20 years before I came to Congress, I was a Federal 
organized crime prosecutor, and some of the best cases I ever 
did had heavy involvement by the FBI, including police 
corruption, political corruption, gang cases, and homicides. So 
I just want to commend the line agents day in and day out who 
do all the great work, and please convey my thank you to them.
    There is plenty of ways I can go here, but one thing that 
has been gnawing at me, and I just want to touch on real quick, 
if I can, for both of you because I have another question, and 
that is, when the New York City Police Department was cut by 
one-sixth or a billion dollars of their budget and knowing that 
New York City is the primary target in the world for terrorists 
to attack, I am just curious if either one of you have had any 
sort of information or concerns that have risen because of the 
lack of funding that they now have.
    We can start with Director Wray.
    Mr. Wray. Well, first, let me say I appreciate your kind 
words about the hardworking men and women of the FBI. Our folks 
had a tough job before this year and certainly COVID didn't 
make it any easier, and I am really proud of the hard work that 
has gone on in terms of keeping our people and their families 
safe, but not letting up on the mission and the results are 
pretty extraordinary, frankly.
    As far as New York, as somebody who grew up in New York 
City and still has, you know, family there, I care deeply about 
the safety of that city in a very personal way. Certainly I 
don't think it is appropriate for the FBI director to wade into 
sort-of political debates, local or otherwise, but I think our 
police officers, including the NYPD police officers, are 
extraordinary public servants who have a very, very, very, very 
tough job to have to undertake, and I think people really ought 
to think carefully about the ramifications of making that job 
harder.
    Mr. Katko. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Congressman. Obviously, last Friday, 
as we recognized the 19th anniversary, our hearts went out to 
New York City, and we were disappointed we weren't able to go 
up, but, of course with COVID-19 and whatnot, we weren't able 
to do that. I am hopeful that, next year, at the 20th 
anniversary, we will be in an entirely different place in this 
global war against terrorism, and we will have some good news 
on al-Qaeda's demise.
    I just wanted to highlight: We have the most unbelievable 
partnership with the NYPD. We have an analyst. She is magical, 
embedded into the National Counterterrorism Center, and we talk 
to NYPD probably 3 or 4 times a day. I am not familiar with--to 
be honest, I am not familiar with the cuts, look into that, 
absolutely, and if there is anything we can do to support, 
obviously, we will because between the Joint Terrorism Task 
Force and the NYPD, they are just remarkable partners, and we 
want to help them in any way we can.
    Mr. Katko. Thank you very much.
    Director Wray, I spend a lot of time on election security. 
It is one of my greatest concerns, and everything from making 
sure that the machines don't get hacked into, and I am 
relatively confident on that, to the high concern I have about 
the possible obstruction in the process of the election by 
foreign actors, such as Russia and Iran and China. I am also 
concerned about, like in New York State, for example, there is 
a delay of 8 days before they start counting absentee ballots 
after the election which delays the results which delays 
individuals' belief in the results, and I am concerned about 
that.
    But if I could just ask you this question. I know you 
testified on a lot of different aspects. What is your biggest 
concern right now about election security going forward for 
this long?
    Mr. Wray. You know, obviously, there is a lot of aspects of 
it that we are concerned about, and you touched on some of 
them, but I think in many ways what concerns me the most is the 
steady drumbeat of misinformation and sort-of amplification of 
small or cyber intrusions that contribute over time, I worry 
that they will contribute over time to a lack of confidence of 
American voters and citizens in the validity of their vote.
    I think that would be a perception, not a reality. I think 
Americans can and should have confidence in our election system 
and certainly in our democracy, but I worry that people will 
take on a feeling of futility because of all of the noise and 
confusion that is generated. That is a very hard problem to 
combat.
    Mr. Katko. Thank you very much.
    Mr. Thompson. Thank you.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver, you need to unmute yourself.
    We will go to Mr. Green. We will go to Mr. Green.
    Mr. Green of Texas. Yes, Mr. Chairman. Can you hear me?
    Mr. Thompson. Yes, we have you.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank the witnesses for appearing, and I am especially 
interested in a topic related to violent activity. I have in my 
hand, Mr. Chairman, a story from The Washington Post dated 
September 14, 2020, and it is titled ``Trump Health Appointee 
Michael Caputo Warns of Armed Insurrection After Election.'' A 
relevant portion of the story that is quoted reads: And when 
Donald Trump refuses to stand down at the inauguration, the 
shooting will begin. He warned in video. The drills that you 
have seen are nothing. If you carry guns, buy ammunition, 
ladies and gentlemen, because it is going to be hard to get.
    Mr. Director of the FBI, you pride yourself on your 
independence, do you not?
    Mr. Wray. I am sorry, Congressman, I had a little bit of a 
hard time hearing the very end.
    Mr. Green of Texas. I said you pride yourself on your 
independence, do you not?
    Mr. Wray. I do pride myself----
    Mr. Green of Texas. And you will investigate anybody or any 
opportunity to prevent a crime.
    Is this correct?
    Mr. Wray. We will follow the facts and the law and nothing 
else, and we will aggressively pursue any criminal activity.
    Mr. Green of Texas. Can you explain to me, kindly sir, why 
you have not pursued the facts and the law as it relates to Mr. 
Caputo and these statements? He appears to be warning us of 
some sort of impending crisis leading to violence.
    Mr. Wray. Well, I don't want, sir, try to engage in whether 
or not there is any particular investigative activity going on 
that might be somehow related to all that. What I would say is 
that we don't investigate rhetoric, and we will investigate 
when we have proper predication of a Federal, criminal 
violation. You can be assured that, if we have a situation 
where we have facts and the law and the evidence, that we will 
pursue it without regard to any other consideration.
    Mr. Green of Texas. Permit me to ask this: Mr. Caputo is a 
part of--was a part of the administration. He appears to be on 
some sort of leave right now. He has indicated that there is 
going to be violence. It would seem to me that, at least, an 
interview would be in order. Why have you not interviewed him?
    Mr. Wray. Congressman, I am not particularly familiar with 
the public comments that you are referring to, but as I have 
said, if we see credible evidence of violent criminal activity 
that is a Federal crime, we will pursue that activity.
    Mr. Green of Texas. Mr. Chairman, may I kindly insert The 
Washington Post article in the record without objection.
    Mr. Thompson. Without objection.
    [The information follows:]
                        Article, Washington Post
 top trump health appointee michael caputo warns of armed insurrection 
                             after election
By Yasmeen Abutaleb, Lena H. Sun, Josh Dawsey, and Rosalind S. 
        Helderman
September 14, 2020 at 8:20 p.m. EDT
    A top communications official for the administration's coronavirus 
response urged President Trump's supporters to prepare for an armed 
insurrection after a contested election and accused government 
scientists of ``sedition'' in a Facebook Live chat that he described in 
detail to The Washington Post on Monday.
    Michael Caputo, assistant secretary for public affairs at the 
Department of Health and Human Services, which is overseeing the 
coronavirus response, leveled the accusations and promoted other 
conspiracy theories in a Facebook Live event first reported by the New 
York Times. Caputo confirmed the authenticity of the video in comments 
he made to The Post.
    ``Since joining the administration my family and I have been 
continually threatened and in and out of criminal court dealing with 
harassment prosecutions,'' Caputo said in a statement. ``This weighs 
heavily on us and we deeply appreciate the friendship and support of 
President Trump as we address these matters and keep our children 
safe.''
    Caputo's comments come as Trump administration officials say they 
are seeking to build public support for a coronavirus vaccine but have 
faced a series of disappointing setbacks, most recently the release of 
audio in which the president admitted that he deliberately downplayed 
the virus when he knew it was ``deadly.''
    Trump installed Caputo in April after weighing whether to fire 
Health and Human Services Secretary Alex Azar over a series of damaging 
stories about Trump's handling of the pandemic, according to three 
current and former White House officials who spoke on the condition of 
anonymity to describe behind-the-scenes discussions. Allies persuaded 
Trump to not make such a change amid a pandemic, but instead to bring 
in Caputo, the officials said. (Trump denied reports that he was 
considering firing Azar at the time.)
    Almost immediately, Caputo began exerting control over officials' 
public appearances and statements; by early summer, he had extended 
that scrutiny to scientists. He and an adviser have faced mounting 
criticism in recent days for interfering with the work of scientists at 
the Centers for Disease Control and Prevention, seeking to change, 
delay, or kill weekly scientific reports they thought undermined 
Trump's message that the pandemic is under control. Caputo has also 
sought to wield influence over when government scientists appear on 
television, telling officials that he approves such bookings.
    Caputo is viewed as a Trump loyalist, but several White House 
officials said his behavior has been erratic and some of his ideas have 
been regarded as extreme. For example, he proposed the Federal 
Government spend millions of dollars on a professionally directed and 
produced documentary about the administration's race to develop 
vaccines that he wanted to air at film festivals, said a senior 
administration official, who spoke on the condition of anonymity. The 
idea was rejected by White House communications aides.
    In the Facebook video, Caputo criticizes government career 
scientists, the media and Democrats, the Times reported and Caputo 
confirmed. He said he was under attack by the media and that his 
``mental health has definitely failed.''
    ``I don't like being alone in Washington,'' Caputo said in the 
video, describing ``shadows on the ceiling in my apartment, there 
alone, shadows are so long.''
    Caputo also said the CDC, which is part of HHS, had a ``resistance 
unit'' that aimed to undermine Trump. Without offering any evidence, he 
also accused scientists ``deep in the bowels of the CDC'' of giving up 
on science and becoming ``political animals.''
    They ``haven't gotten out of their sweatpants except for meetings 
at coffee shops'' to plot ``how they're going to attack Donald Trump 
next,'' he said in the video. ``There are scientists who work for this 
government who do not want America to get well, not until after Joe 
Biden is president.''
    He also predicted that Trump would win the election but that Biden, 
the Democratic Presidential nominee, would refuse to concede. ``And 
when Donald Trump refuses to stand down at the inauguration, the 
shooting will begin,'' he warned in the video. ``The drills that you've 
seen are nothing. If you carry guns, buy ammunition, ladies and 
gentlemen, because it's going to be hard to get.''
    Several Democratic lawmakers, including Sen. Patty Murray (D-Wash.) 
and Rep. Rosa L. DeLauro (D-Conn.), called late Monday for Caputo's 
firing.
    ``Secretary Azar has a basic responsibility to ensure our public 
health experts are able to do their jobs, our COVID-19 response is not 
undermined by misinformation or conspiracy theories, and the data used 
to inform our efforts is free of political interference,'' Murray said 
in a statement.
    Noting that Caputo has said the president asked him to oversee a 
$250 million campaign ``intended to help America toget back to 
normal,'' DeLauro said, ``We now know this is a propaganda campaign 
that must be defunded immediately. It is not the mission of the 
Department of Health and Human Services to get the President 
reelected.''
    House Democrats on the select subcommittee on the coronavirus 
crisis also announced that they had launched an investigation into 
political interference in the CDC's science reports on the pandemic.
    The White House declined to comment on the controversy Monday.
    Speaking on the condition of anonymity to discuss behind-the-scenes 
conversations, a White House official said the president was aware of 
Caputo's comments but that his job appeared to be safe for now. 
Nonetheless, the official said, some advisers were arguing Caputo 
should be demoted or removed because of concern that he could damage 
the administration's efforts to build public confidence in a 
prospective coronavirus vaccine.
    The official said the White House has also recently expanded its 
coronavirus vaccine messaging team, detailing staffers from other 
agencies in an ``end run'' around Caputo.
    Senior White House aides have previously warned Caputo that some of 
his public comments crossed a line. Caputo deactivated his personal 
Twitter and Facebook accounts on Monday.
    HHS released a statement describing Caputo as ``a critical, 
integral part of the President's coronavirus response, leading on 
public messaging as Americans need public health information to defeat 
the COVID-19 pandemic.''
    Several current and former administration officials have expressed 
frustration that Caputo seems more focused on the president's political 
fortunes than on combating the pandemic. Caputo denied that, saying 
that while he cares about the president's electoral prospects, he is 
most worried about the deaths and suffering caused by the pandemic. He 
noted he has urged friends to wear masks. ``If you don't wear a mask, 
you're part of the problem,'' he said in the interview.
    As a former radio talk show host, Caputo said he used to host such 
Facebook Live events every Sunday until he took the assistant secretary 
job in April. Since then, he has done two or three such events to talk 
about the pandemic response.
    He said he spoke about being in personal danger on the Facebook 
Live video because a car had stopped in front of his Buffalo-area home, 
where he was shooting the video, and a man rolled the car window down 
and twice yelled profanities and threatened his life.
    Since Caputo has been in the HHS job, he said, his two young 
daughters, now 6 and 8, have been harassed constantly. One man is being 
prosecuted for yelling profanities at them when they were playing 
outside, he said. The Post could not immediately confirm that case.
    During the video, Caputo said questioners asked whether he would 
stay in the job because of mounting criticism of his team's 
interference in the work of CDC's weekly scientific missives aimed at 
the nation's doctors, known as the Morbidity and Mortality Weekly 
Reports. He said he expected to remain in his post.
    Caputo was an unusual choice for the top health communications job 
in the government, especially in the middle of the worst public health 
crisis in a century. A New York public relations specialist and 
political consultant, Caputo served as campaign manager to 
controversial businessman Carl Paladino in his unsuccessful bid for 
Governor of New York in 2010. Caputo began working with Trump in 2014, 
first to assist Trump's unsuccessful bid to buy the Buffalo Bills that 
year and then, in 2016, to assist Trump's efforts in the Republican 
primary for president in New York.
    Caputo remained in the public eye, particularly after the 
appointment of special counsel Robert S. Mueller III in 2017. In 
frequent interviews, Caputo bemoaned the investigation and the effect 
it had on Trump allies who faced hefty legal bills as they received 
subpoenas and requests for interviews with investigators. When the 
investigation wrapped, Trump hosted Caputo for a meeting in the Oval 
Office and took pictures with his family.
    Caputo himself drew the attention of Mueller's investigators in 
part because he had had contact with a Russian who offered damaging 
information about Hillary Clinton during the 2016 campaign.
    In May 2016, Caputo said, a Russian man approached his then-
business partner, Sergey ``George'' Petrushin at an art gallery opening 
in Florida, claiming to have information that could be helpful to 
Trump's campaign. Petrushin connected him with Caputo, who arranged for 
him to meet with political operative Roger Stone, a long-time friend.
    According to the Mueller report, which described the episode, 
investigators found no link between the Russian man's outreach and the 
broader effort by Russia to interfere in the 2016 election.
    As a political adviser and public relations specialist, Caputo also 
had lived for a time in Moscow in the 1990's, where he worked on a 
campaign reminiscent of ``Rock the Vote'' on behalf of then-Russian 
President Boris Yeltsin.
    Returning to the United States, Caputo took a contract in 2000 
working for the Russian conglomerate Gazprom Media to improve Vladimir 
Putin's image in the United States. He later told the Buffalo News that 
he was ``not proud of the work,'' adding, ``at the time, Putin wasn't 
such a bad guy.''

    Mr. Green of Texas. Thank you.
    Back to you, again, Mr. Director of the FBI, my hope is 
that my calling this to your attention today will give you 
sufficient reason. You have got a Member of the U.S. Congress 
who is bringing to you intelligence that has been reported 
publicly that a member of the administration has made comments 
that there will be violence if there is a refusal to stand down 
by a person who is associated with the Presidency. My hope is 
that this is sufficient for you to, at least, interview 
someone.
    Let me move to the director of national counterterrorism. 
Would this intelligence not seem to indicate that there may be 
some sort of activity that would fall under your umbrella if 
this is credible information, Mr. Director Miller?
    Mr. Miller. Sir, thanks for the question. My focus in remit 
is connections between international terrorist organizations 
and any U.S. domestic violent extremist or home-grown violent 
extremists.
    Mr. Green of Texas. I have to ask now, rhetorically, what 
does it take to investigate someone who is associated with this 
administration who makes these kinds of comments? This seems to 
be fairly serious to me. I likely will be at the inauguration, 
and we have a person who is associated with the administration 
who is indicating that bullets are going to fly and shooting 
will begin. These are his words. It would seem to me that this 
should be sufficient.
    So I am going to ask, as a Member of Congress, that the FBI 
perform its duty as an independent agent, fearing none, having 
favor for none, investigate this and please report to me, if 
you will, if the committee does not desire to know, would you 
kindly report to me what your findings are to the extent that 
you can?
    I yield back, Mr. Chair.
    Mr. Thompson. Thank you very much.
    The Chair recognizes Mr. Cleaver for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I apologize for my technological failure earlier. Let me 
also, first of all, say I would like to thank you, Mr. 
Chairman, for your leadership. I look at leadership as being 
measured by how they function during a crisis, and we are in a 
crisis, and I think you handled it magnificently.
    You know, Director Wray, let me just say, you know, 
polarization in our country is rising frighteningly and at 
least that is how I analyze it, and I think it is helping to 
create a new and growing and dangerous tribalism in our country 
now, and we are becoming a Nation where people want to live in 
neighborhoods that are--where people have similar ideologies, 
and we loathe voter [inaudible] different political posture, 
and we condemn lying in a small circle in which we might 
function, but we accept it and even praise it when it is done 
to achieve some political [inaudible].
    Now let me just say I have to say I appreciate you and the 
way you have handled the Department. I can tell you I tremble 
at night because we have seen many of our institutions damaged 
over the last few years, and people in position of significance 
have allowed those organizations to bend to the will of 
politicians, and I don't--I have not seen that with the FBI. I 
think you have played it straight and have tried to do it today 
as well.
    This is what I wanted to talk about when the hearing 
started, I would like for you to address if you can, you know, 
where the FBI stands in terms of the morale and whether the FBI 
is now in a situation where, you know, we can depend on it to 
continue its central objectivity. I also end by just saying 
that your [inaudible] presentation is something I want to 
express appreciation for, but where is the FBI right now in 
terms of the guys who are out on the streets doing all the work 
we need to be doing to protect the United States of America.
    Mr. Wray. Congressman, I want to tell you, I very much 
appreciate your kind words to our folks and the question. I 
will say that I could not be more proud of our people, and 
whenever you ask questions about something like morale, it is a 
hard thing sometimes to measure, but I will give you a few 
pieces of information that I think are extremely good news. One 
is that, last year, and this has been a trend over the few 
years of my tenure as FBI director, our attrition rate is down 
to 0.4, 0.5, or 0.6 percent. So well less than 1 percent. There 
are very few organizations in this country that have an 
attrition rate that low, but an even better piece of news is on 
the recruiting side.
    Last year, we had triple, triple, the number of people in 
this country applying--these are qualified applicants to be 
special agents of the FBI of the prior years. The highest 
number in about a decade, and this year we are on track to be 
even higher. So I think that is a very positive signal about 
the brand of the FBI and the occurrence of the FBI all across 
the country and among the public.
    You know, just in the middle of COVID, our folks have, you 
know, opened something like 750 COVID fraud investigations; 
600-plus violent gang members arrested just in the course of a 
single month. I mentioned the terrorist attacks we thwarted. I 
think, in fiscal year 2020, we recovered something like 500-
plus kids who were victims of human trafficking. I could go on 
and on and on, but they are doing all that despite the 
challenges of the current environment. I say I am honored, but 
really I am humbled to be working with them.
    Mr. Cleaver. Thank you. I would also--it would have been 
great if Secretary Wolf had been here. I think, unfortunately, 
that tragically and painfully his absence does continue to do 
damage to the democracy.
    I like to yield back to you at this time, Mr. Chairman.
    Mr. Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Underwood.
    Ms. Underwood. Thank you, Mr. Chairman.
    Your agencies have identified domestic violent extremism, 
particularly White Supremacy, as a leading threat to our 
homeland. Last month, a teenager from my district in Antioch, 
Illinois, went to Kenosha, Wisconsin, where he allegedly killed 
2 people with an AR-15 style rifle amid the protests there.
    We have seen too many examples of this kind of deadly 
violence being fueled by on-line extremism, and now combating 
domestic extremism requires a thoughtful approach in order to 
safeguard American civil liberties.
    Director Wray, in explaining the FBI's approach to domestic 
extremism, you said, ``The FBI is only concerned when responses 
cross from ideas and Constitutionally-protected protests to 
violence.''
    In the days before the shootings in Kenosha, the Atlantic 
Council Digital Forensic Research lab found that so-called 
militias were publicly organizing on social media for armed 
individuals to travel to Kenosha. A so-called militia leader 
wrote, ``Law enforcement is outnumbered. Take up arms and 
defend our cities tonight from the evil thugs.''
    Another user wrote, ``I am on the way with 75 people from 
Green Bay. We have lots of guns. Lots of pipe bombs. Going to 
cleanse the streets of rioters.''
    A third user wrote, ``Attention, all non-Whites and 
degenerates of Kenosha. You have until sundown to pack up your 
belongings and leave the area. After that, anything that 
happens to you or your children will be your fault.''
    And a fourth quote: ``Shoot to kill, folks.''
    Director Wray, are these ideas, or are they threats of 
violence?
    Mr. Wray. I am sorry, Congresswoman, the very last part, 
the question itself, I couldn't quite hear. I am not sure if it 
is the audio or----
    Ms. Underwood. Director Wray, are these ideas or threats of 
violence?
    Mr. Wray. Without reference to any specific case, certainly 
language about violence can, in certain instances, be part of 
the offense and can be threats. I mean, we pursue threats to 
commit violence, not just the actual commission of violence.
    Ms. Underwood. To your knowledge, did Facebook at any point 
provide any of these Kenosha-specific threats to Federal law 
enforcement?
    Mr. Wray. I can't, sitting here right now, speak to any 
specific tips or threats. I will say that we get lots of leads 
and tips from Facebook and work closely with them on a lot of 
terrorism issues.
    Ms. Underwood. In light of the violence that occurred at 
similar events this year, I think we can all agree that 
statements like these are concerning, and that is why it is so 
important to share this information as soon as possible with 
local officials like those in Kenosha, so they can make 
effective plans to keep their communities safe.
    I want to be clear: I am speaking here about statements 
publicly posted on-line, often under users' real names, not 
about private communications.
    Director Wray, what steps, if any, did the FBI take to 
alert State and local officials in Wisconsin about these 
specific threats of violent activity in their area?
    Mr. Wray. Well, Congresswoman, there are a few things that 
I would say on this topic. First, just to be clear, we don't 
have people--we, at the FBI, don't have the resources or the 
authority to just sit on social media and troll for----
    Ms. Underwood. [Inaudible.]
    Mr. Wray. I know you are not suggesting that, but what I am 
just making sure that the people out there----
    Ms. Underwood. Sir, we have limited time. Would you just 
answer the question?
    Mr. Wray. I am sorry?
    Ms. Underwood. We have limited time. If you could answer 
the question.
    Mr. Wray. Yes. So what we do do, we have, in addition, to 
the relationships we have with social media companies, we have 
something called NTOC, which is our National Threat Operation 
Center, that has both call-in lines, 1-800-CALL-FBI, and then 
an e-mail version----
    Ms. Underwood. Director Wray, excuse me, sir. I asked if 
you took steps to alert the local officials.
    Mr. Wray. Yes. So what I am getting to is that the National 
Threat Operation Center, when it gets threats and tips of this 
sort that you are describing, we have a mechanism by which we 
feed that information as quickly as possible to State and local 
law enforcement so they can take appropriate action. We have a 
system called----
    Ms. Underwood. Reclaiming my time. Reclaiming my time. The 
director is not answering specifically whether or not this FBI 
alerted State and local officials in Wisconsin. I would like 
that noted for the record.
    The day after the Kenosha shootings, I heard from a mother 
in the alleged shooter's home town in my district who wrote 
that: ``There is a militia cell in Antioch that is becoming 
more and more emboldened to take the law into their own hands, 
and I am becoming fearful to send my children to the same 
schools as White Supremacist militia members.''
    Domestic extremism and White Supremacy pose critical 
threats to our homeland. To stop deadly extremist violence, 
Federal law enforcement and their partners must seize on 
opportunities to intervene before the violence begins. I am 
looking forward to working together with you, Director Wray, on 
improving our ability to prevent violent threats from becoming 
violent actions.
    Thank you to our witnesses for being here. I am so 
disappointed that not all of our witnesses fulfilled their duty 
to help this committee and the American people understand the 
threats to our National security.
    I yield back.
    Mr. Thompson. Thank you very much. The gentlelady yields 
back.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. Thank you, Mr. Chairman. I thank our Ranking 
Member Rogers. As our Nation faces immeasurable threats from 
the rise of White Supremacist terrorist groups to the risk of 
cyber attacks crippling our critical infrastructure, this 
committee has an obligation to conduct oversight and ensure 
that the Executive branch is doing its job, but Congress can 
only fulfill our Constitutional role if the Executive branch 
follows the law and appears before us when subpoenaed.
    I would like to thank Director Wray and Director Miller for 
appearing before us today. I would also like to condemn in the 
strongest possible terms Mr. Wolf's refusal to appear before us 
and comply with a lawfully-issued subpoena. His refusal to 
testify is yet another example of the lawlessness that has 
infected the Department of Homeland Security. Mr. Wolf may not 
want to answer for his Department's actions from removing the 
uteruses of ICE detainees to manipulating intelligence to 
minimize Russian meddling in our election, but when a 
Congressional committee subpoenas you, the law says you must 
show up.
    With that, I turn to my questions.
    My first question is actually for you, Director Wray, and 
it is a bit parochial. It has to do with my district. 
Yesterday, I joined a letter to Commissioner Shea of the New 
York City Police Department, signed by 2 New York State 
legislators, 2 Members of Congress, and members of the New York 
City Council regarding alleged cooperation between the FBI and 
the NYPD in a community in my district. Specifically, it 
alleged that in light of New York's new State-level bail laws, 
investigations that would have previously been handled by local 
officials, the NYPD, are now being turned into Federal cases.
    Are you aware of any arrangement of this nature between the 
Bureau and the NYPD?
    Mr. Wray. I am not familiar with the specific issue that 
you are referring to, at least in New York. I will say----
    Ms. Clarke. Will you look in to it and get back to me on 
this?
    Mr. Wray. I would be happy to take a look. You said there 
was a letter that you had written----
    Ms. Clarke. Well, this was actually sent to our local 
police commissioner, but there was a public statement made by 
one of our police officials that they are working with the FBI, 
and so I would like to get some clarity around what this 
arrangement is if it exists at all.
    Mr. Wray. OK. Well, I will have my staff follow up with 
your staff to get a little more information about and see if 
there is information that we can provide that would be helpful 
to you.
    Ms. Clarke. Wonderful. I appreciate that. I would like to 
ask a question about the recent resurgence of White 
Supremacists against African Americans, Jewish Americans, 
Latinos, and so many others. Politico recently obtained a draft 
DHS 2020 homeland threat assessment which described White 
Supremacists as the deadliest domestic terror threat currently 
facing the Nation, but subsequent drafts diminish this warning.
    What is your assessment of the deadliest domestic terrorist 
threat currently facing the Nation, and have you ever faced 
political pressure or been--received or have received a request 
from any other element of the U.S. Government to alter the 
assessment?
    Mr. Wray. Well, first, let me say my commitment to calling 
it straight extends not just to our investigations but to our 
intelligence assessments. That has been my commitment since Day 
1, and it continues and will continue as long as I am sitting 
in this role. We have continued to take that approach to all of 
our intelligence assessments on my watch.
    As far as the issue about danger and domestic terrorism 
threats, what I would say is that we assess that the most 
dangerous threat to the homeland encompasses lone actors, 
radicalized often on-line, with easily accessible weapons 
against soft targets. That includes home-grown violent 
extremists that are jihadist-inspired as well as domestic 
violent extremists of all sorts.
    Now, within the domestic violent extremists, we have 
assessed that racially-motivated, racially- and ethnically-
motivated violent extremists have been responsible for the most 
lethal activity over the last several years.
    Ms. Clarke. I asked specifically about White Supremacists. 
Are they included in that threat assessment?
    Mr. Wray. Yes. So, within the racially- and ethnically-
motivated violent extremists, I would say the biggest chunk of 
those--I can't give you a percentage, but the biggest chunk of 
that are individuals who are motivated by some form of White 
Supremacist ideology, and that group, the racially-motivated 
violent extremists, has been responsible for the most lethal 
activity over the last few years.
    I will say, just as a point of clarification this year, the 
lethal attacks that we have seen, I think, have all been from 
anti-Government or anti-authority types, but if you go back 
over the last few years, it has been the racially-motivated 
violent extremists that had the most lethal attacks in the 
homeland.
    Ms. Clarke. Thank you, Mr. Chairman.
    I yield back the balance of my time.
    Mr. Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Las Vegas, Ms. 
Titus, for 5 minutes.
    Ms. Titus. Thank you very much, Mr. Chairman.
    Can you hear me?
    Mr. Thompson. Yes, we can.
    Ms. Titus. Thank you. I am sorry.
    I, too, am sorry Mr. Wolf wasn't here because I wanted to 
ask him about the limitation on J1 visas, which is keeping 
several dozen special ed teachers from coming to Clark County, 
and I really don't think special ed teachers are a threat to 
the homeland, but nonetheless.
    Director Wray, despite your protest to the contrary that 
the FBI is not being politicized, we have seen increasing 
politicization of the Justice Department under Attorney General 
Barr, and this has crossed a long-standing line that we don't 
usually expect or see or tolerate this sort of thing from our 
Nation's law enforcement.
    Just, yesterday, the attorney general told the Nation's 
Federal prosecutors--this is virtually a quote--to be 
aggressive when charging certain demonstrators with crimes, 
including the crime of sedition. Now sedition, as you know, is 
an act of inciting revolt or violence against a lawful 
authority with the goal of destroying or overthrowing it. Now 
put that in the context of the fact that FBI officials earlier 
this year described the perpetrators of some of these actions 
at demonstrations as largely opportunistic individuals taking 
advantage of the protest. Then we had a report by Armed 
Conflict Location and Event Data Project which monitors 
political upheaval around the world, they looked at 7,750 
protests from May 26 to August 22 in 2,400 locations in all 50 
States and Washington and found that 93 percent of the protests 
were peaceful. Third, we have seen the statement by the Federal 
prosecutor Federal attorney from eastern Virginia who said--of 
your Eastern District of Virginia, Mr. Rosenberg, who said 
that, if Barr is saying if you have a sedition case, then bring 
it, that is OK; but if he is urging people to stretch to bring 
one, that is deeply dangerous to our Constitution.
    I wonder if, under these new directives from Attorney 
General Barr, who is apparently trying to shore up the 
President's law-and-order image, you are going to change your 
approach to dealing with some of the people who have been 
involved in these demonstrations. If you are going to look at 
building a case for sedition--it is difficult to prove, but 
maybe you will set out to do that--could you kind-of describe 
how this might make a difference in the crimes that you pursue 
against some of these people?
    Mr. Wray. Well, Congresswoman, I am not familiar with the 
conversation that has been attributed to the Attorney General, 
you know, in the press. So I can't really comment on that 
specifically. I will say my commitment, our commitment is to 
pursue justice in every investigation to follow the facts, 
follow the law, and follow proper predication. We have a 
commitment to protect the American people and uphold the 
Constitution, and we are going to do both in every 
investigation, and that includes in this context.
    Ms. Titus. Could you talk a little bit about the crime of 
sedition and what it would take to prove it? Do you see any 
cases pending out there now that might fit under this kind of 
charge?
    Mr. Wray. Well, I will confess that I am not a legal expert 
on the crime of sedition, so I am not sure. I would have to 
brush up on that to be able to really answer your question in 
the intelligent way that I think you would expect of me. 
Certainly, there is dangerous, violent criminal activity that 
is occurring amidst some of the protests around the country, 
and we, I think, have a responsibility to pursue that activity 
aggressively but appropriately. Even if numerically it may not 
be the lion's share of the protesters by any stretch of the 
imagination, it doesn't take more than one person to engage in 
sometimes lethal activity against others.
    So we have a responsibility to pursue that, but you can be 
confident that we are going to pursue that based solely on the 
facts and the law and the appropriate evidence and not based on 
any kind of improper or partisan consideration.
    Ms. Titus. Would you think that Mayor Durkan or Governor 
Jay Inslee are domestic terrorists because of what has happened 
in Seattle as has been suggested perhaps by this 
administration?
    Mr. Wray. I am not familiar with the particular comments 
that you are referring to, so I really can't comment on that.
    Ms. Titus. Well, no, I am just asking, do you think they 
would fit the category of domestic terrorist based on what has 
been happening in Seattle?
    Mr. Wray. I am sorry. Do I think who is a domestic 
terrorist?
    Ms. Titus. Mayor Durkan and Governor Inslee.
    Mr. Wray. I wouldn't be describing them that way, but I 
will say I don't tend to comment on people as--ascribe labels 
of terrorists or criminal activity to people except when we are 
speaking through our charges. That is how I would communicate 
about that.
    Ms. Titus. I appreciate that. I wish some other members of 
the administration felt the same way. Thank you, Mr. Chairman. 
I yield back.
    Mr. Thompson. Thank you.
    The Chair recognizes the gentlelady from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Thank you to our witnesses for the service that you render, 
the job that you do, and your willingness to be here and have 
an exchange of views.
    Mr. Wray, I have a series of follow-up questions. 
Congresswoman Underwood asked you about investigations, and you 
did not answer whether or not you would be pursuing those 
investigations at her request.
    So is that a yes or a no?
    Mr. Wray. I will confess, Congressman, I was having an 
extremely hard time hearing Congresswoman Underwood. I don't 
know if it was the quality of the audio connection or perhaps 
because she was appropriately wearing a mask that I couldn't 
hear through the mask, so I will confess that I really couldn't 
understand the question very well. I was doing my best to 
answer it to the best of my ability. So it probably makes more 
sense for me to follow up with her staff----
    Mrs. Watson Coleman. Good. OK.
    Mr. Wray [continuing]. To make sure that I actually 
understood the question.
    Mrs. Watson Coleman. Thank you.
    What about Congressman Al Green's request that you 
investigate the statements that Mr. Caputo made while he was a 
spokesman at the DHS impacting what the CDC was saying, and his 
notion of there would be violence and that the scientists were 
actually--I think the terminology is creating or were seditious 
in their actions? Will you be investigating that? I know you 
said you didn't know the comments that were made, but now that 
you know, will you be investigating that?
    Mr. Wray. Well, first, Congresswoman, let me say, as you 
may know, we don't ever confirm or deny the existence of 
investigations.
    Mrs. Watson Coleman. OK.
    Mr. Wray. So when we get requests from Members of 
Congress----
    Mrs. Coleman Watson. OK.
    Mr. Wray [continuing]. To investigate something, which 
happens all the time----
    Mrs. Watson Coleman. Yes.
    Mr. Wray [continuing]. We will take evidence that is 
submitted.
    Mrs. Watson Coleman. Okeydokey.
    Mr. Wray. If somebody has credible evidence of a crime, we 
will review the evidence and decide what to do about it.
    Mrs. Watson Coleman. OK. Then can you tell me a couple of 
things. No. 1 is, do you feel that voting by mail as a result 
of the pandemic and in anticipation of having the largest 
turnout in voting at a time when we have this pandemic, do you 
believe that there is wide-spread fraudulence and abuse 
historically in voting by mail? That is a yes or a no.
    Mr. Wray. Well, I think--with respect--I am not sure it 
easily lends itself to a yes or no question, but I will answer 
the question. We take all election-related crimes seriously, 
including voter fraud----
    Mrs. Watson Coleman. Well, then, I guess my question is--my 
question is--it is a yes or no question. Is there this sort-of 
experience, historical record of wide abuse, wide-spread abuse 
of voting by mail, yes or no?
    Mr. Wray. We have not seen to date----
    Mrs. Watson Coleman. Thank you.
    Mr. Wray [continuing]. A coordinated National voter fraud 
effort in a major election. We have certainly investigated----
    Mrs. Watson Coleman. OK. Then I simply----
    Mr. Wray. We have certainly investi- --if I may finish. We 
certainly have investigated voter fraud committed by mail. It 
has typically been at the local level.
    Mrs. Watson Coleman. In very isolated circumstances, I 
suspect. I'm just wondering how often you get to speak to the 
attorney general, and if you would use your good graces and the 
respect that we have for you to sort of ask him to stop 
spreading such misinformation about voting integrity.
    I want to ask you a couple of questions about White 
Supremacist--White Supremacists. First of all, let me ask you 
about Black Lives Matter. Does Black Lives Matter represent an 
organization to you? Is that a yes or a no?
    Mr. Wray. I understand that there is an organization, they 
call themselves Black Lives Matter.
    Mrs. Watson Coleman. Do you have it--OK. Do you have it 
listed as a terrorist organization?
    Mr. Wray. No.
    Mrs. Watson Coleman. Do you have any reason to believe that 
it is a terrorist organization?
    Mr. Wray. Well, we don't categorize domestic organizations 
as terrorist organizations under the law because there is no--
--
    Mrs. Watson Coleman. Have you--OK. Have you found any 
individuals that have aligned themselves with Black Lives 
Matter as the perpetrators of any of the violent actions that 
you have seen take place in what was peaceful demonstrations 
organized by Black Lives Matter allies?
    Mr. Wray. I can't, sitting here right now, speak to 
specific cases. I know that we have had a wide range of 
domestic violent extremists in midst of the current protest 
activity engaging in violence or destruction of property. 
Whether in any one of those cases somebody may have aligned 
themselves or associated themselves with Black Lives Matter, I 
don't--sitting here right now, I can't think of one, but I 
don't know for sure.
    Mrs. Watson Coleman. Thank you. Do you know whether or not 
they have been aligned with White Supremacists and Boogaloo, 
militia groups or whatever other sort of right-wing groups?
    Mr. Wray. Well, we have had a number of investigations 
involving some of the activity we're talking about, sort-of 
domestic violent extremism, that in some instances, as I have 
mentioned, are people who are associating themselves with 
various anarchist ideologies like Antifa, and in other 
instances, associated themselves with like the Boogaloos. The 
Boogaloos----
    Mrs. Watson Coleman. Yes.
    Mr. Wray. For example, I mentioned the case in my exchange 
with Congresswoman Lesko about the Minneapolis individuals, for 
example, who associated themselves with the Boogaloos and 
ultimately were also ensnared in trying to provide material 
support to Hamas. Then there is some other cases that we have 
had involving Boogaloo activity. I believe perhaps the 
individuals who--or the individual who killed the FPS officer 
out in Oakland may have referenced Boogaloo inspiration.
    Chairman Thompson. The gentlelady's time has expired.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Chairman Thompson. Yes.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you to 
both of our witnesses for being with us today.
    I do have to say that I am disappointed that Assistant 
Secretary Wolf did not join us today and also ignored our 
subpoena. I have always expected and kind-of prided the fact 
that the Department of Justice, Homeland Security, those in the 
intelligence agency, would act above the fray, act above 
politics, keep us safe, hold bad actors accountable, and 
eagerly appear to tell their own story on behalf of the men and 
women that they work for and the American people. So, Director 
Miller and Director Wray, thank you both for being with us 
today.
    I can also say that I am grateful for the work that the men 
and women in law enforcement do every day. I can say that and 
hold them accountable when they are engaged in wrong-doing all 
at the same time. The men and women in law enforcement do not 
deserve nor need to be used as political pawns, as I believe 
that we have heard too much today. I think they are clear on 
who they work for and that they work on behalf of the American 
people.
    Before I get into my line of questioning for the reasons we 
are here today, Director Wray, following up on my colleague, 
Ms. Titus', line of questioning about the attorney general's 
agenda, you know, we are in a strange place right now. We are 
just hearing strange things all the time. What I did hear 
recently the attorney general say that really concerned me, he 
said, like I say to the FBI agents, whose agents do you think 
you are?
    Now, Director Wray, as we think about law enforcement and 
the very nonpartisan role that law enforcement is engaged in or 
should be, to alleviate any confusion on behalf of your agents 
or the American people, how do you respond to that comment from 
the attorney general?
    Mr. Wray. Well, I am not familiar with that particular 
comment from the attorney general. I will say we, the FBI, work 
for the American people.
    Mrs. Demings. OK. Thank you so much for clearing that up.
    Second, I know both of you have said that pretty much the 
biggest threat are these persons who we would consider as lone 
wolves, lone individuals, home-grown violent extremists. How 
much would you say that they have taken advantage--when we look 
at the number of protests that we have seen around the country, 
how much would you say--and I admit the acoustics were not the 
best here. How much would you say that they have taken 
advantage of the number of protests to really spread their own 
individual purpose, cause, message, and what can we anticipate 
as we get closer to the election from them?
    Mr. Wray. Well, certainly, we have seen amidst some of the 
protests in some cities at certain times dangerous, violent 
extremism committed by people from a variety of ideology who 
are hijacking those protests as cover or--best word I can use 
is cover for their own ability to engage in violence and 
dangerous criminality. I think one of the phenomenons that that 
lends itself to is not just dangerous to small businesses, 
dangerous to law enforcement who we talked about already, but, 
frankly, danger to the other protesters as well. The people who 
are there peacefully, you know, then find themselves, you know, 
in the line of fire. So it is activity that we need to pursue 
aggressively using every tool that we--lawful and appropriate 
tool that we have in the toolbox.
    I think one of the things that we have started to see more 
and more of that I am concerned about--this goes to your 
question about what can we expect to see in the future. In 
addition to people committing violence against government 
buildings and law enforcement, which is a real problem, and 
people need to understand that it is really happening and 
having real consequences, you are also seeing, now, different 
violent extremist groups or individuals committing violence 
against each other, you know. In other words, one group shows 
up to pick a fight with the other group, and who knows which is 
chicken and which is egg, but now you have got an additional 
level of combustible violence. As opposed to maybe just one 
category of violent extremists, you know, hijacking a 
particular protest, now you have both groups from opposite 
sides adding to the combustibility and the danger of the 
situation.
    So we certainly have seen that in a number of cities, and 
that is just a--that is a force multiplier in a bad way that I 
am concerned about going forward.
    Mrs. Demings. Thank you so much.
    Mr. Chairman, may I ask one more question?
    Director Miller, in May, the acting director of national 
intelligence conducted a so-called reorganization of the 
National Center for Terrorism--the National Counterterrorism 
Center, without consulting Congress, reportedly cutting 
resources and staff. What is the impact of the reorganization 
at the NCTC's operation?
    Mr. Miller. Thank you, Congresswoman, and we owe you a 
briefing on that. I would be happy to do that. I have been 
there for 5 weeks. I thought the reorganization--we cleaned up 
some stuff. I have not--other than a few--we had some seats 
that weren't being filled for a long time, so those kind-of 
went away. So I have not seen a major--any major issue at all 
with our effectiveness or efficiency. Happy to talk to you more 
about that.
    Mrs. Demings. That would be great. So you do commit to 
working with Congress----
    Mr. Miller. Yes, ma'am.
    Mrs. Demings [continuing]. To discuss the resources?
    Mr. Miller. Absolutely.
    Mrs. Demings. Thank you so much, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
generosity. I just want to put on the record one question and 
introduce elements into the record.
    Is the DOJ contemplating or has it contemplated opening an 
investigation into domestic terrorism charges against BLM? I 
would like to have that on the record for a response by both 
our witnesses today. Black Lives Matter. If so, what is the 
status?
    New York Times--I am going to introduce this. The New York 
Times, ``Federal Officers Deployed in Portland Didn't Have 
Proper Training, DHS Memo Said.''
    I will just do unanimous consent at the end, Mr. Chairman.
    Washington Post, ``ICE flew detainees to Virginia so the 
planes could transport agents to DC protests. A huge 
coronavirus outbreak followed.''
    ABC News, ``Deaths at protests from Kenosha to Portland, 
but motives tell a different story.'' This indicates who were 
actually involved in that.
    Finally, ``Political Divides Conspiracy Theories and 
Divergent News Sources Heading Into 2020 Election''--Pew 
Research Center--43 percent of Republicans identify fraud as a 
major problem with voting by mail versus 11 percent of 
Democrats.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    I ask unanimous consent that these be introduced into the 
record.
    I am sorry. NPR, ``What is QAnon? The Conspiracy Theory 
Tiptoeing Into the Trump World.''
    I ask unanimous consent that these periodicals be submitted 
into the record, along with----
    Chairman Thompson. Without objection.
    [The information referred to follows:]
                        Article, New York Times
  federal officers deployed in portland didn't have proper training, 
                            d.h.s. memo said
            Rather than tamping down persistent protests in Portland, 
                    Ore., a militarized presence from Federal officers 
                    seems to have re-energized them.
By Sergio Olmos, Mike Baker and Zolan Kanno-Youngs
https://www.nytimes.com/2020/07/18/us/portland-
        protests.html?auth=login-email&login=email
Published July 18, 2020. Updated July 21, 2020

    PORTLAND, Ore.--The Federal agents facing a growing backlash for 
their militarized approach to weeks of unrest in Portland were not 
specifically trained in riot control or mass demonstrations, an 
internal Department of Homeland Security memo warned this week.
    The message, dated Thursday, was prepared by the agency for Chad F. 
Wolf, the acting secretary of homeland security, as he arrived in 
Portland to view the scene in person, according to a copy of the memo 
obtained by The New York Times. It listed Federal buildings in the city 
and issues officers faced in protecting them.
    The memo, seemingly anticipating future encounters with protesters 
in other cities as the department follows President Trump's guidance to 
crack down on unrest, warns: ``Moving forward, if this type of response 
is going to be the norm, specialized training and standardized 
equipment should be deployed to responding agencies.''
    The tactical agents deployed by homeland security include officials 
from a group known as BORTAC, the Border Patrol's equivalent of a SWAT 
team, a highly trained group that normally is tasked with investigating 
drug smuggling organizations, as opposed to protesters in cities.
    Alexei Woltornist, a spokesman for the Department of Homeland 
Security, said on Sunday that the missions of the Federal agents in 
Portland ``aligned with their appropriate training'' and that officers 
received ``additional training for their deployment in the city'' to 
assist the Federal Protective Service.
    The statement did not specifically mention the memo that said the 
agents lacked sufficient training in riot control or mass 
demonstrations. The agency did not respond to follow-up questions about 
the information in the memo.
    The issue is playing out as the aggressive Federal campaign to 
suppress protests in Portland appears to have instead rejuvenated the 
city's movement, as protesters gathered by the hundreds late Friday and 
into Saturday morning--the largest crowd in weeks.
    Federal officers at times flooded street corridors with tear gas 
and shot projectiles from paintball guns, while demonstrators responded 
by shouting that the officers in fatigues were ``terrorists'' and 
chanting: ``Whose streets? Our streets.''
    A court ruling has largely prohibited the local police from using 
tear gas during the recent protests, which have played out for more 
than 50 consecutive nights.
    With one Portland protester severely injured in front of the 
Federal courthouse and others pulled by unidentified Federal agents 
into unmarked vans, the extraordinary campaign to subdue protesters has 
led to wide-spread condemnation of the Federal response in Portland and 
beyond.
    While the protesters have repeatedly decried the city's own police 
tactics, Mayor Ted Wheeler, who also serves as police commissioner, and 
other leaders have united in calls for Federal agencies to stay away. 
Jo Ann Hardesty, a city commissioner, went to join protesters gathered 
outside the county Justice Center downtown, saying the city would ``not 
allow armed military forces to attack our people.''
    ``Today we show the country and the world that the city of 
Portland, even as much as we fight among ourselves, will come together 
to stand up for our constitutional rights,'' Ms. Hardesty said on 
Friday.
    While officials from the Department of Homeland Security have 
described the stepped-up involvement of Federal officers as part of an 
effort to oppose lawlessness in the city, State and local leaders 
contended that the Federal officers themselves may be violating the 
law.
    Prosecutors have opened a criminal investigation into the injury of 
one protester, who appeared to have been shot in the head with a less-
lethal weapon outside the Federal courthouse in downtown Portland. 
Ellen Rosenblum, the State's attorney general, has filed a lawsuit, 
accusing Federal officers of unlawful tactics in how they went about 
detaining people by pulling them into unmarked vans.
    The pushback against the militarized Federal deployment involving 
officers in fatigues and tactical gear has also extended to the 
streets, where the presence of those Federal agents has rejuvenated a 
movement that had shown signs of finally slowing down after weeks of 
protest against police violence and militarization.
    Hundreds continued to demonstrate after midnight on Saturday, 
playing music, holding shields, tearing down temporary fences and 
throwing fireworks at the county's Justice Center.
    Along with street medics, protesters also have the support of a 
snack van that offers free Gatorade and instant noodles, and a 
makeshift kitchen called Riot Ribs that cooks bratwursts and Beyond 
Meat sausage. Someone on Saturday had set up a stand selling T-shirts 
promoting racial equity and handwashing.
    The protests have long featured a mix of tactics, with some there 
displaying signs to sustain a Black Lives Matter movement that emerged 
in the aftermath of George Floyd's death in May. Others have engaged in 
more unruly responses, such as graffiti or throwing objects at 
officers. Dozens have been arrested over the weeks, including some by 
Federal officers, such as a man accused of hitting an officer with a 
hammer last week.
    Protests around the Federal courthouse--tagged with messages such 
as ``Stop Using Violence on Us'' and ``History Has Its Eye on You''--
have drawn the ire of Federal leaders. Mr. Wolf got a tour there this 
week and shared images of himself in front of graffitied walls.
    The arrival of a more aggressive Federal presence came after 
President Trump, who at one point called on States to ``dominate'' 
protesters, directed Federal agencies to increase their presence to 
protect Federal properties, including statues and monuments that have 
at times been the target of protesters. Mr. Trump said last week that 
he had sent personnel to Portland because ``the locals couldn't handle 
it.''
    Gov. Kate Brown said in an interview that she believed that the 
protests were starting to ease before the Federal officers waded into 
the scene. She said that she had asked Mr. Wolf to keep Federal agents 
off the streets but that he rejected the suggestion.
    Mayor Wheeler said he got the same response. But he said he 
believed that the unified local response could change the Federal 
tactics and keep Federal officers off the streets.
    ``I can't recall a single instance where we have had Federal, State 
and local officials all in alignment, saying the presence of Federal 
troops in our city is harmful to our residents,'' Mr. Wheeler said.
    Mr. Wheeler himself has been the target of protests, with crowds at 
times gathering outside of his condo. For weeks, he has called for an 
end to destructive demonstrations, saying he was concerned about 
``groups who continue to perpetrate violence and vandalism on our 
streets.''
    Senator Jeff Merkley, Democrat of Oregon, said in a tweet that he 
and Oregon's other Democratic senator, Ron Wyden, next week would 
introduce an amendment to the defense bill to stop the Trump 
administration ``from sending its paramilitary squads'' onto America's 
streets.
    Ms. Rosenblum said her office was working with the Multnomah County 
district attorney, Rod Underhill, on a criminal investigation focused 
on the injury of a protester on July 12. In that case, video appeared 
to show a man being struck in the head by an impact munition near the 
Federal courthouse, and his family said he subsequently needed surgery.
Minneapolis Police
    The retention and recruitment problems that many police departments 
have experienced in recent years are especially pronounced after four 
Minneapolis officers were charged with Mr. Floyd's death.
    The attorney general's office also filed a lawsuit late Friday 
accusing Federal officers of using unlawful tactics. Protesters, along 
with videos posted on social media, have described scenes of Federal 
officers seizing people and pulling them into unmarked vans.
    The American Civil Liberties Union Foundation of Oregon has also 
filed in court to curtail the actions of Federal officers, and the 
group said ``many'' more lawsuits that would be forthcoming.
    Mary B. McCord, a professor at Georgetown Law and former national 
security official at the U.S. Department of Justice, said the Federal 
tactics and use of unmarked vehicles were reminiscent of the much-
criticized Federal response to demonstrations in Washington in June.
    Ms. McCord said Federal officials were on dangerous ground with the 
tactics they were using, including seizing and detaining protesters off 
the streets and seemingly portraying all protesters as part of a 
dangerous movement.
    ``It sends the message that these people are terrorists and need to 
be treated like terrorists,'' Ms. McCord said.
    She added: ``This is the kind of thing we see in authoritarian 
regimes.''
    Sergio Olmos reported from Portland and Mike Baker from Seattle. 
Neil MacFarquhar contributed reporting.
                                 ______
                                 
                        Article, Washington Post
ice flew detainees to virginia so the planes could transport agents to 
          d.c. protests. a huge coronavirus outbreak followed.
By Antonio Olivo and Nick Miroff
https://www.washingtonpost.com/coronavirus/ice-air-farmville-protests-
        covid/2020/09/11/f70ebe1e-e861-11ea-bc79-
        834454439a44_story.html
September 11, 2020 at 4:07 p.m. EDT
    The Trump administration flew immigrant detainees to Virginia this 
summer to facilitate the rapid deployment of Homeland Security tactical 
teams to quell protests in Washington, circumventing restrictions on 
the use of charter flights for employee travel, according to a current 
and a former U.S. official.
    After the transfer, dozens of the new arrivals tested positive for 
the novel coronavirus, fueling an outbreak at the Farmville, Va., 
immigration jail that infected more than 300 inmates, one of whom died.
    U.S. Immigration and Customs Enforcement said the agency moved the 
detainees on ``ICE Air'' charter flights to avoid overcrowding at 
detention facilities in Arizona and Florida, a precaution they said was 
taken because of the pandemic.
    But a Department of Homeland Security official with direct 
knowledge of the operation, and a former ICE official who learned about 
it from other personnel, said the primary reason for the June 2 
transfers was to skirt rules that bar ICE employees from traveling on 
the charter flights unless detainees are also aboard.
    The transfers took place over the objections of ICE officials in 
the Washington field office, according to testimony at a Farmville town 
council meeting in August, and at a time when immigration jails 
elsewhere in the country had plenty of beds available because of a 
dramatic decrease in border crossings and in-country arrests.
    ``They needed to justify the movement of SRT,'' said the DHS 
official, referring to the special response teams. The official and the 
former ICE official spoke on the condition of anonymity to discuss 
sensitive internal decisions. They and another DHS official briefed on 
the operation characterized the tactical teams' travel on ICE Air as a 
misuse of the charter flights.
    At a hearing in a Federal lawsuit filed on behalf of four detainees 
who were already at Farmville, an ICE attorney told a judge that one 
reason for the transfer was that ``ICE has an air regulation whereby in 
order to move agents of ICE, they have to be moved from one location to 
another with detainees on the same airplane.''
    The lawsuit, filed in U.S. District Court in Alexandria, focuses on 
the exposure to the coronavirus for the detainees, three of whom 
contracted the infection.
    Asked about the primary purpose of the charter flights, ICE 
officials said the goal was to move detainees into facilities with more 
space for social distancing.
    ``ICE transfers detainees due to the operational demands of the 
detention network. The June 2 transfer of detainees to Farmville was 
made as part of a national effort to spread detainees across the 
detention network to facilitate social distancing and mitigate the 
spread of COVID-19,'' Henry Lucero, who oversees ICE enforcement 
operations, said in a statement.
    ICE statistics show the facilities the detainees came from were not 
near capacity on June 1, when the transfers were arranged. CCA 
Florence, a jail in Arizona with beds for roughly 550 detainees, was 
about 35 percent full that day, records show. The facility that 
appeared most crowded, Eloy Detention Center in Arizona, was about 70 
percent full. Farmville was 57 percent full, according to ICE.
    ``During COVID-19, the agency has taken steps to protect detainees 
in its custody and promote social distancing whenever possible,'' 
spokeswoman Danielle Bennett said in a separate statement. ``This has 
resulted in the transfer of detainees from facilities with larger 
detention populations to facilities with fewer detainees. This was the 
reason for the transfers to Farmville.''
    ICE officials did not respond to requests for examples of other 
detainee transfers this year from Arizona or Florida to Farmville, 
which is the agency's closest major facility to Washington.
    But publicly available flight data show the June 2 flights were 
highly unusual. There is no other record this year of ICE transferring 
detainees from Phoenix to Virginia or Miami to Virginia, according to 
records compiled by Witness at the Border, an immigrant advocacy group 
that monitors ICE Air activity.
    On June 1, after two nights of mass protests outside the White 
House, a top DHS official said in a memo obtained by The Washington 
Post that special response teams were being sent to the District from 
Arizona, Florida and Texas, with plans to arrive the following day.
    The move was part of a wider deployment of Border Patrol agents, 
U.S. Marshals, ICE tactical teams and other Federal forces in downtown 
Washington and around the White House. ICE teams stationed closer to 
the nation's capital were already in place at the protests; the 
additional units were flown in as reinforcements, U.S. officials said.
    The teams were not responsible for guarding detainees on the 
flights, a role handled by private contractors and ICE enforcement 
officers.
    Lucero was a key player in the decision to move the heavily armed 
teams on ICE Air flights, three officials said. He formerly ran the 
agency's Phoenix field office, and has a close relationship to the 
Phoenix tactical officers, who are considered among the agency's best-
trained, the officials said.
    The special response teams, based in several ICE field offices, are 
typically used to control riots in detention facilities, among other 
duties. They usually deploy locally, using ground transport. In cases 
where they have to fly, the teams normally use commercial airlines, 
which can be expensive and inconvenient because of the weapons and 
equipment the agents travel with.
    The use of the teams was part of the Trump administration's effort 
to ``dominate'' racial equity demonstrations nation-wide. ICE special-
response teams deployed to civil unrest and protests this summer in 
Washington, Buffalo, New York, Houston, Dallas, San Diego, San 
Francisco and Los Angeles, according to a GAO report published 
Thursday. More recently, Federal agents have been sent to Kenosha, 
Wis., and Portland, Ore.
    D.C. Mayor Muriel E. Bowser (D) did not request special-response 
teams to deal with protests in the nation's capital, which were 
generally peaceful. City officials have criticized the Federal response 
to the demonstrations--including the decision to have police in riot 
gear forcefully scatter a crowd to clear the way for a photo op by 
President Trump on June 1 in front of St. John's Church near the White 
House--as excessive overreach.
    The June 2 deployment to the District took place amid heightened 
concerns that immigration detention centers and prisons had become 
deadly incubators for COVID-19, the disease caused by the novel 
coronavirus. There had been 5,670 cases of the virus reported inside 
ICE facilities as of Thursday.
    ICE says it has expanded safeguards inside all its facilities--
including pre-transfer medical screenings and temperature checks, and 
quarantining new transfers before they're moved in with the general 
population.
    The detainees sent to Farmville were kept apart from the rest of 
the detainee population for 14 days, Bennett said. But at the end of 
that period, the number of cases at the facility exploded, with 339 
inmates having tested positive by early July. That was more cases 
reported than at any other immigration jail until early this month, 
when officials said there were 366 at La Palma Correctional Center in 
Arizona.
    Typically on ICE Air flights, agency personnel and detainees sit in 
different sections of the plane. ICE has said no agents who traveled on 
the planes appear to have been infected.
    Last month, the director of Immigration Centers of America (ICA), 
the company that operates the Farmville detention center, said local 
ICE officials resisted the plan to transfer the 74 detainees into his 
facility because there wasn't enough room to properly quarantine them 
at a county jail about 100 miles away that is normally reserved for 
that purpose.
    ``This transfer that took place on June 2 was ordered by ICE 
headquarters,'' Jeffrey Crawford, the director, told Farmville's town 
council on Aug. 12. ``I do know that the local field office pushed back 
and attempted to refuse the transfer, and they were overridden by 
officials in Washington.''
    Crawford said ICE officials told him that the arriving detainees 
were not sick. In an affidavit filed in connection with the lawsuit, 
which names Crawford, ICA, ICE and government officials as defendants, 
he said one detainee arrived with symptoms of COVID-19 and tested 
positive. The rest of the group was then tested; 51 had the virus, 
according to the affidavit.
    ``We were assured before they came that these folks were healthy,'' 
Crawford told the town council, according to a video recording of the 
meeting. ``We were told that one of the facilities where the detainees 
were coming from had no instances of COVID-19. In hindsight, we believe 
we've discovered information that that is not accurate. But that is 
what we were told at the time.''
    Crawford did not respond to a request for comment made through his 
attorney.
    Hundreds more detainees eventually tested positive, including James 
Thomas Hill, 72, a Canadian national who was not part of the transfer 
group. Hill died on Aug. 5, several weeks after being hospitalized with 
COVID-19.
    The outbreak sparked concerns that the virus would spread into the 
surrounding community and prompted State officials to ask the Centers 
for Disease Control and Prevention to intervene.
    An attorney representing some of the detainees in the Federal 
lawsuit called the possibility that ICE transported immigrants in its 
custody as a means to respond to protests in Washington ``chilling.''
    ``It was in June, when it was already perfectly clear--including in 
CDC guidelines--that transfers are risky and should only be undertaken 
when absolutely necessary,'' said Sirine Shebaya, a lawyer with the 
National Immigration Project of the National Lawyers Guild.
    The number of detainees in ICE custody has decreased significantly 
during the pandemic, the result of fewer interior arrests and emergency 
expulsion policies at the border. The average daily detainee population 
was 24,208 in June, ICE statistics show, compared with 39,319 in 
February.
    Last month, a CDC inspection found that some of Farmville's staff 
members were still not properly wearing protective masks, while others 
continued working after showing symptoms of COVID-19.
    That prompted U.S. District Judge Leonie M. Brinkema, who is 
overseeing the lawsuit, to order a new health inspection at the site. 
Two reports from that Aug. 20 inspection--one for each side in the 
lawsuit--showed that physical distancing measures had been implemented.
    But a health expert for the defendants found some detainees were 
not wearing the masks they'd been given, while the plaintiffs' expert 
found that at least eight detainees who had tested positive for the 
virus still had symptoms after being released from isolation.
    During an Aug. 11 hearing, Yuri S. Fuchs, an ICE lawyer, told 
Brinkema the reason for the June 2 transfer was ``twofold.''
    First, ICE has a policy of shifting detainees between facilities to 
prevent overcrowding, Fuchs said. The second reason, he told the judge, 
was the Federal requirement to have detainees aboard any ICE Air 
flights used to transport agents.
    ``I'm sorry, explain that second one to me,'' Brinkema said.
    ``That's an ICE Air regulation that requires detainees and staff to 
be on the same flight, so they're being moved around,'' Fuchs said.
    ``I think what you're saying then is when you move inmates, or 
detainees, you have to have ICE people with them,'' Brinkema said. 
``That's got to be what that means.''
    Fuchs replied: ``Yes.''
                                 ______
                                 
                   Article, ABC News via Everett Post
deaths at protests from kenosha to portland, but motive tells different 
                                 story
By BILL HUTCHINSON, ABC News
https://www.everettpost.com/national/deaths-at-protests-from-kenosha-
        to-portland-but-motive-tells-different-story
Tue, September 8
    (NEW YORK)--The images are stark--people clashing with police, 
buildings on fire, vandalism, shootings and even killings.
    Some, including President Donald Trump, appear to have conflated 
some of the violence across the Nation with protests that have sprung 
up in the wake of the death of George Floyd at the hands of Minneapolis 
police.
    But an ABC News examination of a string of fatal and non-fatal 
confrontations that have occurred amidst the unrest has found the 
alleged motive for most of the carnage in those incidents are not 
directly linked to peaceful civil disobedience.
    The recent shooting deaths of two men in Kenosha, Wisconsin, during 
a protest over a police shooting that left Jacob Blake, a 29-year-old 
Black man, paralyzed, and the death of Aaron ``Jay'' Danielson, a 39-
year-old White man, fatally shot in Portland, Oregon, coincided with 
on-going demonstrations but the motives remain under investigation.
    Some of the deaths have allegedly been perpetrated by suspects with 
their own agendas that do not include social justice; others have 
allegedly been carried out by agitators seeking to use the protests as 
cover for their own purposes, including looting and other violent acts. 
Some may have resulted from personal disputes.
    Protests nation-wide began in the aftermath of the May 25 death of 
Floyd, a handcuffed Black man captured on cellphone video pleading for 
his life as Minneapolis police officers held him face-down on the 
ground, one with a knee planted on the back of Floyd's neck.
    Here are a dozen deaths examined by ABC News that have occurred 
during the protests in which police have either charged suspects, 
identified those allegedly involved, or obtained video of the crimes:
Armed teenager arrested in Kenosha double slay
    A group of armed individuals gathered in Kenosha, claiming they 
were there to help police protect businesses in the city of 100,000 
after buildings were set ablaze and stores were looted during protests 
in the wake of Blake's shooting. Investigators say they suspect that 
among the group was 17-year-old Kyle Rittenhouse, who was seen in 
cellphone videos armed with an AR-15 style rifle.
    Prosecutors allege Rittenhouse, who at one time was part of a youth 
public safety program run by local Illinois police, shot and killed two 
men, Anthony Huber, 26, and Joseph Rosenbaum, 36, and wounded a third 
man, during an Aug. 25 protest. Attorneys for Rittenhouse, who was 
arrested and charged with two counts of first-degree intentional 
homicide and reckless homicide, said he acted in self-defense.
    Trump has declined to condemn Rittenhouse, who is being charged as 
an adult and has yet to enter a plea, saying at an Aug. 31 news 
conference that the teenager's actions amounted to ``self-defense.''
    ``He probably would have been killed,'' Trump said at the news 
conference.
Fatal shooting in Portland
    Aaron ``Jay'' Danielson, 39, was shot to death on Aug. 29 in 
Portland. Danielson, of Portland, was part of a group of people who 
described themselves as Trump supporters who came to Portland en masse 
and clashed with protesters. Friends said he was also a supporter of 
the right-wing group ``Patriot Prayer.''
    Last Thursday night, a 48-year-old Washington man wanted in 
Danielson's death was fatally shot when a Federal task force comprised 
of FBI and U.S. Marshals attempted to arrest him. Authorities allege 
the suspect, Michael Reinoehl, pulled a gun on the Federal agents as 
they moved in to take him into custody in Lacey, Washington.
    Reinoehl is believed to be the same man who appeared in a Vice News 
interview that aired Thursday night, in which he claimed he was 
providing security for the Black Lives Matter protests in Portland and 
appeared to say he shot Danielson in self-defense. Police have not 
commented on a motive for the shooting.
    Police said Danielson was fatally shot in the chest during a 
confrontation around 8:46 p.m. that was caught on cellphone video by a 
videographer who told ABC News that Trump supporters fired paintball 
guns and pepper spray at protesters from the backs of pickup trucks as 
they rolled through the city. Police said the caravan had mostly 
cleared out of the downtown Portland area when the shooting occurred.
    During a briefing on Aug. 31, White House press secretary Kayleigh 
McEnany mentioned Danielson, saying, ``The president believes that 
people of all ideologies should be able to peacefully protest and not 
have their lives put at risk like Aaron `Jay' Danielson.''
    Reading a statement at a news conference on Aug. 30, Chandler 
Pappas, a friend and business partner of Danielson's, mourned him as 
``a good man'' killed ``senselessly.''
    ``He was Christian. He was conservative,'' Pappas said.
Protester fatally shot in Austin
    Garrett Foster, 28, was pushing his wheelchair-bound fiancee during 
a protest on July 25 in Austin, Texas, when police say a car drove into 
a crowd of demonstrators marching in a street and was quickly 
surrounded. Police said Foster was carrying an AK-47-type rifle when he 
was allegedly shot three times by the driver.
    The driver was identified as Daniel Perry, an active-duty U.S. Army 
sergeant based at Fort Hood, by his own attorney, Clint Broden.
    Perry, who was working as an Uber driver the night of the shooting 
to earn extra money, surrendered to police for questioning but was 
later released, Broden said. Austin police have only confirmed that the 
person who shot Garrett was released pending further investigation.
    Broden released a statement saying Perry did not know a protest was 
taking place when he turned down Congress Avenue in downtown Austin and 
found himself surrounded by demonstrators. He alleged that protesters 
began banging on Perry's car and that Garrett motioned for him to roll 
down his window before raising the barrel of his gun at him.
    Broden said Perry shot Garrett in self-defense and that someone 
else in the crowd fired a gun at Perry's car as he drove away. Broden 
released photos of the damage to Perry's car that he claimed was caused 
by protesters, including an image of a bullet hole in the vehicle.
    Austin police have not publicly confirmed Perry's account of what 
transpired and said the shooting remains under investigation.
                       fatal seattle hit and run
    Summer Taylor, 27, died from injuries suffered when a car plowed 
into Black Lives Matter demonstrators on July 4 on a Seattle freeway 
that had been shut down for days due to the civil unrest, police said. 
The incident also left another protester, Diaz Love, severely injured.
    Surveillance video captured the 2013 Jaguar apparently speeding 
down the freeway, swerving around cars supporting the protest that were 
blocking the lanes and striking Taylor and Love, who were walking on 
the shoulder, knocking them into the air, over the roof of the vehicle 
and onto the pavement. Police said the driver kept going but was 
followed by a protester in a car, who forced him to stop.
    The driver, Dawit Kelete, 27--who has pleaded not guilty to charges 
of vehicular manslaughter, vehicular assault and reckless driving--
allegedly entered the closed freeway at 1:40 a.m. by going the wrong 
way on an exit ramp, and drove at high speed toward a crowd of people 
protesting the police-involved death of Floyd, authorities said. 
Kelete, who is Black, was not participating in the protest.
    His lawyer, John Henry Browne, called the incident a ``horrible, 
horrible accident'' and said, ``there's absolutely nothing political 
about this case whatsoever.'' Police have not commented on whether they 
believe the incident was intentional.
               fatal shootings at seattle's protest zone
    Lorenzo Anderson, 19, died after being shot June 20 in an area of 
downtown Seattle that had been taken over by protesters and called the 
``Capitol Hill Occupied Protest'' (CHOP) zone close to the city police 
department's East Precinct. But police say Anderson's death appears not 
to be related to the demonstrations over the death of Floyd.
    Last month, King County prosecutors filed murder charges in the 
shooting against Marcel Levon Long and a $2 million warrant was issued 
for his arrest. Long has yet to be located, officials said.
    Long was charged after investigators reviewed surveillance video 
allegedly showing the suspect and Anderson arguing, prosecutors said. 
Security video showed Long chasing Anderson with a gun, prosecutors 
said. At one point, according to prosecutors, several people occupying 
the CHOP zone tried to stop the suspect who they say broke free and 
ended up allegedly shooting Anderson multiple times.
    The incident appears to be unrelated to the protests, police say, 
adding that a witness told investigators the shooting possibly stemmed 
from an old dispute between the men.
    Another fatal shooting occurred near the CHOP zone on June 29 in 
which a 16-year-old boy police identified as Antonio Mays Jr. died 
after being shot while driving a Jeep. Police have yet to make an 
arrest in Mays' killing and have not released a motive for the shooting 
but said they do not suspect it was linked to the on-going protest.
    The killings prompted authorities to clear the CHOP zone of camped-
out protesters on July 1.
                california protester killed by motorist
    Robert Forbes, 56, died on June 6, 3 days after he was hit by a car 
during a protest in Bakersfield, California, according to the coroner's 
office and police. Forbes was among protesters marching in a darkened 
roadway when he was struck by a driver, who claimed he didn't see the 
protesters in the street until it was too late to avoid striking 
Forbes.
    Police said the driver was not charged.
    ``There was no report of the driver accelerating or making 
movements to indicate he was targeting the pedestrian,'' Bakersfield 
police said in a statement.
    The driver later posted a message on Facebook, writing that the 
incident was not intentional.
    ``I did not and would not ever run into or hit anyone with my 
car,'' he wrote.
                  retired police captain fatally shot
    Retired St. Louis Police Capt. David Dorn, 77, was fatally shot on 
June 2 in St. Louis when he went to investigate an alarm going off at a 
friend's pawn shop and found a group of people looting the business, 
police said. When Dorn approached the shop, the suspect was walking to 
his car and holding a gun in his hand, police said in a statement 
citing surveillance video.
    Stephan Cannon, 24, who was convicted of felony assault and robbery 
in St. Louis County in 2013, was arrested and charged with first-degree 
murder. He has pleaded not guilty.
    ``At the time the shots were fired, (Cannon) was the only person 
standing at that corner,'' according to a probable cause statement 
filed in the case that cited the surveillance video. ``Multiple plumes 
of smoke'' were also seen coming from where Cannon was standing, the 
statement said, and police said they found shell casings at the spot.
    Dorn's death came on a violent night in St. Louis in which numerous 
businesses were looted as protests over Floyd's death were 
simultaneously occurring. But police and prosecutors have released no 
evidence that Cannon participated in the protests.
    Dorn's widow, Ann Dorn, a St. Louis Metropolitan Police officer, 
spoke at the Republican National Convention (RNC) last month in support 
of Trump's reelection, saying, ``violence and destruction are not 
legitimate forms of protest. President Trump understands this.''
                     fatally shot by national guard
    David McAtee, 53, owner of a barbecue restaurant in Louisville, 
Kentucky, was shot dead by a member of the Kentucky National Guard 
while in his own business during a night of protests on June 1, 
authorities said.
    McAtee, described as a ``pillar of our community'' by his family's 
attorney, was cooking in his restaurant, located miles from where 
protests were occurring in downtown Louisville over the death of 
Breonna Taylor, a 26-year-old emergency medical technician fatally shot 
by police in her Louisville home. Police and National Guard troops 
responded to reports of a crowd gathering near McAtee's eatery in 
violation of a curfew, said J. Michael Brown, secretary of the State's 
executive Cabinet, who released preliminary findings of an 
investigation.
    At least one police officer was seen on a surveillance video 
released by police officials shooting pepper balls at the restaurant 
where McAtee was inside with other people, and investigators say they 
suspect McAtee responded by allegedly firing a gun in the direction of 
police and guardsmen, Brown said. One of the guardsmen, armed with a 
rifle, returned fire, hitting McAtee in the chest as he stood in a 
doorway, Brown said.
    The shooting prompted Louisville Mayor Greg Fischer to fire police 
Chief Steve Conrad when he learned that the two police officers 
involved in the incident and who also returned fire failed to activate 
their body cameras.
    No charges have been file in the case, which remains under 
investigation.
            air force sergeant charged in fed agent's death
    Federal agent Dave Patrick Underwood, 53, was killed and his 
partner was wounded during an ambush shooting on May 29 as he guarded a 
Federal building in Oakland, California, during protests that erupted 
over Floyd's death, officials said.
    Steven Carrillo, 32, an active-duty Air Force sergeant, and Richard 
Justus, 30, were arrested and charged with one count of Federal murder 
and attempted murder, authorities said. Carrillo was also charged with 
murder in the June 6 shooting death of Santa Cruz County, California, 
Sheriff's Sgt. Damon Gutzwiller, 38.
    Federal prosecutors allege Carrillo and Justus are linked to an 
emerging movement called ``boogaloo,'' a term used by far-right 
extremists to signify a coming civil war and/or fall of civilization, 
according to Federal court documents.
    Carrillo and Justus have pleaded not guilty to the charges.
    During a speech at the RNC, Vice President Mike Pence invoked 
Underwood's name, saying the Federal agent ``was shot and killed during 
the riots in Oakland'' without mentioning Carrillo and Justus' alleged 
involvement.
    Prosecutors said Carrillo and Justus were not involved in the 
protests.
             allegedly shot dead by one-time family friend
    Italia Kelly was hanging out of a car window chanting for justice 
along with other protesters on May 31 in Davenport, Iowa, when a man 
fatally shot her, police said. The 22-year-old woman's family said they 
initially thought she was the target of a random shooting and her 
sister, Jasmine, said in a Facebook Live video shortly after the 
shooting, ``A protester shot my sister.''
    But when police arrested Parker Beltz, 21, and charged him with 
first-degree murder, Kelly's family said they immediately recognized 
him.
    ``We were surprised. My other daughter, Italia's sister, was best 
friends with him in middle school,'' Kelly's mother, Sharon Kelly, told 
ABC affiliate station WQAD-TV in Moline, Illinois. ``We have a lot of 
photos of him with Italia, with other members of the family, with 
friends that we consider family.''
    In a criminal complaint, Davenport police alleged Beltz committed 
the shooting ``with premeditation, malice aforethought and intent to 
kill'' and Kelly's mother said Italia had been in a dispute with Beltz 
over Facebook posts. Beltz has yet to enter a plea.
               run over by fedex truck at freeway protest
    Barry Perkins was among a crowd of protesters who blocked a freeway 
in St. Louis, Missouri, on May 30 in a demonstration over George 
Floyd's death when some people who appeared to be involved in the civil 
unrest were recorded on cell-phone video looting a FedEx tractor-
trailer rig bogged down in traffic, according to the St. Louis 
Metropolitan Police Department.
    Perkins, 29, was killed by the truck when the driver suddenly 
accelerated, dragging Perkins underneath his rig, according to police. 
The driver told police he was unaware he struck someone and police 
ruled the incident an accident.
    An attorney for Perkins' family released a statement claiming 
Perkins was ``peacefully protesting the death of George Floyd and was 
not looting when he was dragged'' by the truck.
    Copyright  2020, ABC Audio. All rights reserved.
                                 ______
                                 
                              Article, NPR
    what is qanon? the conspiracy theory tiptoeing into trump world
https://www.npr.org/2018/08/02/634749387/what-is-qanon-the-conspiracy-
        theory-tiptoeing-into-trump-world
August 2, 2018 5 o'clock AM ET
    As the cameras rolled on President Trump's campaign rally for GOP 
Rep. Ron DeSantis in Florida on Tuesday night, a peculiar sign appeared 
in view.
    ``We are Q.''
    Journalists at the event noted multiple attendees carrying signs 
and wearing T-shirts emblazoned with the name ``QAnon.''
    The shirts and signs are references to a conspiracy theory growing 
increasingly popular among those on the far-right--and a conspiracy 
theory about which the White House fielded a question from the media on 
Wednesday.
What is QAnon?
    The conspiracy theory centers on a mysterious and anonymous on-line 
figure--``Q.'' According to The Daily Beast, ``Q'' began posting on 
anonymous Internet message boards in October 2017. The person or 
persons behind the ``Q'' persona claim to possess a top-level security 
clearance and evidence of a world-wide criminal conspiracy.
What's the conspiracy theory?
    It goes like this: Special counsel Robert Mueller isn't actually 
investigating Trump and his 2016 campaign for their possible ties to 
Russia, and he's not really looking into Russian interference in the 
2016 Presidential election.
    Rather, Mueller was appointed by Trump to investigate Hillary 
Clinton, Barack Obama and other top Democrats, like former Clinton 
campaign chairman John Podesta. According to posts written by ``Q''--
dubbed ``breadcrumbs'' by the theory's followers--even Sen. John 
McCain, R-Ariz., is a target of Mueller's so-called investigation.
    What are these foes of Trump being ``investigated'' for? There are 
numerous accusations floating around the QAnon world. Some suggest 
Clinton and Obama are in cahoots with Russian President Vladimir Putin. 
Others suggest they, along with Hollywood figures and other world 
leaders, are participants in a global pedophile ring.
    ``Q'' suggests all these figures are secretly wearing location-
tracking ankle monitors, so their whereabouts can be monitored at all 
times, and that they'll all be sent to prison very soon in an event the 
theory's followers call ``the storm.''
    That's a reference to Trump's remarks last year, where he warned of 
``the calm before the storm'' during a meeting with military leaders. 
(The military is also involved in the QAnon theory--according to ``Q,'' 
the military persuaded Trump to run for president in order to clean up 
the vast criminal network.)
    ``Q'' has dropped ``breadcrumbs'' about coming events in the 
supposed investigation on a regular basis. The hints reference current 
political events, including the release of the Justice Department's 
Office of the Inspector General report in June.
    It should be noted that no part of the QAnon conspiracy theory has 
proved to be true, and multiple media outlets have debunked the 
theory's allegations.
Who believes in the conspiracy theory?
    For a while, QAnon posts were mostly limited to anonymous Internet 
message boards, like 4chan and 8chan. But over the past year, ``Q'' has 
gained a host of new believers and followers. A popular YouTube video 
explaining QAnon has racked up nearly 200,000 views, and according to 
NBC News, a mobile phone application related to the conspiracy theory 
climbed near the top of the Apple App Store rankings earlier this year.
    ``Q'' also counts several celebrities as followers and fans. 
Roseanne Barr has frequently tweeted about QAnon and has expressed a 
desire to meet ``Q.'' And in June, the sitcom star took to Twitter to 
share a phrase common among QAnon supporters--``wwg1wga,'' short for 
``where we go one, we go all.''
    Former Boston Red Sox pitcher Curt Schilling has also tweeted about 
the conspiracy theory and has shared QAnon videos on his Facebook page, 
according to The Daily Beast.

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Why does it matter?
    QAnon may seem on its face like a fringe Internet conspiracy 
theory, but its explosion in popularity has led to several real-world 
incidents.
    In April, a group of QAnon believers took to the streets in 
Washington, DC, in support of ``Q'' and demanding answers from the 
Justice Department.
    And in June, a man driving an armored vehicle and carrying two 
firearms shut down a highway near the Hoover Dam while holding a sign 
reading ``Release the OIG report.''
    That appeared to be a reference to the Justice Department's Office 
of the Inspector General report that criticized the actions of former 
FBI Director James Comey for his handling of the Hillary Clinton email 
investigation. ``Q'' has hinted to followers on multiple occasions that 
Trump possesses a second IG report that would detail the criminal 
activities undertaken by Democrats.
    The man, Matthew Wright, was arrested after the incident and now 
faces terrorism charges. Last month, it was revealed that Wright penned 
letters to Trump and other government officials from jail bearing the 
``where we go one, we go all'' slogan.
    Even Michael Avenatti, the lawyer representing adult film actress 
Stormy Daniels, made an appearance in a series of QAnon posts earlier 
this week, which included images of his office building followed by an 
image of a man reportedly standing outside Avenatti's office. ``Q'' 
later posted that a ``message'' had been sent to Avenatti.
    In a tweet Wednesday, Avenatti appeared to respond, writing: ``The 
more conspiracy theorists attack me, the more confident I become. It 
shows they see me as a significant threat to Mr. Trump and his 
continuation in office.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    And following Trump's rally in Florida, QAnon made its way into the 
White House briefing room Wednesday, when a reporter asked White House 
press secretary Sarah Sanders if Trump ``encouraged the support'' of 
rallygoers wearing ``Q'' shirts.
    ``The president condemns and denounces any group that would incite 
violence against another individual and certainly doesn't support 
groups that would promote that type of behavior,'' Sanders said.
    QAnon isn't the first conspiracy theory to make the jump from the 
Internet to the real world. In December 2016, a man fired a rifle 
inside Washington, DC.'s Comet Ping Pong pizzeria, citing the baseless 
``Pizzagate'' conspiracy theory that maintains that the restaurant is 
the center of a child sex ring involving top Democrats, including 
Clinton and Podesta.
    The ``Pizzagate'' conspiracy theory originated on fringe Internet 
sites before emerging in the mainstream. With the ever-increasing 
appearances of ``Q''-branded gear at Trump rallies, QAnon may be 
following the same path.

    Ms. Jackson Lee. I thank the Chairman.
    Chairman Thompson. So ordered.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the committee may 
have additional questions for the witnesses and we ask that you 
respond expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson for Christopher Miller
    Question 1. Last year, reporting by media discussed NCTC's 
expansion of ``its focus on domestic terrorism.'' Please provide the 
committee with an update as to what work NCTC is doing today on 
domestic terrorism, including violent White Supremacist extremist 
violence.
    To what extent has NCTC staffed and funded its work on domestic 
terrorism?
    Answer. Response was not received at the time of publication.
    Question 2. Al-Shaabab recently claimed responsibility for numerous 
attacks in East Africa, including an attack on a U.S. base as recently 
as September 2020 that injured a U.S. service member.
    Please describe the current threat posed by al-Shabaab to U.S. 
interests and U.S. service members and law enforcement agents posted 
overseas.
    Answer. Response was not received at the time of publication.
    Question 3. According to analysis by the Congressional Research 
Service, al-Qaeda has welcomed the U.S.-Taliban agreement, 
``celebrating it as a victory for the Taliban's cause and thus for 
global militancy.'' Recent reporting states that ``two senior Trump 
administration officials indicated . . . that the Taliban has yet to 
fully cut ties with al-Qaeda.''\1\
---------------------------------------------------------------------------
    \1\ Trump Administration Admits Taliban Still Hasn't Cut Ties with 
Al-Qaida, YAHOO! NEWS, Sept. 22, 2020, https://news.yahoo.com/trump-
administration-admits-taliban-still-hasnt-cut-ties-with-al-qaida-
233256439.html.
---------------------------------------------------------------------------
    Given that the U.S.-Taliban agreement requires the Taliban to 
prevent any group, including al-Qaeda, from using Afghan soil to 
threaten the security of the United States or its allies, what 
mechanisms are in place or need to be in place to verify the Taliban's 
compliance with the February 2020 U.S.-Taliban agreement?
    Answer. Response was not received at the time of publication.
    Question 4a. Politico recently reported that your predecessor, 
Former Director Travers, stated that NCTC's ``information technology 
system is woefully underfunded.''\2\
---------------------------------------------------------------------------
    \2\ A top terrorism fighter's dire warning, POLITICO, July, 9, 
2020, https://www.politico.com/news/2020/07/09/travers-terrorism-
warning-355734.
---------------------------------------------------------------------------
    Is NCTC's information technology system underfunded?
    Answer. Response was not received at the time of publication.
    Question 4b. What does the agency need to do its job, and do its 
job well in this increasingly diverse and fluid threat environment?
    Answer. Response was not received at the time of publication.
    Question 5. Earlier this year, the State Department and Treasury 
Department labeled the Russian Imperial Movement (RIM) a Specially-
Designated Global Terrorist group.
    Since this designation, have you seen an increase in watch list 
nominations of individuals with links to White Supremacist Extremists? 
Please provide details and explain.
    Answer. Response was not received at the time of publication.
    Question 6. The Chief of U.S. Central Command has said that 
displaced persons in camps in the Middle East may be radicalized and 
susceptible to influence later by ISIS. He went on to say that dealing 
with refugees and displaced persons is one of very highest priorities, 
while noting that victory against ISIS has not yet been achieved.
    How are you working with the Department of Defense to achieve these 
objectives in contributing to the defeat of ISIS?
    Answer. Response was not received at the time of publication.
    Question 7. According to recent reporting,\3\ an August 17, 2020, 
DHS and National Counterterrorism Center intelligence product warned of 
possible election-related attacks both before and after the election. 
The report went on to voice grave concern about the threat from lone 
offender White Supremacist extremists.
---------------------------------------------------------------------------
    \3\ Former counterterrorism chief: Trump defeat may prompt right-
wing terror attacks, YAHOO NEWS, Aug. 18, 2020, https://news.yahoo.com/
former-counterterror-chief-trump-defeat-may-prompt-right-wing-terror-
attacks-190913288.html.
---------------------------------------------------------------------------
    How does NCTC view the threat from right-wing, including White 
Supremacist, extremists surrounding the election?
    Answer. Response was not received at the time of publication.
    Question 8. We know that foreign actors, mainly from Russia but 
others as well, took advantage of our open society by sowing dissent 
and misinformation via social media platforms like Facebook in the lead 
up to the 2016 election.
    To what extent and with what level of success have nations like 
Russia and others engaged in disinformation campaigns that target 
domestic extremist movements vulnerable to exploitation?
    Answer. Response was not received at the time of publication.
    Question 9. Law enforcement targeted various members of the 
accelerationist, neo-Nazi group, The Base, earlier this year.\4\ 
Reporting has suggested that the group's leader, Rinaldo Nazzaro, is 
living in Russia.
---------------------------------------------------------------------------
    \4\ In January, 7 different members of The Base were arrested 
across 3 States. This included the arrest of the former Canadian Army 
reservist Cpl. Patrik Mathews who had been missing and presumed to be 
hiding out in the United States since August after his car was found 
near the U.S.-Canadian border.
---------------------------------------------------------------------------
    Is there any indication of whether or not his actions and 
leadership of this violent White Supremacist group are approved of, 
supported by, or otherwise given safe haven by the Russian government?
    Answer. Response was not received at the time of publication.
    Question 10. In the course of their investigations, what 
similarities do your agents or analysts find between international 
violent White Supremacists and Salafist-jihadi extremists like those in 
al-Qaeda or ISIS?
    Answer. Response was not received at the time of publication.
    Question 11a. Women ``immigrants'' to the Islamic State have been 
fleeing the Caliphate by the hundreds, eventually returning to their 
native countries. Some appear to have embraced the group's ideology and 
remain committed to its goals.\5\
---------------------------------------------------------------------------
    \5\ Elena Pokalova, Pay More Attention to the Women of ISIS, 
DEFENSE ONE, Oct. 31, 2019, https://www.defenseone.com/ideas/2019/10/
pay-more-attention-women-isis/161012/.
---------------------------------------------------------------------------
    How is the United States addressing what may be a growing threat of 
attempted radicalization of women by ISIS and other terrorist 
organizations?
    Answer. Response was not received at the time of publication.
    Question 11b. Are there any programs or strategies targeting this 
specific concern?
    Answer. Response was not received at the time of publication.
    Question 12a. In February 2020, the U.N. Secretary-General reported 
that ``foreign terrorist fighters and adherents of ISIS will continue 
to pose short-, medium-and long-term terrorist threats on a scale many 
times greater than was the case with [AQ] from 2002 onwards, based on 
the much greater numbers involved.''\6\ Moreover, U.N. member states 
report that ``as many as 1,000 foreign terrorist fighters imprisoned on 
return to Europe prior to 2015 are expected to be released in Europe in 
2020,'' and many are assessed ``as still dangerous.''\7\
---------------------------------------------------------------------------
    \6\ Tenth report of the Secretary-General on the threat posed by 
ISIL (Da'esh) to international peace and security and the range of 
United Nations efforts in support of member states in countering the 
threat, U.N. SECURITY COUNCIL, Feb. 4, 2020, https://
www.securitycouncilreport.org/un-documents/document/s-2020-95.php.
    \7\ Id. Note: Factors cited as challenges to monitoring, 
interdicting, prosecuting, and/or rehabilitating foreign terrorist 
fighters in different regions include porous maritime borders, on-
arrival visas, evidentiary quality and admissibility standards, due 
process concerns, capacity constraints, and recidivism.
---------------------------------------------------------------------------
    How are FBI and NCTC coordinating with our partners overseas to 
prepare for the threat posed by those that are still assessed to be 
dangerous?
    Answer. Response was not received at the time of publication.
    Question 12b. What does the future look like for the release of 
convicted Islamic State supporters in the United States and are we 
equipped to deal with individuals that are assessed to still be 
dangerous here at home?
    Answer. Response was not received at the time of publication.
    Question 12c. How are your agencies coordinating with the Bureau of 
Prisons and other Federal, State, local, Tribal, and territorial 
partners on this matter?
    Answer. Response was not received at the time of publication.
    Question 12d. Furthermore, what new or emerging trends have you 
observed in home-grown violent extremists (HVEs) seeking to travel 
overseas and how have your respective agencies adapted?\8\
---------------------------------------------------------------------------
    \8\ For example, according to one report, a research coordinator at 
a Minnesota medical clinic seeking to join ISIS and an Arizona woman 
who planned to join al-Qaeda exhibited an ``increased level of 
determination in finding new ways around coronavirus-related travel 
restrictions.'' See: How the Coronavirus is Affecting American Jihadist 
Travelers, LAWFARE, Aug. 31, 2020, https://www.lawfareblog.com/how-
coronavirus-affecting-american-jihadist-travelers.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 13a. What controls are in place at FBI and NCTC to ensure 
objective and timely releases of intelligence assessments of threats to 
the homeland?
    What, if any, challenges do FBI and NCTC face in producing these 
assessments and what specific actions are planned to mitigate such 
challenges?
    Answer. Response was not received at the time of publication.
    Question 13b. Has anyone in the Executive Office of the President 
or the Office of the Director of National Intelligence requested that 
you edit, block, or change a piece of intelligence or limit the 
production of intelligence on particular topics?
    Answer. Response was not received at the time of publication.
   Questions From Chairman Bennie G. Thompson for Christopher A. Wray
    Question 1. At our World-wide Threats hearing last year, you stated 
that in 2019 the FBI arrested 107 domestic terrorism-related suspects 
and roughly 121 international terrorism suspects.
    What are the current numbers for 2020?
    Answer. Response was not received at the time of publication.
    Question 2a. After an investigation by an FBI Joint Terrorism Task 
Force, an ``involuntary celibate''--or incel--was recently arrested 
after harassing and threatening a Long Island couple for a year for 
reportedly ``rejecting and depriving him of sex to which he believed he 
was entitled.''\1\
---------------------------------------------------------------------------
    \1\ FBI's Terror Hunters Turn to a Different Threat, DAILY BEAST, 
Sept. 9, 2020, https://www.thedailybeast.com/fbis-terror-hunters-turn-
to-a-different-threat-incels.
---------------------------------------------------------------------------
    What do you assess the overall threat of the violent fringes of 
this movement or ideology to be?
    Answer. Response was not received at the time of publication.
    Question 2b. How do you classify this type of violence and how do 
you plan to counter it?
    Answer. Response was not received at the time of publication.
    Question 2c. Given the JTTF's involvement do you believe this to be 
a terrorism threat?
    Answer. Response was not received at the time of publication.
    Question 3. Last year during our world-wide threats hearing you 
stated that, ``the FBI has over 1,000 investigations involving 
attempted theft of U.S.-based technology that lead back to China, 
involving nearly all 56 field offices and almost every industry and 
sector.'' Please provide the committee with an updated assessment of 
this threat and its impact on the homeland.
    Answer. Response was not received at the time of publication.
    Question 4. Are you in favor of creating a Counterintelligence 
watch list and sharing information on individuals associated with 
counterintelligence threats with other agencies like DHS?
    Answer. Response was not received at the time of publication.
    Question 5. What do you assess the current status of the violent 
neo-Nazi group Atomwaffen to be, given recent law enforcement actions 
against various members of the group and its reported dissolution 
earlier this year?
    Answer. Response was not received at the time of publication.
    Question 6. How does FBI collaborate with DHS on targeted violence 
and terrorism prevention or related efforts? The CVE Task Force ended 
in 2017. Does the Government need a similar coordinating body or 
something different? Please explain.
    Answer. Response was not received at the time of publication.
    Question 7. We know that foreign actors, mainly from Russia but 
others as well, took advantage of our open society by sowing dissent 
and misinformation via social media platforms like Facebook in the lead 
up to the 2016 election.
    To what extent and with what level of success have nations like 
Russia and others engaged in disinformation campaigns that target 
domestic extremist movements vulnerable to exploitation?
    Answer. Response was not received at the time of publication.
    Question 8. Law enforcement targeted various members of the 
accelerationist, neo-Nazi group, The Base, earlier this year.\2\ 
Reporting has suggested that the group's leader, Rinaldo Nazzaro, is 
living in Russia.
---------------------------------------------------------------------------
    \2\ In January, 7 different members of The Base were arrested 
across 3 States. This included the arrest of the former Canadian Army 
reservist Cpl. Patrik Mathews who had been missing and presumed to be 
hiding out in the United States since August after his car was found 
near the U.S.-Canadian border.
---------------------------------------------------------------------------
    Is there any indication of whether or not his actions and 
leadership of this violent White Supremacist group are approved of, 
supported by, or otherwise given safe haven by the Russian government?
    Answer. Response was not received at the time of publication.
    Question 9. In the course of their investigations, what 
similarities do your agents or analysts find between international 
violent White Supremacists and Salafist-jihadi extremists like those in 
al-Qaeda or ISIS?
    Answer. Response was not received at the time of publication.
    Question 10a. Women ``immigrants'' to the Islamic State have been 
fleeing the Caliphate by the hundreds, eventually returning to their 
native countries. Some appear to have embraced the group's ideology and 
remain committed to its goals.\3\
---------------------------------------------------------------------------
    \3\ Elena Pokalova, Pay More Attention to the Women of ISIS, 
DEFENSE ONE, Oct. 31, 2019, https://www.defenseone.com/ideas/2019/10/
pay-more-attention-women-isis/161012/.
---------------------------------------------------------------------------
    How is the United States addressing what may be a growing threat of 
attempted radicalization of women by ISIS and other terrorist 
organizations?
    Answer. Response was not received at the time of publication.
    Question 10b. Are there any programs or strategies targeting this 
specific concern?
    Answer. Response was not received at the time of publication.
    Question 11a. In February 2020, the U.N. Secretary-General reported 
that ``foreign terrorist fighters and adherents of ISIS will continue 
to pose short-, medium- and long-term terrorist threats on a scale many 
times greater than was the case with [AQ] from 2002 onwards, based on 
the much greater numbers involved.''\4\ Moreover, U.N. member-states 
report that ``as many as 1,000 foreign terrorist fighters imprisoned on 
return to Europe prior to 2015 are expected to be released in Europe in 
2020,'' and many are assessed ``as still dangerous.''\5\
---------------------------------------------------------------------------
    \4\ Tenth report of the Secretary-General on the threat posed by 
ISIL (Da'esh) to international peace and security and the range of 
United Nations efforts in support of Member States in countering the 
threat, U.N. SECURITY COUNCIL, Feb. 4, 2020, https://
www.securitycouncilreport.org/un-documents/document/s-2020-95.php.
    \5\ Id. Note: Factors cited as challenges to monitoring, 
interdicting, prosecuting, and/or rehabilitating foreign terrorist 
fighters in different regions include porous maritime borders, on-
arrival visas, evidentiary quality and admissibility standards, due 
process concerns, capacity constraints, and recidivism.
---------------------------------------------------------------------------
    How are FBI and NCTC coordinating with our partners overseas to 
prepare for the threat posed by those that are still assessed to be 
dangerous?
    Answer. Response was not received at the time of publication.
    Question 11b. What does the future look like for the release of 
convicted Islamic State supporters in the United States and are we 
equipped to deal with individuals that are assessed to still be 
dangerous here at home?
    Answer. Response was not received at the time of publication.
    Question 11c. How are your agencies coordinating with the Bureau of 
Prisons and other Federal, State, local, Tribal, and territorial 
partners on this matter?
    Answer. Response was not received at the time of publication.
    Question 11d. Furthermore, what new or emerging trends have you 
observed in home-grown violent extremists (HVEs) seeking to travel 
overseas and how have your respective agencies adapted?\6\
---------------------------------------------------------------------------
    \6\ For example, according to one report, a research coordinator at 
a Minnesota medical clinic seeking to join ISIS and an Arizona woman 
who planned to join al-Qaeda exhibited an ``increased level of 
determination in finding new ways around coronavirus-related travel 
restrictions.'' See: How the Coronavirus is Affecting American Jihadist 
Travelers, LAWFARE, Aug. 31, 2020, https://www.lawfareblog.com/how-
coronavirus-affecting-american-jihadist-travelers.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 12a. What controls are in place at FBI and NCTC to ensure 
objective and timely releases of intelligence assessments of threats to 
the homeland?
    What, if any, challenges do FBI and NCTC face in producing these 
assessments and what specific actions are planned to mitigate such 
challenges?
    Answer. Response was not received at the time of publication.
    Question 12b. Has anyone in the Executive Office of the President 
or the Office of the Director of National Intelligence requested that 
you edit, block, or change a piece of intelligence or limit the 
production of intelligence on particular topics?
    Answer. Response was not received at the time of publication.
   Questions From Honorable Lauren Underwood for Christopher A. Wray
    Question 1. What steps, if any, did the FBI take to alert State and 
local officials in Wisconsin about specific threats of violent activity 
in their area leading up to last month's protests in Kenosha? To 
clarify, I am asking about statements posted publicly on-line, often 
under users' real names, not about private communications. Examples of 
the types of specific threats of violent activity I mean include 
comments made on social media such as ``I am on the way with 75 people 
from Green Bay We have lots of guns. Lots of pipe bombs. Going to 
cleanse the streets of rioters'' and ``Shoot to kill folks.''\7\
---------------------------------------------------------------------------
    \7\ Atlantic Council blog post (Aug. 26): https://medium.com/
dfrlab/armed-militias-mobilize-on-social-media-hours-before-deadly 
kenosha-shooting-1ee5925a035f.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 2a. The day after the Kenosha shootings, I heard from a 
mother in the alleged shooter's hometown in my district. She wrote, 
``There is a militia cell in Antioch that is becoming more and more 
emboldened to take the law into their own hands. I am becoming fearful 
to send my children to the same schools as White Supremacist militia 
members.''
    How would you recommend local law enforcement in Antioch engage 
with the community to defuse these tensions and prevent any violence?
    Answer. Response was not received at the time of publication.
    Question 2b. What is the Federal Government doing to help them do 
so? Please send my office a complete list of available resources.
    Answer. Response was not received at the time of publication.
    Question 3a. The Anti-Defamation League (ADL) has full-time staff 
whose job is to monitor domestic extremist activity in public on-line 
forums and alert the FBI when they identify an imminent threat of 
violence. After the Unite the Right Rally in 2017 where a protester was 
murdered by a White Supremacist, one ADL staffer was able to identify 
over 300 individuals in photographs of the rally that law enforcement 
officers had tried and failed to ID, because she recognized them from 
on-line extremist activity she was monitoring.\8\ Clearly, monitoring 
these public websites can be a very helpful resource for investigating 
and preventing domestic extremist violence.
---------------------------------------------------------------------------
    \8\ Cosmopolitan article (Aug. 7): https://www.cosmopolitan.com/
politics/a28483247/is-it-possible-to-stop-a-mass-shooting-before-it-
happens/.
---------------------------------------------------------------------------
    How many FBI agents are assigned to monitor this type of domestic 
extremist activity that is posted publicly on-line?
    Answer. Response was not received at the time of publication.
    Question 3b. What exactly are these agents doing to maintain the 
agency's awareness of the threat environment and share relevant 
findings with State and local partners?
    Answer. Response was not received at the time of publication.
        Questions From Honorable Lauren Underwood for Chad Wolf
    Question 1a. Part of the DHS mission is to assess threats to 
National security and inform State and local law enforcement partners 
about those threats.
    How many DHS employees are assigned to monitor domestic extremist 
activity in public on-line forums and share relevant information with 
State and local law enforcement?
    Answer. Response was not received at the time of publication.
    Question 1b. What exactly do these employees do to maintain an 
awareness of the domestic violent extremist threat environment?
    Answer. Response was not received at the time of publication.
    Question 1c. How do they determine when an actionable threat of 
violence emerges, and what steps are taken in that case?
    Answer. Response was not received at the time of publication.
    Question 2. DHS recently released a Public Action Plan for 
implementing the Strategic Framework for Countering Terrorism and 
Targeted Violence. Although the Framework states that ``White 
Supremacist violent extremism . . . is one of the most potent forces 
driving domestic terrorism,''\1\ the Public Action Plan does not 
mention White Supremacy even once.\2\
---------------------------------------------------------------------------
    \1\  https://www.dhs.gov/sites/default/files/publications/
19_0920_plcy_strategic-framework-countering-terrorism-targeted-
violence.pdf.
    \2\  https://www.dhs.gov/sites/default/files/publications/
cttv_action_plan.pdf.
---------------------------------------------------------------------------
    What is DHS doing to specifically address White Supremacist violent 
extremism?
    Answer. Response was not received at the time of publication.

                                 <all>
</pre></body></html>
